<html>
<title> - FATHERHOOD LEGISLATION</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




 
                         FATHERHOOD LEGISLATION

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 5, 1999

                               __________

                             Serial 106-30

                               __________

         Printed for the use of the Committee on Ways and Means

                     U.S. GOVERNMENT PRINTING OFFICE
63-641 CC                    WASHINGTON : 2000


                      COMMITTEE ON WAYS AND MEANS

                      BILL ARCHER, Texas, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
BILL THOMAS, California              FORTNEY PETE STARK, California
E. CLAY SHAW, Jr., Florida           ROBERT T. MATSUI, California
NANCY L. JOHNSON, Connecticut        WILLIAM J. COYNE, Pennsylvania
AMO HOUGHTON, New York               SANDER M. LEVIN, Michigan
WALLY HERGER, California             BENJAMIN L. CARDIN, Maryland
JIM McCRERY, Louisiana               JIM McDERMOTT, Washington
DAVE CAMP, Michigan                  GERALD D. KLECZKA, Wisconsin
JIM RAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. McNULTY, New York
JENNIFER DUNN, Washington            WILLIAM J. JEFFERSON, Louisiana
MAC COLLINS, Georgia                 JOHN S. TANNER, Tennessee
ROB PORTMAN, Ohio                    XAVIER BECERRA, California
PHILIP S. ENGLISH, Pennsylvania      KAREN L. THURMAN, Florida
WES WATKINS, Oklahoma                LLOYD DOGGETT, Texas
J.D. HAYWORTH, Arizona
JERRY WELLER, Illinois
KENNY HULSHOF, Missouri
SCOTT McINNIS, Colorado
RON LEWIS, Kentucky
MARK FOLEY, Florida

                     A.L. Singleton, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                                 ______

                    Subcommittee on Human Resources

                NANCY L. JOHNSON, Connecticut, Chairman

PHILIP S. ENGLISH, Pennsylvania      BENJAMIN L. CARDIN, Maryland
WES WATKINS, Oklahoma                FORTNEY PETE STARK, California
RON LEWIS, Kentucky                  ROBERT T. MATSUI, California
MARK FOLEY, Florida                  WILLIAM J. COYNE, Pennsylvania
SCOTT McINNIS, Colorado              WILLIAM J. JEFFERSON, Louisiana
JIM McCRERY, Louisiana
DAVE CAMP, Michigan


Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                                                                   Page

Advisory of September 29, 1999, announcing the hearing...........     2

                               WITNESSES

Bayh, Hon. Evan, a U.S. Senator from the State of Indiana........     8
Broward County Support Enforcement, Judith Fink..................    81
Carson, Hon. Julia, a Representative in Congress from the State 
  of Indiana.....................................................    13
Center for Law and Social Policy, Vicki Turetsky.................    24
Center on Budget and Policy Priorities, Wendell Primus...........    34
Institute for Responsible Fatherhood and Family Revitalization, 
  Charles Ballard................................................    20
Massachusetts Department of Revenue, Marilyn Ray Smith...........    86
Men's Health Network, and Kaye, Scholer, Fierman, Hays & Handler, 
  Ronald K. Henry................................................    30
National Center for Strategic Nonprofit Planning and Community 
  Leadership, Jeffery M. Johnson.................................    54
National Fatherhood Initiative, Wade F. Horn.....................    43
National Women's Law Center, Joan Entmacher......................    97
Rector, Robert, Heritage Foundation..............................    50
Shaw, Hon. E. Clay, Jr., a Representative in Congress from the 
  State of Florida...............................................    12
Supportkids.com, Kathleen Kerr...................................    73
Williams, Susan B., Cypress, Texas...............................    78

                       SUBMISSIONS FOR THE RECORD

Association for Children for Enforcement of Support, Inc., 
  Toledo, OH, Geraldine Jensen, statement........................   114
Bacarisse, Charles, Harris County, TX, statement.................   119
Coalition of Patent Support, Livermover, CA, Richard Bennett, 
  statement......................................................   120
Supportkids.com, Austin, TX, Casey Hoffman, statement............   123
Men's Health Network, Tracie Snitker, statement and attachments..   125
Texas Office of the Attorney General, Child Support Division, 
  Howard G. Baldwin, Jr., letter.................................   135


                         FATHERHOOD LEGISLATION

                              ----------                              


                        TUESDAY, OCTOBER 5, 1999

                  House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 12 noon, in 
room B-318, Rayburn House Office Building, Hon. Nancy L. 
Johnson, (Chairman of the Subcommittee) presiding.
    [The advisory announcing the hearing follows:]

Advisory

FROM THE COMMITTEE ON WAYS AND MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

FOR IMMEDIATE RELEASE                               CONTACT: (202) 225-1025

September 29, 1999

No. HR-11

          Johnson Announces Hearing on Fatherhood Legislation

    Congresswoman Nancy L. Johnson (R-CT), Chairman, Subcommittee on 
Human Resources of the Committee on Ways and Means, today announced 
that the Subcommittee will hold a hearing on fatherhood legislation, 
specifically the Fathers Count Act of 1999. A draft copy of the 
legislation is now available in the Subcommittee Office in room B-317 
Rayburn House Office Building. The hearing will take place on Tuesday, 
October 5, 1999, in room B-318 of the Rayburn House Office Building, 
beginning at 12:00 noon.
      
    Oral testimony at this hearing will be from invited witnesses only. 
Witnesses will include representatives from the Administration, 
individuals who administer programs for low-income fathers, child 
support administrators, and advocacy groups. Any individual or 
organization not scheduled for an oral appearance is encouraged to 
submit written comments on the proposed legislation for consideration 
by the Subcommittee and for inclusion in the printed record of the 
hearing.
      

BACKGROUND:

      
    Numerous studies suggest that unmarried poor fathers tend to have 
elevated rates of unemployment and incarceration compared to other 
fathers. These problems make it difficult for them to marry and form 
two-parent families and to play a positive role in the rearing of their 
children. As the consequence of the failure of the father to play a 
prominent family role, children, especially boys, repeat the cycle of 
school failure, delinquency and crime, unemployment, and nonmarital 
births.
      
    The Fathers Count Act of 1999 is designed to prevent the 
unfortunate cycle of children being reared in fatherless families by 
supporting projects that help fathers meet their responsibilities as 
husbands, parents, and providers. The bill is aimed at promoting 
marriage among parents, helping poor and low-income fathers establish 
positive relationships with their children and the children's mothers, 
promoting responsible parenting, and increasing family income by 
strengthening the father's earning power. The legislation aims to 
accomplish these goals by awarding grants to governmental and 
nongovernmental organizations that apply to the Secretary of the 
Department of Health and Human Services; grants will be awarded on a 
competitive basis. Some contend that government agencies can best 
conduct fatherhood programs. However, because the authors believe that 
helping poor and low-income fathers is best achieved by organizations 
that are indigenous to their own neighborhoods, the legislation 
reserves 75 percent of its grant funds for nongovernmental, especially 
community-based organizations.
      
    Projects must coordinate their activities with the Temporary 
Assistance for Needy Families (TANF) program, the Workforce Investment 
Act (P.L. 105-220), and the local child support enforcement agency. 
Some argue that the requirement that projects be coordinated with the 
child support enforcement agency, the TANF agency, and the agency 
conducting Workforce Investment Act programs will reduce the number of 
grant proposals because of the difficulty of receiving cooperation from 
so many agencies. On the other hand, given the vital role of child 
support and employment preparation in programs for poor and low-income 
fathers, coordination with these agencies seems necessary.
      
    Preference is given to projects that have an assurance from the 
child support enforcement agency that all payments on arrearages owed 
to the State will be given to mothers if the mother has left welfare. 
Because recent research shows that around half the mothers and fathers 
or children born outside marriage are cohabiting, and over 80 percent 
say they are in an exclusive relationship that one or both partners 
hopes will lead to marriage, the legislation requires half its grant 
funds to be spent on projects that emphasize the enrollment of fathers 
at the time of the child's birth.
      
    Chairman Johnson and Rep. Ben Cardin (D-MD) are expected to 
formally introduce the Fathers Count Act shortly.
      
    In announcing the hearing, Chairman Johnson stated: ``The 1996 
welfare reform law has been very successful in helping poor mothers get 
jobs and improve their economic circumstances. The next logical step in 
reforming welfare is to help poor fathers improve their economic 
circumstances and participate directly in the rearing of their 
children. To accomplish this goal, we must support programs that focus 
on improving relationships between poor young men and women to increase 
the prospects that they can marry and form two-parent families or at a 
minimum, work together to rear their children. Promoting marriage and 
two-parent families, and aggressively helping these men become 
responsible parents, is the next step in welfare reform.''
      

FOCUS OF THE HEARING:

      
    The purpose of the hearing is to receive comments on the Fathers 
Count Act. Although the Subcommittee is interested in comments on any 
issue raised by the legislation, it is especially interested in 
comments on the following issues: whether fatherhood services should be 
provided primarily by nongovernmental or governmental entities; what 
the level of coordination should be with child support enforcement 
agencies, the TANF agency, and the agency conducting Workforce 
Investment Act programs; whether child support arrearages should be 
given to mothers if the mother has left welfare, whether this would 
require amendments in State law, and whether the assurance would be too 
difficult for projects to obtain; whether the approach of earmarking 
funds for projects that emphasize the enrollment of fathers at the time 
of the child's birth is a good one, and whether the requirement that 
half of grant funds be expended on these projects is too high or too 
low. The Subcommittee will also receive testimony during this hearing 
on expanding access to government child support enforcement procedures.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Any person or organization wishing to submit a written statement 
for the printed record of the hearing should submit six (6) single-
spaced copies of their statement, along with an IBM compatible 3.5-inch 
diskette in WordPerfect 5.1 format, with their name, address, and 
hearing date noted on a label, by the close of business, Tuesday, 
October 5, 1999, to A.L. Singleton, Chief of Staff, Committee on Ways 
and Means, U.S. House of Representatives, 1102 Longworth House Office 
Building, Washington, D.C. 20515. If those filing written statements 
wish to have their statements distributed to the press and interested 
public at the hearing, they may deliver 200 additional copies for this 
purpose to the Subcommittee on Human Resources office, room B-317 
Rayburn House Office Building, by close of business the day before the 
hearing.
      

FORMATTING REQUIREMENTS:

      
    Each statement presented for printing to the Committee by a 
witness, any written statement or exhibit submitted for the printed 
record or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.
      
    1. All statements and any accompanying exhibits for printing must 
be submitted on an IBM compatible 3.5-inch diskette WordPerfect 5.1 
format, typed in single space and may not exceed a total of 10 pages 
including attachments. Witnesses are advised that the Committee will 
rely on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. A witness appearing at a public hearing, or submitting a 
statement for the record of a public hearing, or submitting written 
comments in response to a published request for comments by the 
Committee, must include on his statement or submission a list of all 
clients, persons, or organizations on whose behalf the witness appears.
      
    4. A supplemental sheet must accompany each statement listing the 
name, company, address, telephone and fax numbers where the witness or 
the designated representative may be reached. This supplemental sheet 
will not be included in the printed record.
      
    The above restrictions and limitations apply only to material being 
submitted for printing. Statements and exhibits or supplementary 
material submitted solely for distribution to the Members, the press, 
and the public during the course of a public hearing may be submitted 
in other forms.
      

    Note: All Committee advisories and news releases are available on 
the World Wide Web at ``HTTP://WWW.HOUSE.GOV/WAYS__MEANS/''.
      

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      

                                <F-dash>


    Chairman Johnson of Connecticut. I am very pleased to be 
calling today's hearing to order.
    Welfare reform has succeeded beyond our expectations. For 
several consecutive years, welfare rolls are down; employment 
by mothers, especially never-married mothers, is up; and child 
poverty is down. But I am concerned that some children and 
families leaving welfare appear not to be receiving the 
Medicaid and food stamps to which they are entitled and that we 
need to do more to help families with multiple barriers to 
entering the work force of our country.
    Even with welfare reform a striking success, we must not 
fail to move forward. To take the next step in welfare reform, 
we must find a way--or I should say one important next step in 
welfare reform is to find a way to help children by providing 
them with more than a working mother and sporadic child 
support.
    In recent years, both through research and testimony in our 
Subcommittee, we have learned a lot about fathers, the fathers 
of children in families that become dependent on welfare. More 
specifically, I would say that we have learned three big things 
about these fathers.
    First, poor fathers have problems very similar to those of 
the mothers who become dependent on welfare. They have poor 
education, poor work histories and significant barriers to 
work, such as addictions and prison records. Some have coined a 
new term for these fathers. Rather than deadbeat, they are 
``dead broke'' and under current law we have very few programs 
designed to help these fathers meet their obligations and 
fulfill their potential.
    On this first point, I am increasingly uncomfortable with 
how harsh our rhetoric has become about fathers who do not pay 
child support. Yes, fathers must pay child support, but when 
young men have trouble finding and holding employment, we 
should blame less and help more. Our harsh rhetoric should be 
reserved for those who could pay and don't or those who refuse 
to work and so can't pay. For them, no rhetoric is too harsh.
    Second, I think almost everyone has been amazed to find how 
many of these young, unmarried parents are living together at 
the time of the child's birth. Princeton Professor Sara 
McLanahan testified before our Subcommittee that half of these 
couples cohabitate, and an additional 30 percent tell 
interviewers they are involved in an exclusive relationship 
that they hope will lead to a permanent relationship, perhaps 
even to marriage. That is up to 80 percent now. I think that 
these parents have a close relationship that they want to keep 
is a good foundation to build on.
    I know that talk about marriage in this context may seem 
uncomfortable, but all the data affirm that the incidence of 
poverty, underachievement and abuse are simply far greater in 
one-parent households. Marriage is good for both adults and 
children, and public policy must begin to reflect that fact.
    We should not compel young couples to marry, but we should 
certainly hold it out as the expected standard and provide 
training to develop the skills that are necessary for a 
successful relationship. In fact, part of the problem seems to 
be that our society ceased to expect poor people to marry and 
that there was nothing wrong with millions of poor children 
being reared by single mothers, often on welfare.
    This view is completely out of touch with what we know 
about what it takes to make adults happy and healthy and, even 
more to the point, what it takes to rear strong and 
accomplished children. Marriage is good for both poor and 
nonpoor, for adults and children. If we can restore marriage to 
its rightful place at all levels of our society, we will have 
accomplished more than could be achieved by any government 
program we might design.
    Third, based on the Parent's Fair Share research and on 
testimony before this Subcommittee, I think we have learned a 
very important thing about young fathers. Even those with 
criminal records, and those who have never held a steady job, 
want to help their children and do what is best for them. Many 
of these young men say they don't want their children to grow 
up without a father the way they did. This finding that poor 
young fathers have a great desire to do what is best for their 
children, like everyone else, provides us with an anchor around 
which we can build good programs and provide the help so 
desperately needed. And build these programs we must. Hence 
today's hearing.
    Ben Cardin and I have written legislation that will provide 
money to create scores of fatherhood programs to help these 
young fathers in three ways: by understanding marriage, by 
promoting better parenting, including more contact with 
children and payment for child support, and by helping poor 
fathers find jobs and improve their skills across the board. 
Senator Bayh and others have written similar legislation in the 
Senate, and we look forward to working with them.
    Our legislation would create a national competition to 
select promising projects, most of which must be community 
based, including faith based. They must be coordinated with 
local child support offices and with both the agency conducting 
the Temporary Assistance for Needy Families programs, 
particularly the paternity identification, subprogram of TANF, 
and the work force investment board. Projects are strongly 
encouraged to pass through all child support payments to 
mothers once they have left welfare. This is a very big issue 
we are interested in.
    We would spend about $140 million funding these projects 
for 4 years. In addition, we are going to spend several million 
on an evaluation of the best projects to see if the projects 
are actually having effects on the father's employment, on 
relations with children and mothers, marriage and payment of 
child support.
    We have provided advance copies of the draft bill to our 
witnesses today and to all interested parties. The Subcommittee 
has already received very useful comments from the public, and 
we look forward to receiving more after today's hearing, after 
we hear from our distinguished witnesses.
    We have a real opportunity to help these fathers and, by 
doing so, to help the most disadvantaged children and mothers 
in our Nation. Ben Cardin and I intend to pass this legislation 
through the House in the very near future; and then, with 
Senator Bayh's able assistance, we hope to move it through the 
Senate to be signed by the President.
    I would like to yield to my colleague, Mr. Cardin.
    Mr. Cardin. Thank you, Madam Chairman. We are going to need 
help to, just the two of us, to pass it through the House, but 
I am optimistic when I look around the room and see the 
interest in this hearing on fatherhood initiatives. This is a 
very impressive group of people who are here, and I want to 
compliment you for not only holding this hearing but working in 
a very energetic, bipartisan way to bring all of us together so 
that we could get a fatherhood initiative introduced and 
hopefully enacted in this Congress.
    I want to acknowledge the presence of Senator Bayh, who has 
been one of the leading individuals in our Nation on this issue 
in the U.S. Senate, and Congressman Shaw, who is the former 
Chair of this Subcommittee who has been speaking for years 
about trying to do a fatherhood initiative in the House of 
Representatives.
    And it is a pleasure to have my friend Julia Carson here, 
who is one of the most articulate individuals on dealing with 
the problems of low-income individuals, including noncustodial 
fathers to be closer to the family unit.
    So we have in our first panel three members of the Congress 
who have really been national leaders on this issue.
    The Chair and I have circulated a draft legislation that we 
hope will be helpful in today's hearing. It, we believe, is an 
important step but certainly not the last step in helping 
fathers carry out their responsibility and be part of the 
family unit. It is a very important step.
    Now, I might tell you, we are working in a bipartisan way. 
There have been many suggestions that have been made, including 
those of the administration, to reauthorize the welfare-to-work 
program and expand it and provide moneys for the fatherhood 
program, which I support. What we are trying to do today is get 
a bill that can be signed into law. We don't have a budget yet. 
So we are working with a bill that has to be paid for, and it 
is difficult to find offsets. We would have liked to do more, 
but this is what we can come up with in a bipartisan way that 
we hope can receive support and be enacted.
    Let me just stress how important I think it is for us to 
move forward on a fatherhood initiative. Noncustodial fathers 
want to help their families, but many lack regular employment 
and have significant problems that need to be addressed. As the 
Chair pointed out, they are not deadbeat, they are dead broke, 
and we need to do something about that.
    It is also unfair to expect a low-income mother to bear all 
the responsibilities of financially raising a child. They need 
the assistance of the father, and a child is going to be better 
off financially and emotionally if both the mother and father 
participate in the rearing of that child. So these initiatives, 
I believe, are very, very important.
    I am proud to say that the legislation that we have 
circulated encourages innovative child support policies such as 
suspending State-owed arrears for participating parents, of 
passing through more of that child support to the family 
itself. So we think that can help in bringing together the 
father and the mother more into the family unit.
    We also expand eligibility and allowable activities under 
the current welfare-to-work program, and I think this is very 
important. We have a program out there, welfare to work, and it 
can help, including in fatherhood initiatives. The problem is 
that the current restrictions prevent us from getting that 
money out to where it is needed. So, in the legislation that we 
have circulated, we have adopted the recommendations of the 
United States Conference of mayors, the National Governors' 
Association and the National Association of Counties in an 
effort to allow the welfare-to-work program to really work and 
to help also in this area.
    I might tell you that this is a work in progress. There are 
issues that are still unresolved in the legislation that we 
have circulated, and that is why this hearing becomes so 
important.
    I am interested in your views on the draft legislation. I 
am interested in your views as to whether the initiative should 
be extended to noncustodial mothers in addition to noncustodial 
fathers. These are issues that we have not yet closed between 
the Chair and myself and the reason why we encourage you to be 
open and frank in your discussions today.
    Madam Chair, I look forward to hearing from all of our 
witnesses, and I want to welcome again our three distinguished 
colleagues.
    Chairman Johnson of Connecticut. Thank you.
    I would like to welcome the Senator, but, before I do that, 
I want to thank my friend and colleague, Hon. Clay Shaw, former 
Chairman of the Subcommittee, for yielding to the Senator.
    It should be noted that Clay, as Chairman of this 
Subcommittee, actually introduced legislation and began the 
process of developing the thinking along these lines in the 
House about how we better support fatherhood, and I am 
delighted to have him here today.
    And I thank you, Senator, for coming across and talking 
with us about this important subject today.

 STATEMENT OF HON. EVAN BAYH, A U.S. SENATOR FROM THE STATE OF 
                            INDIANA

    Senator Bayh.  Thank you, Chairman Johnson. I want to thank 
both you and Congressman Cardin for your hospitality today and 
your gracious words, but more than that I want to thank you for 
your leadership in taking on what I think is one of the most 
important challenges facing our country today.
    As you pointed out, our gathering today is bipartisan. It 
is also bicameral, and I am happy to be in the people's House 
today on this side of the Capitol. It struck me in my 9 months 
here how infrequently we do get together, but the fact that we 
are together here today on this issue I think is testimony to 
how important it really is.
    Congressman Shaw, I also want to thank you not only for 
your courtesy here this morning but also your leadership. The 
legislation you introduced last year sparked an important 
debate on how best to deal with this important challenge facing 
our country, and so I am grateful to you for that, as well as 
your kindness today.
    And finally, Madam Chairman, I want to say a word or two 
about not only my colleague, but my congresswoman, Julia 
Carson, who I have had the pleasure of working with for many, 
many years; and Julia has been in the frontlines of this battle 
before her coming to the U.S. Congress as trustee of Center 
Township in Indianapolis. She is known as someone who cares 
about children, who cares about families.
    Julia, it is good to be here with you again today fighting 
the good fight, and I thank you for your leadership and 
friendship.
    The irony in America's unprecedented economic prosperity 
today is the fact that many Americans still feel that the 
country is somehow or another off on the wrong track. There 
seems to be a fraying of the social fabric, and many indicators 
point to the increase in absentee fathers as a primary cause.
    America's mothers, including single moms, are heroic in 
their efforts to make ends meet financially while raising good, 
responsible children. Many dads are, too. But an increasing 
number of men simply aren't doing their part or are absent 
altogether. When both parents are involved, children are more 
likely to learn about personal responsibility, respect, honor, 
duty and the other values that make our communities strong. The 
troubling decline in the involvement of fathers in the lives of 
their children over the last 40 years is a trend that should 
worry us all.
    The number of children living in-households without fathers 
has tripled, tripled over the last 40 years, from just over 5 
million in 1960 to more than 17 million today. The United 
States, unfortunately, leads the world in fatherless families, 
and too many children spend their lives without any contact 
with their fathers whatsoever.
    The consequences of this dramatic decrease in the 
involvement of fathers in the lives of their children are 
severe. For example, a recent Journal of Research in Crime and 
Delinquency study found that the best predictor of violent 
crime and burglary in a community is not poverty but the 
proportion of fatherless homes in that community.
    When fathers are absent from their lives, children are five 
times more likely to live in poverty; twice as likely to commit 
crimes; more likely to bring weapons and drugs into the 
classroom; twice as likely to drop out of school; twice as 
likely to be abused; more likely to commit suicide; over twice 
as likely to abuse drugs and alcohol; and more likely to become 
pregnant as teenagers.
    Fortunately, community efforts have sprung up around the 
country to stem the rising tide of fatherless families and the 
consequences that result. This Subcommittee will soon hear from 
some of the leading experts in the field, several of whom I am 
happy to say were instrumental in helping Indiana start the 
Nation's first statewide comprehensive effort to tackle the 
problem of fatherlessness, helping over 5,000 Hoosier fathers 
to reconnect with their children.
    I have had the opportunity to work with and visit local 
fatherhood programs in my State. I have talked to fathers as 
they work to reengage with their children, learn how to become 
better parents and gradually build the trust that allows them 
to become emotionally as well as financially involved with 
their families.
    Just this past Friday, I was at the Father Resource Program 
run by Dr. Wallace McLaughlin in Indianapolis. This program is 
a wonderful example of a local, private/public partnership that 
delivers results. It has served more than 500 fathers, 
primarily young men between the ages of 15 and 25, by providing 
father peer support meetings, premarital counseling, family 
development forums and family support services, as well as 
coparenting, employment, job training, education and other life 
skills classes.
    The fathers there were eager to tell me when I asked about 
the difference these programs have made not only in their lives 
but in the lives of their children. One said to me, and I 
quote, ``After the 6-week fatherhood training program, the 
support doesn't stop. I was wild before, but this program 
taught me self-respect, parenting skills, responsibility.''
    Another one of the fathers said, quote, ``As fathers, we 
would like to interact with our kids. When they grow up into 
something, we want to feel proud and say that we are a part of 
that.''
    And yet another added, ``The program showed me how to have 
a better relationship with my child's mother, a better 
relationship with my child. Before, those relationships were 
just financial.''
    While the program's emotional benefits to families are 
difficult to measure we do know it has been successful in 
helping fathers enter the work force. Over 80 percent of the 
men who have graduated from the program are currently employed; 
and your bill, Congressman, would make a significant investment 
to help programs like these flourish and encourage new ones to 
develop.
    The investment called for by your legislation is fiscally 
responsible. It helps deal with the root causes, not just the 
symptoms, of many of the social problems that cost our society 
a great deal of money. Just a few examples:
    The cost to society of drug and alcohol abuse is more than 
$110 billion per year. The Federal Government currently spends 
$8 billion a year on dropout prevention programs, $105 billion 
on poverty relief programs for family and children. The social 
and economic consequences of teen pregnancy and associated 
problems are estimated to be $21 billion per year.
    All this adds up to a staggering price that we pay for the 
consequences of our fraying social fabric, broken families, and 
too many men who are not involved with their kids. Your bill 
will begin--one life at a time, one community at a time--to 
help make a real difference and will prove that the old adage 
that an ounce of prevention is worth a pound of cure is 
absolutely true.
    Now, I want to emphasize, in concluding, that I know, as I 
am sure the rest of us here recognize, that government alone 
cannot solve this problem. We can't legislate parental 
responsibility. But government can encourage fathers to behave 
responsibly, government can inform the public about the 
consequences of irresponsible behavior, and government can 
remove the barriers that currently exist in present law to 
responsible fatherhood.
    Again, I want to thank the Chairman, Congressman Cardin, 
Congressman Shaw and Julia and others who have been working on 
this issue. The Johnson-Cardin bill is similar in many respects 
to the Bayh-Domenici Responsible Fatherhood Act we introduced 
in the U.S. Senate. You make important reforms to the welfare-
to-work program, deal with the challenges in our child support 
system, create a grant program to expand access to programs 
like the Father Resource Program in Indianapolis and create a 
national clearinghouse to coordinate a media campaign and 
evaluate the success of our overall effort. I would like to 
continue working with you to see to it that this hearing leads 
to meaningful action to help deal with what is one of the 
foremost challenges of our time.
    Again, I thank you for your courtesy, and I look forward to 
working with you in a bipartisan way to make progress on this 
important issue. Thank you.
    Chairman Johnson of Connecticut. Thank you very much for 
your testimony, Senator, and for the good data that you brought 
to us through that means.
    [The prepared statement follows:]

Statement of Hon. Evan Bayh, a U.S. Senator from the State of Indiana

    Thank you Chairman Johnson for holding this hearing today. 
You and Congressman Cardin have shown both bipartisanship and 
true leadership in putting this bill together. It deals with 
one of the greatest social challenges of our time--the 
increasing prevalence of fatherlessness. I also want to 
acknowledge the work of Chairman Shaw in this area. His bill 
last year helped spark a healthy debate about how to best deal 
with this problem.
    The irony in America's unprecedented economic prosperity is 
that many Americans still feel the country is on the wrong 
track. There seems to be a fraying of the social fabric and 
many indicators point to the increase in absentee fathers as 
the cause.
    America's mothers, including single moms, are heroic in 
their efforts to make ends meet financially while raising good, 
responsible children. Many dads are too. But an increasing 
number of men are not doing their part--or are absent entirely. 
When both parents are involved, children are more likely to 
learn about respect, honor, duty and the values that make our 
communities strong. The troubling decline in the involvement of 
fathers in the lives of their children over the last 40 years 
is a trend that should worry us all.
    The number of children living in households without fathers 
has tripled over the last forty years, from just over 5 million 
in 1960 to more than 17 million today. The United States leads 
the world in fatherless families and too many children spend 
their lives without any contact with their fathers. The 
consequences of this dramatic decrease in the involvement of 
fathers in the lives of their children are severe. For example, 
The Journal of Research in Crime and Delinquency study found 
that the best predictor of violent crime and burglary in a 
community is not poverty, but the proportion of fatherless 
homes in that community.
    When fathers are absent from their lives, children are:
    <bullet> 5 times more likely to live in poverty;
    <bullet> twice as likely to commit crimes;
    <bullet> more likely to bring weapons and drugs into the 
classroom;
    <bullet> twice as likely to drop out of school;
    <bullet> twice as likely to be abused;
    <bullet> more likely to commit suicide;
    <bullet> over twice as likely to abuse alcohol or drugs; 
and
    <bullet> more likely to become pregnant as teenagers.
    Community efforts have sprung up around the country to stem 
the rising tide of fatherless families and the consequences 
that result. This Committee will hear from some of the leading 
experts in the field. Several were instrumental in helping 
Indiana start the nation's first statewide comprehensive effort 
to tackle the problem of fatherlessness, helping over 5,000 
Hoosier fathers to reconnect to their children.
    I have had the opportunity to work with and visit local 
fatherhood programs in Indiana. I have talked to fathers as 
they work to re-engage with their children, learn how to be 
better parents, and gradually build the trust that allows them 
to be involved emotionally, as well as financially, with their 
children.
    Just this past Friday, I was at the Father Resource 
Program, run by Dr. Wallace McLaughlin in Indianapolis. This 
program is a wonderful example of a local, private/public 
partnership that delivers results. It has served more than 500 
fathers, primarily young men between the ages of 15 and 25, by 
providing father peer support meetings, pre-marital counseling, 
family development forums and family support services, as well 
as co-parenting, employment, job training, education, and life 
skills classes.
    The fathers there were eager to tell me when I asked about 
the difference these programs have made in their lives and the 
lives of their children.
    One said to me, ``After the six week fatherhood training 
program, the support doesn't stop...I was wild before. The 
program taught me self-discipline, parenting skills, 
responsibility.''
    Another said, ``As fathers, we would like to interact with 
our kids. When they grow into something, we want to feel proud 
and say that we were a part of that.''
    And yet another, ``The program showed me how to have a 
better relationship with my child's mother, and a better 
relationship with my child. Before those relationships were 
just financial.''
    While the program's emotional benefits to families are 
difficult to measure we do know it is helping fathers enter the 
workforce. Over 80% of the men who have graduated from the 
program are currently employed. Your bill would make a 
significant investment to help programs like these flourish and 
encourage new ones to develop.
    The investment called for in this legislation is fiscally 
responsible--it helps deal with the root causes, not just the 
symptoms, of many of the social problems that cost our society 
a great deal of money.
    <bullet> The cost to society of drug and alcohol abuse is 
more than $110 billion per year.
    <bullet> The federal government spends $8 billion a year on 
dropout prevention programs.
    <bullet> Last year we spent more than $105 billion on 
poverty relief programs for families and children.
    <bullet> The social and economic costs of teenage 
pregnancy, abortion and sexually transmitted diseases has been 
estimated at over $21 billion per year.
    All this adds up to a staggering price we pay for the 
consequences of our fraying social fabric, broken families and 
too many men not being involved with their kids. Your bill will 
begin--one life at a time, one community at a time--to help and 
is a perfect example of the truth in the old adage: an ounce of 
prevention is worth a pound of cure.
    I know that government cannot be the answer to this 
problem. We cannot legislate parental responsibility. But 
government can encourage fathers to behave responsibly, inform 
the public about the consequences of irresponsibility, and 
remove barriers to responsible fatherhood.
    I want to thank Chairman Johnson and Congressman Cardin for 
your continuing work on this issue. The Johnson/Cardin bill is 
similar in many respects to the Bayh/Domenici Responsible 
Fatherhood Act of 1999. You make important reforms to the 
Welfare to Work program, deal with challenges in our child 
support system, create a grant program to expand access to 
programs like the Father Resource Program in Indianapolis, and 
create a National Clearinghouse to coordinate a media campaign 
and evaluate the success of the overall effort. I would like to 
continue working with you to ensure that your approach 
encourages Governors to take up this fight and provides them 
with the resources and relief from federal strings to make a 
real impact.
    Again, thank you Chairman Johnson and Congressman Cardin 
for holding this bipartisan hearing. I believe you have built 
on the momentum of our bipartisan effort in the Senate and look 
forward to working to help secure passage of important 
legislation in this area.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Congressman Shaw, it is a 
pleasure to have you.

   STATEMENT OF HON. E. CLAY SHAW, JR., A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Shaw. It is nice to be back. This is my first trip back 
to this old Subcommittee, and I must say, Madam Chairman, you 
look very good sitting there, and I am pleased to have you 
there. And I want to compliment you and Mr. Cardin in working 
together in a bipartisan way on such a big, big piece of 
legislation that is so necessary.
    I have no written statement, but I would like to speak just 
for a few moments from my heart to let you know how I feel 
about where we have come from and where we must go.
    Mr. Camp can testify to a number of years ago on this 
Subcommittee where there was no such thing as bipartisanship. 
We went through some very, very tough times of name calling. We 
were called mean spirited.
    I recall when we brought welfare reform to the floor, there 
was one member on the Minority side that all but referred to us 
as Nazis, making a comparison as to the Holocaust as to what we 
were doing to children.
    In the end, we did pull together; and we did come up with a 
bill after it was vetoed a few times that the President did 
sign on August 22, 1996, which probably has made more 
difference in the lives of single moms and children of anything 
that has ever been done. It simply taught self-esteem. For 
people that nothing was expected of, suddenly we changed that, 
and we did expect something of them, and we found that when you 
expect something of somebody, they will make something of 
themselves.
    That is where we are today, and we have seen that welfare 
reform has been, I think, perhaps the greatest social 
experiment of this century, and I think that the rest of the 
world will be looking at what we have been able to accomplish 
and probably follow our example. I would certainly hope so.
    But we are leaving one segment of the population behind, 
and that is the man that has fathered these children who are 
born of these single moms, and those are the ones that we have 
got to get to. We will be putting together an artificial type 
of population if we continue along these lines without going 
after the father to give him self-esteem, to see that he bonds 
with his kids.
    It is important for us to realize, just as these single 
moms and people that were on welfare for a generation had no 
role models, they had no one in the home that had ever held a 
job, these fathers have never lived in a home where there was a 
father. We all need role models, and why shouldn't it be our 
mother and our father, whether they be married or not? And that 
is what this fatherhood initiative does.
    I recall when we first introduced this, Ron Haskins and I 
were working on it, and I know some of the conservative talk 
shows thought we had lost our mind in bringing forth some 
legislation such as this, but we are going after the roots of 
poverty, the reason for poverty. It is not a question of just 
keeping people in a certain level, economic level, and just 
making them as comfortable as possible and not expecting 
anything of them. It is to take particularly these guys off of 
the street corner, have them bond with their kids, and they can 
then be the role model for their kids, and that is the way it 
should be. I think that is exactly what is absolutely needed.
    We hear the expression so much that it takes a village to 
raise a child. Well, that is fine to say, but primarily and 
first of all, it takes a mom and a father to raise a child, and 
that is where that responsibility lies.
    We hear so much about different educational programs, but 
you can talk to anyone you want to and if things are not right 
at home, I don't care how much money you spend in the 
classroom, you are going to have failing children, and this is 
what is important. We need to get to the roots of what is out 
there and solve some of these problems and bring these people 
together.
    So, again, I want to compliment this Subcommittee in 
bringing this forward in such a bipartisan manner and the 
Senator for carrying this companion legislation in the Senate. 
This is terribly important, and it is very important that we 
bring balance to welfare reform, and this is what it is going 
to take, and I congratulate you on the progress that you have 
made. I wish we had this bipartisanship on Social Security, and 
we would get that solved, too.
    Mr. Cardin. Maybe it is the Chairman.
    Chairman Johnson of Connecticut. Your comments are really 
right on target, Mr. Shaw, and it was that kind of foundation 
that you laid in the last session, as difficult as that session 
was, that has enabled us to go forward.
    I also can't help but reflect that in a way this is the 
ultimate in women's liberation, that we should begin seeing 
women and men actually the same way as human beings, with 
certain requirements and needs and capabilities.
    It is a pleasure now to welcome our colleague from the 
House and also from Indiana, Hon. Julia Carson; and like I have 
said before, you have come to this issue with a lot of 
experience. Pleasure to have you.

 STATEMENT OF HON. JULIA CARSON, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF INDIANA

    Ms. Carson.  Thank you very much. I feel honored. I am a 
fan of Congresswoman Nancy Johnson even though we come from 
different parts of the country and certainly come from 
different political philosophies and affiliations. She does a 
great job in the Congress, and I am happy that you are chairing 
this Subcommittee.
    And, Congressman Cardin, I could spend the rest of my 
limited time giving you the praise. It is good to be here and 
certainly with Hon. U.S. Senator Evan Bayh from the State of 
Indiana where we both hail, so all of you who have had feelings 
about Indiana know that we are here to change that image, 
whatever that might have been, and certainly to Congressman 
Shaw for all that he has done, his foresight and his wisdom.
    I come, I guess, as an expert witness. I was raised by a 
single mother, born out of wedlock, and I know firsthand what a 
lonesome feeling it is out in a big country when you don't even 
have your father's name.
    As a matter of fact, when I was a member of the Indiana 
General Assembly I authorized legislation that said that if a 
father was present and near when a child was born, that 
paternity was established at birth rather than through a court 
system, and the father's name would be on the child's birth 
certificate before the child left the hospital, before coming 
to the planet Earth. That has worked well. It does good for 
children to have both a mother and father's name affixed to a 
birth certificate, a child be born in a father's name. And so I 
thank you for the opportunity to testify here today on the 
Fathers Count Act of 1999.
    Nearly 25 million children, I guess more than one out of 
three, live absent of their biological father, and 17 million 
kids live without a father of any kind. About 40 percent of 
children living in fatherless households have not even seen 
their father in at least a year, and 50 percent of children who 
do not live with their fathers have never stepped foot into 
their father's home, and many have never stepped inside of 
their father's arms or their father's heart.
    The situation is even worse, unfortunately, for African-
American children, 70 percent of whom are born to single 
mothers and at least 80 percent can expect to spend a 
significant part of their childhood years living apart from 
their fathers. I believe we can agree that father absenteeism 
is a national problem that must be addressed to ensure the 
wellness and well-being of American children in the century 
ahead. For too long legislators and policymakers have ignored 
the father-child relationship; and I agree, Chairman Johnson, 
it is not always about deadbeat but about dead broke. It is 
about time that this issue gets full consideration by the 
Congress, and if it pleases the Subcommittee, I request that my 
testimony be entered into the record for the sake of time.
    I, too, am excited about this bipartisan relationship that 
has taken center stage in this Subcommittee, and I want to 
thank again Chairman Johnson for her leadership on fatherhood 
legislation and all of the wonderful people who are involved in 
this effort.
    I consider myself to be rather fortunate. I recently had 
the benefit of well-known scholars, along with Senator Bayh and 
practitioners, participate in a forum that I hosted last month 
entitled Responsible Fatherhood: Ensuring African-American 
Fathers Count, in conjunction with the Congressional Black 
Caucus 29th Annual Legislative Weekend. Dr. Jeffrey Johnson, 
who is president and chief executive officer of the National 
Center for Strategic Nonprofit Planning and Community 
Leadership, cohosted the forum with me, and Mr. Charles 
Ballard, founder and chief executive officer of the National 
Institute for Responsible Fatherhood and Family Development, 
was one of the outstanding panelists.
    What I admire most of all in this bill is that it 
acknowledges that a father should be a part of the equation for 
a child's success. By and large, the social programs developed 
to aid poor children have concentrated on helping mothers, not 
fathers, care for their children. It is not just the economic 
benefit of a two-parent family but it is the social and 
spiritual benefit of having a two-parent family involved in a 
child's life. Creating resources for fatherhood programs, 
providing greater flexibility for welfare to work eligibility, 
this bill seeks to bridge the divide between poor fathers and 
their children.
    I am happy to see that the bill allows for a variety of 
approaches to attack fatherlessness. When the welfare of 
children is foremost in our minds and hearts, we must be open 
to individual preferences, whether they are aligned with our 
personal ideologies or not. I wish all children could grow up 
in a two-parent household, but reality dictates that this will 
not be the case for every child. All fathers, whether living 
with the child or enjoying an amicable relationship with the 
mother, ought to be encouraged and supported in having a 
positive, productive relationship with their children.
    Fortunately, there are organizations such as Senator Bayh 
referred to. In my District, the Father Resource Program, a 
part of Wishard Health Services in Indianapolis, has been 
serving young fathers for over 5 years now, and their primary 
objective, as you know now, is to enhance the capacity of young 
fathers to become responsible and involved parents. A secondary 
objective aims to assist both fathers and mothers in developing 
skills and behavior necessary to cooperate in the care of their 
children.
    I would again for the sake of time ask, Madam Chair, that 
my remarks be put in the record for further reference and 
suggest that your bill would provide the opportunity for more 
success stories that would be incorporated in my remarks. The 
successes of the Father Resource Center, and with other 
programs around the country, prove that young men need only be 
given the guidance and the opportunity to better themselves, 
and improve the lives of their children.
    My first concern is one that I know Dr. Jeffrey Johnson 
shares, and that is about the eligibility requirements. We need 
to look at those. We cannot lose sight of the goal of getting 
resources and opportunities to fathers devoted to playing a 
role in the lives of their children.
    I would be remiss in terms of the perseverance of my mother 
if I did not mention that my mother worked full time, and we 
never drew a welfare check. So I don't want you to think that 
because I was born to a single mother that I was on the welfare 
rolls. That is far from the truth. That did not happen. I have 
to do that in reference to my mother who did a tremendous job, 
working mother, father and sister and brother and all those 
good things. But women do indeed need the support of fathers 
for their children and not in a negative sense, but fathers 
need to be eligible to help children.
    In Indiana, I notice that when fathers don't pay child 
support they lose their driver's license, and that is rather 
punitive, I think, for somebody who is trying to go out and get 
gainful employment, who has missed child support payments, to 
lose their driving license as a result of nonpayment. And so 
there are a lot of ways I guess that we can look at what is out 
there in terms of how it inhibits fathers from being 
responsible and see how we can address that as this legislation 
moves forward. Thank you from the bottom of my heart for your 
care and in sharing in this effort.
    [The prepared statement follows:]

Statement of the Hon. Julia Carson, a Representative in Congress from 
the State of Indiana

    Madam Chairwoman, as a child raised by a single mother and 
mother of 2 children, I thank you for the opportunity to 
testify here today on the Fathers Count Act of 1999. Nearly 25 
million children, more than 1 out of 3, live absent their 
biological father, and 17 million kids live without a father of 
any kind. About 40 percent of children living in fatherless 
households have not seen their fathers in at least a year, and 
50 percent of children who do not live with their fathers have 
never stepped foot in their father's home.
    The situation is even worse for African American children. 
70 percent of black children are born to single mothers, and at 
least 80 percent of all black children can expect to spend a 
significant part of their childhood years living apart from 
their fathers.
    I believe we can all agree that father absenteeism is a 
national problem that must be addressed to ensure the well-
being and prosperity of American children in the century ahead. 
For too long, legislators and policymakers have ignored the 
father/child relationship. It is about time that this issue 
gets full consideration by Congress. If it pleases the 
Committee, I request that my testimony be entered in the 
record. Thank you.
    I am excited to see this very important, bipartisan measure 
take center stage in this Subcommittee. I want to thank the 
Chairwoman for her leadership on fatherhood legislation and our 
colleague, from across the Capitol, Senator Evan Bayh for his 
bill, S. 1364, the Responsible Fatherhood Act of 1999. I am 
very hopeful we will accomplish passing a meaningful fatherhood 
bill before the end of this session.
    I consider myself to be rather fortunate. I recently had 
the benefit of well-known scholars and practitioners 
participate in a forum I hosted last month entitled Responsible 
Fatherhood: Ensuring African American Fathers Count, in 
conjunction with the Congressional Black Caucus' 29th Annual 
Legislative Conference. Dr. Jeffrey Johnson, President and CEO, 
of the National Center for Strategic Nonprofit Planning and 
Community Leadership, co-hosted the forum with me and Mr. 
Charles Ballard, Founder and CEO, of the National Institute for 
Responsible Fatherhood and Family Development, was one of the 
outstanding panelists. I am delighted that both gentlemen are 
here today to testify on the second panel.
    What I admire most of all in this bill is its 
acknowledgment that a father should be a part of the equation 
for a child's success. By-in-large, the social programs 
developed to aid poor children have concentrated on helping 
mothers, not fathers, care for their children. From creating 
resources for fatherhood programs to providing for greater 
flexibility for welfare-to-work program eligibility, this bill 
seeks to bridge the divide between poor fathers and their 
children. I am also happy to see that the bill allows for a 
variety of approaches to attack fatherlessness. When the 
welfare of children is foremost in our minds and hearts, we 
must be open to individual preferences whether they align with 
our personal ideologies or not. I wish all children could grow 
up in a two-parent household but reality dictates that this 
will not be the case for every child. All fathers, whether 
living with the child or enjoying an amicable relationship with 
the mother, ought to be encouraged and supported in having 
positive, productive relationship with their children.
    Fortunately, there are organizations already engaged in 
addressing the fatherlessness epidemic with innovative programs 
that are reconnecting fathers with their children, and 
solidifying relationships between men and their children. I ask 
the Subcommittee to indulge me as I tell you about one such 
program in my District. As it is often the case--a picture is 
worth a thousand words.
    The Father Resource Program, a part of Wishard Health 
Services, in Indianapolis, Indiana has been serving young 
fathers for over five years now. The primary objective of the 
program is to enhance the capacity of young fathers to become 
responsible and involved parents, wage-earners and providers of 
child support. A secondary objective aims to assist both 
fathers and mothers in developing the skills and behaviors 
necessary to cooperate in the care of their children, 
regardless of the character of their relationship.
    In its recent five year report, the Father Resource Program 
describes its success with one of its participants as follows:
    Thomas Crowell heard about the Father Resource Program on 
the radio, came in and signed up for the six-week Job Readiness 
and Fatherhood Development class. At that time he was lacking 
regular employment, did not have a high school or GED diploma 
and had substantial health problems. He was the father of one 
child with another on way, both by the same woman. While 
enrolled in the program, Thomas worked on his GED, tested and 
earned his diploma. Thomas better prepared himself for 
employment, fatherhood and college/vocational training. He 
established paternity. Thomas had an older brother in the Navy 
who recommended military service. He joined the Army and became 
a Private First Class and served in Kosovo. As soon as his 
assignment allows, he plans to begin enrolling in college 
classes through the Armed Services.
    Madam Chairwoman, your bill would provide the opportunity 
for more success stories such as Thomas'. The successes at the 
Father Resource Center, and with other programs around the 
country, are proving that young men need only be given the 
guidance and the opportunity to better themselves, and to 
improve the lives of their children.
    While I believe this bill is an excellent step in the right 
direction, I do have a few concerns I hope you will be mindful 
of as further development of the legislation takes place.
    My first concern is one I know I share with Dr. Jeffrey 
Johnson about the eligibility requirements. Consideration ought 
to be given to simplifying the eligibility requirements for 
receipt of services. We cannot lose sight of the goal of 
getting resources and opportunities to fathers devoted to 
playing a role in the lives of their children. I am afraid that 
the eligibility requirements of the drafted bill will defeat 
the overall objective here--reconnecting fathers with their 
children. I ask the Subcommittee to seek the advise of those 
individuals operating successful fatherhood programs on how 
best to balance the limited financial resources with the 
compelling need of our Nation's children for father 
participation in their lives.
    Another issue that has been raised with me is fathers' 
access to visitation with their children. Madam Chairwoman, 
responsible fatherhood, in my mind, is not just writing a check 
for child support. Fathers cannot fully participate in the 
upbringing of their children if they do not have access to 
their children. Young fathers in my District have expressed 
concern and dismay over visitation problems they have with 
their children's mothers. They tell me they have no rights in 
an expensive and time consuming legal system. They are often 
prohibited from seeing their children as a result of trespass 
statutes or protective orders.
    In my judgment, a key to increased successful father 
involvement is access to visitation. Where visitation is 
increased, child support payments are increased. Conversely, in 
cases involving visitation disputes, child support arrears 
increase. I want to make it clear that I am not advocating that 
we should buy into the notion that child support payments are 
made for visitation privileges. I just don't think we can 
ignore the trend that fathers, who have access to their 
children, are more inclined to keep their child support 
payments current. I, therefore, recommend that the Subcommittee 
be mindful of the difficulty some fathers have in getting 
visitation. I will defer to the experts on how best to do this 
but I would suggest that fatherhood programs should, at a 
minimum, be encouraged to support fathers seeking visitation.
    In Marion County in my District, there is a visitation 
coordinator assisting non-custodial parents with getting 
visitation through a process of mediation with the custodial 
parents. Getting parents to work out a visitation arrangement 
will only benefit the child in the long run by opening the 
lines of communication between the parents. I know, somehow, 
this will have to be a part of the effort to reconnect fathers 
with their children.
    Lastly, I am concerned as to whether we will invest enough 
in the future of children with this bill. Too many children in 
this country desperately need their fathers' financial and 
emotional support. I encourage the Subcommittee to be as 
financially supportive as possible to this measure. We must use 
every available resource to inspire men to be committed, 
loving, and responsible fathers.
    With that, Madam Chairwoman, I conclude my testimony. I 
trust I have made the case for this very important legislation. 
I thank you and the Subcommittee for your time.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you.
    Actually, your comment about the suspension law is a useful 
one. Because one of the things we have to do, and we have 
talked about this extensively with arrearages, how do you 
create a certain amount of protection from that kind of 
possibility for fathers who indeed are in arrearages or haven't 
being paying their child support but who clearly haven't been 
doing it because they don't have a decent job and they can't 
meet their responsibilities and they are filled with fear, 
frustration and paralysis? So we are going to in the arrearages 
area, and it might be worth it in every other area, to protect 
them from some of these other penalties that we have put in 
place as long as they are participating in a program and taking 
their responsibility and beginning to make payments and so on. 
So we thought about that in some areas but not in all.
    Let me just say, because we are going to have these votes, 
that the thing that I find most difficult in writing this 
legislation, so I hope you will kind of look at the wording of 
the legislation and share it with anybody in your territory 
that you want to, but we know we have a lot of resources out 
there. The Work force Investment Act made, for instance, our 
job training moneys far more flexible and thereby making a much 
greater difference in the lives of the unemployed and in the 
lives of women trying to move from welfare to work. It is easy 
to say you have to coordinate with that program.
    I am concerned about how do we get this program to latch 
into the fact that basically 80 percent of the fathers of the 
babies born out of marriage are actually there and part of the 
relationship for a year or two, at least, I mean, statistically 
about a year or two, and this is particularly important in 
terms of black young people. They are there. They lose 
interest, they become disheartened, they become discouraged. I 
mean, there are lots of reasons why it begins to fade away. So 
how do we coordinate with paternity identity? How do we get 
that going right at that very first minute?
    And one of the things--it is easy to see certain things, 
but as you talked, Clay, you mentioned, and you have all 
referred to the fact that they haven't grown up with the model 
of someone working: and you certainly did, Julia. But many of 
them aren't growing up not only with the model of someone 
fathering but also with the model of someone working.
    But there is something else that has come to our attention, 
and I think it is very important, and we are going to really 
have to grapple with. They aren't growing up with any example 
of what a male-female relationship is. They don't know what 
fighting is OK between people and what isn't. They don't know 
how to disagree. They don't know how to come back together. And 
so how can they do that with their children?
    And I think it was in your testimony, Senator, where the 
young man said, this has been so helpful to me in my 
relationship with the mother. And that is what we have in this 
bill, put some emphasis on--we have got to talk about marriage. 
We have got to talk about it not as a moral imperative and you 
are good if you do it and you are bad if you don't, but what 
are the skills you need in a marriage, just like what are the 
skills you need in a workplace. If you don't know that 
intuitively you can't do it.
    So how do we develop, how do we make sure that these 
programs talk about some of those things? Because they are 
difficult. And what are the programs that you had exposure to 
that think they are doing this? Because they are out there. And 
so what can we learn from them to make sure we write the 
legislation properly? For instance, I am very interested in a 
child support enforcement agency sending the fathers a 
statement at least every quarter about their payments, so they 
get some tangible sense of, look, I did this, just like with a 
bank account.
    So let me yield to my friend Ben for his comments, and then 
we will resume the next panel as soon as the votes are 
concluded.
    Mr. Cardin. Well, Madam Chair, let me agree with your 
observations and again thank our three witnesses.
    I think to a large extent the pass-through of child support 
to the family will help very much the noncustodial father to 
feel and be part of the family, and that is one of the reasons 
why in the draft legislation we emphasize that point, as we 
think that can help.
    Julia, in regards to the driver's license issue, there has 
been a lot of good initiatives at the State level. The State of 
Maryland, we have that right to withhold the driver's license 
from the father who was not paying child support, and we use 
that tool very, very effectively. We rarely suspend a license, 
but the ability to be able to suspend a license if the person 
who is in arrearage of child support doesn't come forward with 
a workable plan has been a very valuable tool, and we had a 
hearing on that recently.
    Clay, I agree with you. We need to proceed in a bipartisan 
way. And welfare reform, that you were very instrumental in, it 
may have been extremely controversial and it was extremely 
controversial, but there was a sense, a bipartisan sense that 
we had to move forward with changing our welfare system, and I 
think the same thing is true on the fatherhood initiative. We 
do have a bipartisan agreement that we haven't finished our 
work yet.
    I just wanted to underscore the fact that there are many 
States that are doing some really great things on fatherhood 
initiatives, including my own State of Maryland. They are able 
to do that under some of our existing programs, whether it is 
TANF or welfare to work.
    But what we want to do is underscore this need--I think, 
Senator Bayh, you said it best in your testimony--we want to 
make sure that we don't lose sight of encouraging States to 
come forward with new creative initiatives in this area, and we 
think this grant program can do that. We need to proceed on a 
very direct, bipartisan way to see that we stay within the 
parameters, so that the bill not only can pass the United 
States House of Representatives but that we also get it through 
the U.S. Senate.
    So, Senator, we are going to be looking upon you to give us 
good advice on how we can steer this bill through in a way that 
we can get it passed and signed into law.
    Mr. Shaw. Mr. Cardin, if I might comment briefly, this is 
new ground. There are some programs that are out there. I see 
some of them represented here by the witnesses seated in back 
of us here at the table.
    We are going to have to try a lot of things. We are going 
to have to monitor a lot of things to see exactly what works. 
But the basis of any program has to be one of trying to get 
self-esteem in the person that you are dealing with. If someone 
has no respect for themselves, as many of these people don't, 
they are not going to be able to succeed. So you have got to, 
first of all, believe in yourself, and this is something that I 
think has to be the basis of all--do you feel good about 
yourself, do you feel good about the fact you have a child, and 
there is a bonding there that takes place.
    The only difference in these people that we need to reach 
out to and you and me is that we got a head start. We were 
exposed to family and to love and we had some self-esteem and 
we were not put down all the time. But these people are just as 
good as we are, but they just come from different backgrounds 
and different levels of learning, and this is where the 
breakthroughs have to be made, but we have got to make them. We 
are training these young mothers to, go into the workplace, and 
we are creating an imbalance by doing that if we don't reach 
out to the fathers, too. So we need to work very, very hard on 
this, and we will see some programs that aren't going to work, 
but that doesn't keep us from trying to do a better job.
    Chairman Johnson of Connecticut. I think we have about 1 
minute left, and so we are going to adjourn. We have two 5-
minute votes after that, and then we will resume our hearing.
    [Recess.]
    Chairman Johnson of Connecticut. The Subcommittee will 
start. I understand Ben will be with us momentarily.
    I welcome this panel to the hearing and appreciate your 
input. I know you have all seen the bill and will have some 
comments for us, and I appreciate your participation here 
today.
    We will start with Mr. Ballard.

   STATEMENT OF CHARLES A. BALLARD, PRESIDENT, INSTITUTE FOR 
        RESPONSIBLE FATHERHOOD AND FAMILY REVITALIZATION

    Mr. Ballard. Thank you, Chairman Johnson, for this 
opportunity to be here today and for your leadership in moving 
this part of the agenda forward.
    Before I get into my comments, I would like to introduce my 
staff. We have our members here from the district.
    Why don't you just stand, all the institute staff, and my 
wife is here, Mrs. Ballard, who is my partner, the one in the 
brown suit there.
    Chairman Johnson of Connecticut. Welcome, all of you.
    Mr. Ballard. You place a lot of emphasis on marriage and we 
certainly concur with that, and not just concur with that, but 
we actually take married couples and we place them back into 
the community that are in disrepair. And you indicated earlier 
that they don't see marriage, they don't see men, and so we are 
answering that by taking men and women back to the community to 
be the kind of model that were missing over the past few years.
    When I grew up down south, you saw mostly two--homes that 
had two parents back in the fifties and today less than 40 
percent of our homes have two parents in them. So marriage, 
good, loving marriage, not just marriage itself, but good, 
loving, compassionate marriages are the key to any type of 
programming. And so we applaud your efforts to really put this 
whole idea of marriage back into the family.
    I want to just respond to some of the parts of the bill 
that I believe that if we can work with and correct, we can 
create better communities. You mentioned in your comments that 
as a consequence of the failure of fathers to play a major part 
in a family, children, especially boys, repeat the cycle, 
school failure, delinquency and so on; we call that the sins of 
the fathers.
    So we believe that in order to work with young fathers, we 
must also work with adult fathers. It is not just enough to 
help him get the job, but the older father who could work in 
the first place needs to have a sense of healing in his life.
    You also indicated at least in the bill that we should work 
with the IV-Ds and the TANF and the like, and last year we got 
a grant from Labor of $4.3 million, and we immediately went to 
the cities and States to work with TANF, to work with IV-D and 
so on.
    I will give you three experiences that we had in trying to 
work with them. In one city the director refused to give us any 
names, I mean just outright refused. They changed since we 
wrote a letter to them, and some people got involved in them. 
In another city, the local agencies that were contracting with 
the State say we will give you names if you pay for the names. 
So they were put there for the purpose of helping families out, 
we have to pay them to get the names from them.
    From the last one, we finally got some names, 257 names. We 
went out into the community knocking on doors and we only found 
152 real names, the rest of them were duplications, people were 
dead and addresses were wrong. So even though they give us 
these names, many on the caseload didn't exist. Now we sent the 
names into the State explaining to them what we had done. That 
was over a year ago and they have not responded.
    So it says how many of these cases are really real cases 
that we are paying people to manage. So we believe that if we 
are going to work with the IV-Ds and the like, we need to make 
sure it is not a coercive experience because some smaller 
agencies will have a hard time trying to get through the 
paperwork.
    Now we made it because of our tenacity, and what we did, we 
went to the streets, gone to the community. We went outside of 
that area, so we knock on doors. And I would like to give you 
some stats in terms of what happened since October 1st of last 
year through June 30th.
    We knocked on 7,000 homes around the country in our sites. 
We had 2,931 face-to-face contacts with individuals with these 
services, 1,695 individuals agreed to participate in our 
welfare-to-work program. 1,067 qualified based upon the 
welfare-to-work status. We enrolled because of our limited 
staff 755 in our company's assessment. Since October 1 we have 
placed in full-time employment, 402 individuals, we call 
proteges, and these are the hard to place, ex-convicts, ex-
alcoholics, ex-drug addicts.
    But the reason we were to do it is because we live in the 
community, and they see us. You made a comment earlier about 
the idea of the young men seeing the sermon in action. That is 
what I call it, the sermon. And I think what we have been able 
to do through our program is not just have success, but the 
success is based upon individuals, men and women, who are 
married to each other and they are living next door to those 
that they serve.
    Chairman Johnson of Connecticut. Mr. Ballard, if I may, I 
forgot to mention at the beginning that especially with a large 
panel, the lights are unfortunately important, so if you could 
just----
    Mr. Ballard. Am I finished now?
    Chairman Johnson of Connecticut. You are technically 
finished, but since I didn't tell you at the beginning, if you 
want to just use a couple of sentences to finish. I notice in 
your testimony, you have 5 recommendations for us to strengthen 
our legislation. And I think pretty much they are self-
explanatory, although you might want to mention the Federal 
match, and we will get to that more in questioning anyway.
    Mr. Ballard. Yes. My concern when I first started 17 years 
ago, it was very difficult for us to qualify for Federal grants 
because we had to get the match, and even the match that was in 
kind was very difficult. I think if we are going to go into the 
inner city community and the grass roots organization, 
requiring a match that in many cases is cash and in kind may be 
foreboding. I would suggest a minimum of 15 percent, which will 
be mostly in-kind services.
    Thank you.
    [The prepared statement follows:]

Statement of Charles A. Ballard, President, Institute for Responsible 
Fatherhood and Family Revitalization

    Chairman Johnson, thank you for the bipartisan leadership 
you and Congressman Cardin, from my home state of Maryland, are 
providing to empower the fathers of America to build more 
loving and compassionate homes in which to raise their 
children. You have correctly noted that this agenda is the next 
and most challenging phase of welfare reform.
    I commend you for the approach and objectives you have set 
forth with regard to uplifting marriage and parenting as a 
central goal in Fathers Count. This is a most welcomed 
development after more than three decades of federal policies 
that punished marriage and asset accumulation. These federal 
policies helped to create a `miasma of fatherlessness' in 
America for our children. Fatherlessness a condition of 
violence, neglect and abandonment created when there is no 
loving, compassionate and nurturing father who is willing to 
care for and protect his children and their mother.
    I also commend you for the attention given to the 
attendance of fathers at the birth of their first child, (I 
want to see the language expanded to birth of their children), 
and presume this to mean involvement by the father during 
pregnancy from the first trimester forward. If the man is 
loving and compassionate toward his child's mother during this 
critical stage of development, our research indicates it will 
have a tremendous effect on the outcome of the pregnancy, 
including reduced infant mortality.
    I come before you today with more than 22 years of hands-on 
experience working with fathers of all ages, creeds, races and 
social status. Our organizational experience includes 
management, over the past 4 years, of the only national multi-
site demonstration placing married couples in high risk 
communities, and providing intensive in-home services on a 
``24-7'' availability basis, while living a risk-free life 
style. Request for our services have come from more than 70 
communities. Your bill will help to catapult this movement to 
its full potential along with sound evaluation.
    The following are five (5) recommendations that we believe 
would strengthen the proposed legislation:

1. Marriage:

    Promoting good loving, nurturing marriages is a very good 
idea. Perhaps, no message coming out of Congress is so 
important as ``promoting marriage and two parent families; and 
aggressively helping men become responsible parents.'' This, if 
appropriately funded, will do much to build sturdy communities, 
while reducing violence, poverty, educational failure, crime, 
child abuse and neglect, and a host of other problems.
    Some will argue ``just give the man a job and he will get 
married and care for his family.'' If a young, poor, uneducated 
father gets his education and gets a job, he will pay child 
support. In 1959, I walked out of a Georgia prison, a high 
school dropout, with a chronic stuttering problem, an 
undesirable discharge from the Armed Forces, and going back to 
segregated Alabama. Although, all of these strikes were against 
me, I voluntarily went to the court with my former girlfriend 
and my mother to take legal responsibility for my abandoned 
five-year-old son.
    My mother and others tried to talk me out of it. They told 
me that because of my prison record, dropping out of school and 
my undesirable discharge, I would not be able to get a job and 
care for my son, alone. However, I felt that since I had 
abandoned my son for nearly 5 years, no matter what, I should 
take full responsibility for his care. So, my son and I left 
Besseman, Alabama and moved to the Huntsville area. For the 
next year, I could not find a good paying job. However, we were 
never homeless or hungry, and most of all we had each other. 
Finally, in 1961, I went to work as a dishwasher at a local 
restaurant making $21.00 a week! Two years later, I worked at a 
laundry making $40.00 a week!
    In 1964, I received my GED; and, in 1970 a BA degree in 
Sociology and Psychology. In 1971, I sent my son to a private 
Christian School; and in 1972 I received a Master's Degree from 
Case Western Reserve University in Cleveland, Ohio. Today, my 
son is 44 years old, is married, and has four children and two 
grandchildren. He has a Master's Degree and works at a Human 
Service Agency.
    Today, I am happily married to the former Frances Hall, and 
we have three children, Jonathan (14), Lydia (12), and 
Christopher (5). My wife and I manage the Institute for 
Responsible Fatherhood and Family Revitalization together. Why 
do I tell you this story? Well, my heart was changed in prison. 
From that point on I said to myself, ``I want to father my son, 
differently. I want to do more than pay child support--I wanted 
to make a difference.''
    There are many young and old men who have good paying jobs. 
However, they avoid getting married and paying child support. 
There are many men who are well educated, have good paying jobs 
and are married. Many of these men divorce their wives and 
children and refuse to pay child support, sending their 
children into poverty. So just having a job doesn't mean that a 
man will get married or if he is married, will care for his 
family. What is missing in these men's lives is a change of 
heart, a change of attitude. Then marriage, fidelity, love, 
affection, nurturing and compassion will have real meaning.
    We must promote marriages that are made up of this kind of 
good stuff. Then men will get married and care for their 
families until death. This is a relatively new area for the 
American welfare reform system, and there needs to be clear 
curriculum regarding marriage and dealing with the economic 
situation of fathers. If we do not invest in the most promising 
practices with demonstrated track records and clear-cut 
performance measures, I am concerned that an unintended 
consequence could be to replicate the failed experience of 
major federal expenditures in the area of teen pregnancy and 
similar programs.

2. Projects of National Significance:

    I believe that in order to give the national fatherhood 
programs real significance, we must provide real resources so 
that they can reach a larger number of fathers. Therefore we 
recommend that the $5 million level presently set aside for 
``Projects of National Significance'' be extended for each of 
the four years of the demonstration. This would allow national 
projects to reach critical mass of greater depth and further 
impact across five cities instead of only three. Multi-site 
data on marriage, employment, paternity, and other indicators 
could help generate best practices for the newer programs. By 
following this recommendation the lives of thousands of fathers 
and many more thousands of children will be positively 
affected, not only would the approach reduce welfare rolls, but 
would create healthier economical outcomes for children.

3. The Fathers Presence At Birth Of All Children:

    The enrollment of 50 percent of participants at the time of 
the child's birth should not be conditioned to just ``the first 
child.'' Whether it is the first or third child, father 
presence is equally needed. ``Responsible fatherhood'' to many 
men is a new concept, when you expand it beyond paying for the 
rent, food, clothing and similar house related expenses. Some 
fathers may already have one or two children for whom they were 
not present at the birth. This will be a new and rewarding 
experience for them to be a part of, even if this is their 
third or fourth child.

4. Non-Federal Funding Match:

    Regarding the non-federal funding match, we are concerned 
that smaller grassroots organizations may have difficulty 
achieving this requirement. Reducing this to a 15% match would 
ameliorate this concern, since the match appropriately includes 
both cash and in kind contributions.
5. Need For Improvement Regarding Welfare To Work Amendments:

    The greatest area of needed improvement in this fine 
legislation is not in the Fathers Count title but in the second 
title regarding Welfare to Work Amendments. We strongly oppose 
the proposed requirement to mandate personal responsibility 
contracts that government has used throughout its conventional 
poverty programs. Mandating enforcement and rigid governmental 
oversight through the state 4-D child support agencies would be 
an anathema to grassroots operations, such as ours, and like 
entities. I believe that the requirement that projects be 
coordinated with the child support enforcement agency, the TANF 
agency, and the agency conducting Workforce Investment Act 
Programs will reduce the success of this project. Case in 
point, in 1998 the Institute received a 4.3 million-dollar 
grant from the Department of Labor. We went to the above 
agencies across the country and the results were less than 
encouraging. If we had to wait on these agencies, our success 
would have been greatly diminished. Instead, we took to the 
streets, knocking on doors to find fathers to work with. Note 
the results below. Since October 1, 1998 the Institute for 
Responsible Fatherhood and Family Revitalization has had the 
following results with the very difficult to place fathers:
    1. Out of 7,000 homes reached through door to door efforts 
we had 2,931 face to face interview with proteges (recipients 
of service).
    2. 1,695 proteges agreed to participate in the program.
    3. 1,067 proteges qualified for the Welfare to Work 
program.
    4. 755 were enrolled through our comprehensive assessment.
    5. 402 proteges were placed in full-time, unsubsidized 
employment.
    6. The average hourly rate is $7.17
    7. The average hourly wage in Washington, DC is $8.14
    8. Our national retention rate is 70%

The most important parts of this legislation are:

    1. That men and women see good, healthy marriages as good 
for the children mothers and fathers.
    2. That men show their children how much they love them by 
respecting and honoring the children's mother;
    3. That men find and retain gainful employment and provide 
financial support to their children through the courts;
    4. That men eliminate violence and child abuse in their 
homes;
    5. That all fathers whether married, single, or divorced, 
addressed by this legislation spend nurturing, loving and 
quality time with their children, while providing them with a 
sense of security.
    All organizations applying for these funds, who agree to 
reach these objectives will meet the goal of this legislation. 
We do support the bill's encouragement of voluntary paternity 
acknowledgment. In our program, fathers volunteer to pay 
through the courts, so that the child's mother gets credit. 
Case Western Reserve University and the University of 
Tennessee, in two independent evaluations, documented this 
markedly increased child support by fathers enrolled in our 
program.
    We applaud the very positive changes regarding pass-through 
of child support arrears, that would create an incentive for 
responsibility, rather than another stifling hand of the state 
that would drive more fathers underground.
    Across America, we have engendered a new movement of 
responsible fatherhood. And, we are ready for the challenge of 
assisting this Congress in ushering in a new era. We strongly 
promote the premise that a loving and compassionate marriage is 
the most successful home environment to break this vicious 
cycle of fatherlessness.
    Thank you for your leadership in empowering grassroots 
community-based organizations to meet this challenge.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you, and we will get 
back to some things in discussion hopefully.
    Ms. Turetsky.

STATEMENT OF VICKI TURETSKY, SENIOR STAFF ATTORNEY, CENTER FOR 
                     LAW AND SOCIAL POLICY

    Ms. Turetsky. Chairwoman Johnson, and Members of the 
Subcommittee, I very much appreciate the opportunity to testify 
today about the proposed Fathers Count Act of 1999.I am a 
senior staff attorney at the Center for Law and Social Policy, 
or CLASP, and before working at CLASP, I was employed by MDRC, 
where I helped implement the Parents' Fair Share pilot project 
for unemployed noncustodial parents of AFDC children.
    In particular, I helped design and implement the child 
support features of that project. I saw firsthand how 
challenging and yet how worthwhile it is to develop strong 
collaborative relationships among community-based 
organizations, child support offices, TANF agencies and job 
training agencies; all mobilized to help fathers. Sometimes 
those collaborations were more successful than others, and 
sometimes the States were able to bring funding into the 
project in a way that enhanced services for noncustodial 
parents.
    And I also heard directly from many noncustodial parents, 
mostly dads, about their affection for their children, their 
hope for getting good work and their suspicion of the child 
support system.
    My testimony today won't focus much on the vision of the 
Fathers Count Act. We compliment the Subcommittee on its 
bipartisan approach to fatherhood and we especially appreciate 
the focus on low-income fathers, the emphasis on child support 
distribution policies, and the demonstration and evaluation 
aspect of the legislation. We also appreciate the increased 
flexibility of welfare-to-work provisions.
    Instead of focusing on vision today, my focus will be more 
prosaic, identifying ways to strengthen the policy and 
technical aspects of the proposed legislation.
    My primary recommendation is to increase the flexibility of 
the program to encourage innovative, well-designed projects and 
to encourage States to participate in those projects. As 
Wendell Primus described in his written testimony, the name of 
the game here is collaboration. Projects which are designed to 
require collaboration among community-based organizations, 
State agencies and local agencies will produce better, more 
responsive State policies and practices.
    In this light, it is important to include the State child 
support program as a demonstration partner. Under the proposed 
legislation, the State TANF agency and work force investment 
board must be formal project partners. The State child support 
agency should also be made a formal partner.
    There are two reasons why. First, implementation of the 
child support component of the project will require a 
substantial commitment by the child support program. Second, 
the Parents' Fair Share demonstration findings indicate that 
the most successful programs were those where the child support 
agency was actively involved.
    My second recommendation is that the legislative language 
limiting participation to fathers be expanded to allow for 
participation by mothers and custodial parents. A number of 
innovative fatherhood programs, including, I believe, Mr. 
Ballard's program, include the joint participation of the 
mothers of the fathers' children, in other words, the custodial 
mothers, to help those fragile families strengthen those 
relationships, share parenting responsibilities, reduce 
conflict and consider marriage.
    Yet the statutory language would appear to preclude joint 
participation by both parents in a coparenting or marriage 
component. In addition, noncustodial mothers may be in exactly 
the same boat as noncustodial fathers, depending upon the 
particular circumstances and services offered by the project. 
Projects should be allowed to provide services for this range 
of individuals depending upon the project's design and purpose.
    Third, project eligibility rules should be clarified and 
harmonized with welfare-to-work requirements. There are two 
points here. First, the legislation ties the father's 
eligibility to his child's current public assistance status and 
there is a 24-month lag allowed. But if the child loses 
eligibility--no longer qualifies under the terms of the law--
the project has to stop serving the father midstream as it 
were. The language should be clarified to allow for the 
father's continuing project participation even once initial 
eligibility has been established.
    Second, a community-based organization running a fatherhood 
program might operate with a variety of funding streams, and it 
is easier for those programs to have more flexible funding 
streams that allow for similar eligibility requirements.
    My fourth recommendation is to expand the flexibility of 
projects and States to test child support innovations and to 
clarify the legal support to pass through child support to 
families in the project.The legislation should include more 
flexibility as well, particularly passing through support while 
the family is still receiving assistance.
    Current family first distribution rules generally allow for 
post-TANF distribution, so the language in the proposal needs 
to be tweaked.
    Fifth, the legislation should be clarified and include more 
project flexibility concerning cancelation or suspension of 
arrearages. There are a number of good approaches here in 
addition to outright cancelation and a number of policy 
considerations.
    In sum, we think the legislation is headed in the right 
direction, and we recommend for the longer term, across the 
board changes in the distribution laws to allow for full 
distribution of child support to families.
    Thank you.
    [The prepared statement follows:]

Statement of Vicki Turetsky, Senior Staff Attorney, Center for Law and 
Social Policy

    The proposed legislation creates demonstration grant 
projects that focus on low-income fathers and their children, 
increases the flexibility of the Welfare-to-Work program, and 
provides needed penalty relief to states that failed to meet 
the deadline for implementing the State Disbursement Unit (SDU) 
for child support payment processing.
    The goals of encouraging marriage, promoting good 
parenting, and improving the economic status of low-income 
parents are shared by CLASP. CLASP supports a demonstration 
project approach to new fatherhood funding. In addition, CLASP 
supports the focus of the Subcommittee on distributing more 
support to families. However, we have a number of 
recommendations regarding the proposed legislation:
    <bullet> It is important to include the state child support 
program as a demonstration partner.
    <bullet> Project participation should not be restricted to 
fathers.
    <bullet> The language should expressly allow states to 
spend TANF MOE funds as the 25 percent non-Federal match.
    <bullet> Project eligibility should be clarified and 
harmonized with Welfare-to-Work requirements.
    <bullet> The legislation should increase the flexibility of 
projects and states to test child support innovations designed 
to help low-income parents and their children.
    <bullet> State authority to pass through support to 
families should be clarified.
    <bullet> Distribution of arrears paid by project 
participants may be difficult to implement on a small scale.
    <bullet> The language should clarify whether projects 
should cancel or suspend payment of arrearages.
    Chairwoman Johnson and Members of the Subcommittee:
    Thank you for this opportunity to testify today about the 
proposed ``Fathers Count Act of 1999.'' I am a Senior Staff 
Attorney at the Center for Law and Social Policy. CLASP is a 
nonpartisan, nonprofit organization engaged in analysis, 
technical assistance and advocacy on issues affecting low-
income families. We do not receive any federal funding. My 
focus at CLASP is child support. Before working at CLASP, I was 
employed by Manpower Demonstration Research Corporation (MDRC), 
and helped implement the Parents' Fair Share (PFS) pilot 
project for unemployed noncustodial parents of AFDC children.
    The Subcommittee's proposed legislation creates 
demonstration grant projects that focus on low-income fathers 
and their children and increases the flexibility of the 
Welfare-to-Work program. The goals of encouraging marriage, 
promoting good parenting, and improving the economic status of 
low-income parents are shared by CLASP. CLASP supports a 
demonstration project approach to new fatherhood funding. 
Research results from the Parents' Fair Share and other 
demonstration projects suggest that there is much to learn 
about helping the poorest fathers improve their economic and 
parenting prospects. The child support provisions of the 
proposed legislation recognize the negative impact of current 
child support assignment and distribution policies on low-
income parents and their children, and aims to increase the 
amount of support distributed to families.
    The proposed legislation creates a federal competitive 
matching grants program available to public and private 
entities for projects designed to promote marriage, to promote 
successful parenting, and to help fathers improve their 
economic status. To participate in a project, an individual 
must be (1) a father of a child receiving (or previously 
receiving) TANF, Medicaid, or Food Stamps, or a father 
(including an expectant father) with income below 175 percent 
of poverty. The proposed legislation includes a $36.356 million 
appropriation for the grants program (including project grants, 
evaluation, and federal administration) and an additional $15 
million appropriation for three grants to national non-profit 
fatherhood promotion organizations.
    The legislation also amends the Welfare-to-Work program and 
provides penalty relief for states failing to meet the State 
Disbursement Unit (SDU) deadline under the child support 
program. We generally support these changes.
    My testimony today will focus on a number of 
recommendations to strengthen the policy and technical aspects 
of the proposed legislation creating a fatherhood grants 
program under title I of the bill. My primary recommendation is 
to increase the flexibility of the grant program to encourage 
innovative, well-designed projects and to encourage states to 
participate in those projects.
    It is important to include the state child support program 
as a demonstration partner (Sec. 442(a)(2).) Grant applications 
are required to include a written commitment by the state TANF 
agency and the local Workforce Investment Board to assist in 
providing employment and related services. Grant applications 
also should include a formal commitment by the state child 
support agency.\1\
---------------------------------------------------------------------------
    \1\ Sec. 442(c)(4) provides that not less than 75 percent of the 
aggregate amounts paid as grants shall be awarded to entities whose 
applications include written commitments by the entity and the state 
child support program to coordinate the project.
---------------------------------------------------------------------------
    There are two main reasons why the state child support 
program should be included as a formal demonstration partner. 
First, demonstration projects must include a child support 
component requiring the substantial commitment and cooperation 
of the child support program. Second, Parent's Fair Share 
demonstration findings indicate that the most successful 
programs included an active child support program. The sites 
with strong child support agency partners were among the most 
successful in obtaining high participation rates, implementing 
on-the-job training, and increasing child support payments.<a 
href \2\ According to MDRC's interim evaluation report, ``Sites 
in which the child support agency played a leading role in PFS 
showed flexibility in developing new approaches to monitoring 
the status of cases and encouraging participation in program 
services.''
---------------------------------------------------------------------------
    \2\ Doolittle, F., Knox, V., Miller, C., and Rowser, S., Building 
Opportunities, Enforcing Obligations: Implementation and Interim 
Impacts of Parents' Fair Share (New York: MDRC, Dec. 1998), ES-16-17, 
ES-24, and 93.
---------------------------------------------------------------------------
    Project participation should not be restricted to fathers. 
(Sec. 442(a)(2)(A) and (B).) Clearly, the majority of low-
income noncustodial parents are fathers, and grant projects 
will be aimed primarily at low-income fathers. However, the 
statutory language limits participation to fathers. It may be 
useful for the Subcommittee to consult with legal counsel to 
assure that the limitation does not impair Constitutional 
protections. As a policy matter, the language should be 
expanded to authorize projects to provide services to (1) low-
income noncustodial parents, including fathers and mothers, and 
(2) custodial parents when the projects include a co-parenting 
component. Like noncustodial fathers, noncustodial mothers 
often have very low income levels and face multiple barriers to 
employment, parenting and marriage. About 2 percent of Parents' 
Fair Share participants are noncustodial mothers.
    In addition, a number of innovative fatherhood programs 
include the joint participation of the partner or former 
partner of a noncustodial father--the custodial mother of his 
child--to help those fragile families strengthen their 
relationships. Many poor fathers and mothers are capable of 
building workable partnerships to help each other support and 
raise their children. These programs can help couples share 
parenting responsibilities, reduce conflict, and consider 
marriage. Yet, the statutory language would appear to preclude 
joint participation by both parents in a co-parenting or 
marriage component.
    Project eligibility should be clarified and harmonized with 
Welfare-to-Work requirements. (Sec. 442(a)(2)(A)). Under the 
current language, a father must have a child who is currently 
receiving TANF, Medicaid or Food Stamps. This language should 
be clarified to allow for the father's continuing project 
eligibility once initial eligibility has been established, even 
if his child's public assistance status changes.
    Potentially, an entity operating a fatherhood program might 
operate with a crazy-quilt of participant eligibility 
requirements from at least three separate federal funding 
streams. The Subcommittee should consider whether to harmonize 
or coordinate the eligibility rules for fatherhood project 
grants, Welfare-to-Work services under section 301, and TANF 
funds. For example, only fathers are eligible under the 
fatherhood project, while projects for noncustodial parents 
could qualify for Welfare-to-Work and TANF funds. Under the 
fatherhood projects, the child has to be a recipient of TANF 
assistance or services, Medicaid, or Food Stamps, or has to 
have received such assistance within the past 24 months. By 
contrast, under the Welfare-to-Work provision, the child has to 
be (1) a recipient of benefits under the TANF program within 
the past 12 months, or (2) currently eligible for or receiving 
Medicaid, Food Stamps, Supplemental Security, or child health 
assistance under title XXI.
    In addition, the Welfare-to-Work program requires the 
noncustodial parent to comply with a personal responsibility 
contract, while the fatherhood project program does not have a 
similar requirement. The Welfare-to-Work program allows for job 
skills training, vocational educational training and basic 
education, while TANF participation rates exclude these 
activities.
    The language should expressly allow states to spend TANF 
MOE funds as the 25 percent non-Federal match. (Sec. 
442(a)(4)). This would improve the ability of project entities 
to meet the matching requirement and encourage state 
participation by helping states meet their maintenance of 
effort (MOE) obligation under the TANF program.
    The legislation should increase the flexibility of projects 
and states to test child support innovations designed to help 
low-income parents and their children. (Sec. 442(c)(2).) CLASP 
endorses the concepts behind the proposed legislation: to 
distribute child support arrears to families and to compromise 
state-owed arrears that are not based on the noncustodial 
parent's ability to pay. As I testified before this 
Subcommittee on April 27, 1999, new public investments in 
fatherhood programs may be met with only limited success unless 
we begin to treat child support as part of the family's own 
resources, rather than as an offset to public welfare costs.
    However, there are some practical difficulties raised by 
the proposed legislation which would require the commitment of 
significant resources by the child support program and create 
inflexible project designs. This inflexibility may discourage 
states from committing to the grant projects. In addition, 
those child support policies given preference under the grants 
program are unduly limited, and could preclude testing other 
innovative approaches to child support that would help 
noncustodial parents and their children.
    Instead, the legislation should be written more broadly and 
flexibly to require projects to take actions designed to 
encourage or facilitate the payment of child support, without 
prescribing a specific type of action. The following actions 
might be listed as examples in the statute: (1) full 
distribution of pre-and post-TANF arrears to families, (2) 
distribution of support while the family is receiving TANF, (3) 
incentives for paying support, such as TANF disregards and 
matching payment policies, (4) setting the initial orders of 
project participants based strictly on ability to pay, (5) 
expedited review and modification procedures for orders and 
arrears, (6) compromising, forgiving, or suspending arrearages 
upon project participation or when the parents marry; (7) 
dispute resolution mechanisms, (8) dedicated child support 
staff assigned to project participants, and (9) community-based 
outreach and ``house call'' policies.
    State authority to pass through support to families should 
be clarified. (Sec. 442(c)(2); sec. 101(b)) The legislation 
requires the Secretary to give preference in awarding grants to 
projects which will be ``carried out in jurisdictions that have 
the authority to pass through all child support arrearage 
payments'' made by project participants to mothers with earned 
income and who do not receive TANF assistance. A conforming 
amendment would amend the child support distribution statute, 
42 U.S.C. 657, to require the state to distribute arrearages to 
the family if the father is participating in a funded 
fatherhood project.
    As a technical matter, the conforming distribution 
amendment does not mirror the grant preference language, 
creating contradictory authorities. The grant preference 
section implies that states have the discretion to distribute 
all arrearage payments to former TANF families, while the 
conforming distribution amendment requires full distribution to 
the children of project participants. In addition, the grant 
preference section allows full distribution to the children of 
project participants only if the mother is not receiving TANF 
cash assistance and has earned income, while the conforming 
distribution amendment requires full distribution to the 
children of project participants regardless of the mother's 
current TANF and earnings status. In addition, state child 
support programs will have a difficult time ascertaining 
whether a post-TANF custodial parent has earnings.
    Distribution of arrears paid by project participants may be 
administratively difficult to implement on a small scale. Under 
existing federal laws, states are required to follow a complex 
automated distribution regimen for arrearage payments made 
after the family leaves TANF. While the ``families first'' 
child support distribution policy is an important first step in 
allowing families to treat child support as family income, it 
is extremely complicated and costly to administer in practice. 
When fully implemented, the federal law will require states to 
maintain ten accounting ``buckets:''
    <bullet> Once a family leaves TANF, current monthly support 
and arrears accruing after the assistance period (post-
assistance arrears) are paid to the family.
    <bullet> However, arrearages that accrued while a family 
received AFDC or TANF (during-assistance arrears) belong to the 
state.
    <bullet> Arrears that accrued before the family went on 
TANF (pre-assistance arrears) may belong either to the state or 
the family, depending on time period and subsequent receipt of 
assistance.
    <bullet> Arrearage payments collected through federal tax 
offset program are applied to the state's debt before the 
family's debt, while arrearage payments collected through other 
means are applied to the family's debt first.
    State child support administrators and advocates are 
generally supportive of simplifying post-TANF distribution 
rules by distributing all arrears paid by noncustodial parents 
to their children. However, piecemeal and small scale changes 
to the distribution rules will further complicate an already 
difficult-to-manage scheme. It may not be affordable or 
feasible to make changes to the state's automated child support 
computer in order to accommodate project policies that can not 
be implemented on a statewide basis. This means that 
participating states would probably assign staff to manually 
distribute child support for project families. This may be 
something a state is willing to do in a project context, but 
the need to assign dedicated staff does argue for greater state 
flexibility, particularly in light of the high caseloads and 
constrained staffing resources normally experienced by child 
support program.
    It is unclear whether projects should cancel or suspend 
payment of arrearages. (Sec. 442(a)(2)(B) and (3)). There are a 
number of approaches a state could take to relieve noncustodial 
parents of high arrearage debts. For example, a state could 
review participants' support order, reducing both the monthly 
support obligation and accumulated arrears. It could suspend 
the support obligation, preventing further accumulation of 
arrears during project participation. It could suspend 
collection activities during participation. It could cancel all 
state debt charged to the noncustodial parent that is unrelated 
to his ability to pay (such as Medicaid birthing costs). It 
could offer an amnesty deal, canceling outright all state-owed 
arrears.
    However, the statutory language is not completely clear 
about the treatment of arrears during participation. One 
section requires the Secretary to give preference to projects 
in which the state child support agency has committed to 
canceling outright all state-owed arrears. Another section 
requires that 75 percent of grant funds be spent on projects 
where the state child support agency has committed to a policy 
of suspending state-owed arrears owed by a project participant 
so long as he is making timely payments or is married to the 
custodial parent. In addition, the outright cancellation of all 
state-owed arrears may not always be appropriate for all 
fathers whose children received assistance. For example, a 
state may be unwilling to cancel all arrears when the 
noncustodial parent had the ability to pay some or all of the 
support order, but failed to pay.
    In sum, while we think Subcommittee is headed in the right 
direction by creating a fatherhood demonstration grants program 
that includes a focus on distributing child support to the 
children of noncustodial parents, we encourage the Subcommittee 
to include child support programs as demonstration partners, to 
broaden the flexibility of projects to test a range of child 
support innovations, and to better harmonize participant 
eligibility requirements among the grants program, Welfare to 
Work, and TANF programs.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you very much for 
your instructive suggestions. We will get back to some of them.
    Mr. Henry.

STATEMENT OF RONALD K. HENRY, PARTNER, KAYE, SCHOLER, FIERMAN, 
       HAYS & HANDLER, ON BEHALF OF MEN'S HEALTH NETWORK

    Mr. Henry. Thank you. I would like to begin by thanking the 
Chair and the Subcommittee Members for the opportunity to 
testify on behalf of this important legislation. I am Ron 
Henry, with the Men's Health Network.
    For too long Congress ignored fatherhood or punished it 
with burdens like the ``old man in the house rule'' where we 
told low-income fathers that they weren't just useless, they 
were worse than useless, because only by leaving would we then 
render their children eligible for any assistance.
    Well, beginning with the 1996 welfare reform legislation 
which passed with the strong support of both parties, Congress 
has returned to a recognition that fathers are important to 
children and, instead of driving fathers away, the States are 
now permitted to use their block grants for any purpose which 
encourages two-parent family formation or preservation.
    But the States need some guidance because they haven't 
really understood how to use that new authority and that is why 
the Fathers Count Act of 1999 is so important, not only for the 
projects that it will fund, but also because those programs can 
become models for the second round of welfare reform that the 
States are only now beginning to understand.
    We know that the Federal Government currently spends 
billions of dollars each year in its effort to enforce child 
support collection and, although the Fathers Count Act of 1999 
is only a few drops compared to that flood of funding, I 
believe that these drops will be disproportionately effective 
in creating benefits for children and will result in an 
important increase in the well-being of children for one simple 
reason. This is the first piece of legislation, the first 
Federal program that views fathers as parents with needs and 
limitations and concerns, rather than merely as debtors or 
deadbeats.
    We know that many fathers are overwhelmed by the legal 
system. We know that many child support orders are entered in 
default judgment proceedings and result in unsustainably high 
child support awards because the court simply assumes a level 
of income that really doesn't exist. We know that almost none 
of the low-income obligors are represented by counsel but 
nobody has been talking to these men as fathers who want to do 
the best they can for their children. Doing the best they can 
means more than simply increasing the flow of child support 
dollars.
    Regardless of the social pathology that is under 
consideration, whether it is teenage pregnancy, suicide, drug 
abuse, low self-esteem, school dropout, or any of our other 
social problems, we know from research that every one of them 
is causally linked to father absence. Children need their 
fathers and the Fathers Count Act of 1999 gives us the 
opportunity to fill that need.
    To maximize the effectiveness of the act, please let me 
respectfully offer a few suggestions. First, the act needs to 
be specifically geared toward promoting and rediscovering the 
social importance of fatherhood. As Professor Mead of New York 
University so eloquently expressed it, ``it doesn't matter so 
much what your father does, but whether you have a father.'' We 
know from the research that Professor Mead is right. Every 
problem we have looked at is so closely linked to father 
absence as you heard earlier from the other Members of Congress 
who testified.
    The Fathers Count Act of 1999 can help, but it needs to be 
directed to the social dimension of reconnecting fathers and 
children. We know that the planned grants don't have enough 
money in them to create another broad-based jobs program or 
training program. We do, however, have enough money available 
to us to raise the flag of fatherhood in communities all over 
this country and give these men a reason--the love of a child--
to improve their education and their economic status through 
the training and employment programs that Congress has created 
and funded over the years such as the Work Force Investment Act 
that was earlier mentioned.
    What the programs under the Fathers Count Act of 1999 need 
to do first is to connect the fathers to the children and then 
use that connection to further connect the fathers to economic 
improvement programs. To do this we need peer counseling. We 
need mentoring, parenting training, case management support, 
child development training, custody and visitation counseling, 
and assistance in obtaining access to other social services.
    I want to emphasize that last point for a moment because it 
is probably the area where there is the greatest need right 
now. We have a great many social programs in place for which 
fathers are lawfully eligible but for which fathers are not 
welcomed to participate.
    Take, for example, the Head Start program. Until about 2 
years ago, Head Start simply didn't acknowledge the existence 
of fathers. In the last 2 years, some of the Head Start 
programs have started to say, ``hey, you know, these kids have 
got fathers'' and the programs are starting to bring these 
fathers in with remarkable results. The fathers are 
volunteering, the fathers are at the centers, the fathers are 
helping the children with their developmental tasks. It is good 
for the children, it is good for the fathers, it is good for 
the country. We know that we need to use the Fathers Count Act 
of 1999 to develop and demonstrate specific strategies for 
success with fathers that will accelerate the trend toward the 
inclusion of fathers in social services programs.
    Second, in keeping with the desire to encourage two-parent 
family formation and preservation, there is a small change that 
is needed regarding the child support arrearage language.
    We need to address arrearages not only where child support 
is being paid by a nonresidential parent, but also in 
situations where that parent has come to reside with the child. 
You had written testimony presented in writing to you just 2 
weeks ago about a gentleman in Texas who is living with his 
child, and is taking care of all of the needs of the child, but 
who is still being pursued by the Texas child support 
enforcement people for an arrearage that arose years earlier. 
When there is not enough money to go around, we need to make 
sure that, first, we are putting food into the mouth of the 
child and not taking food away by worrying about accounting or 
statistics for arrearages.
    Third, please don't be overly proscriptive about grant 
eligibility. There are a number of things in the statute, and 
we have prepared specific proposed markups for your 
consideration, where the prescriptive provisions in the 
legislation will deter participation and make it difficult for 
some of the most innovative programs to be utilized.
    Fourth, with respect to the welfare-to-work program, we 
again need to avoid being unduly restrictive or prescriptive. I 
believe, and we have prepared markup legislation to help with 
this, that a small adjustment to current legislative language 
will remove barriers and will result in more father 
participation simply by allowing mothers and fathers to 
participate on a nondiscriminatory basis.
    In closing, let me again thank the Chair and the 
Subcommittee for initiating this most important and long 
overdue legislation. The fathers of America will thank you, the 
mothers of America who regret the loss of fatherhood will thank 
you, and most of all the children of America will thank you.
    [The prepared statement follows:]
    [Attachments are being retained in the Committee files.]

Statement of Ronald K. Henry, Partner, Kaye, Scholer, Fierman, Hays & 
Handler, on behalf of Men's Health Network

    I would like to begin by thanking the Chair and Committee 
Members for the opportunity to testify in support of this 
important legislation. For too long, Congress ignored 
fatherhood or punished it with burdens like the old ``man in 
the house rule.'' Under that rule, we told low income fathers 
that they were worse than useless because only by leaving the 
family could a father gain any form of assistance for his 
children. Beginning with the 1996 Welfare Reform legislation, 
Congress has returned to the recognition that fathers are 
important to children and, instead of driving fathers away, the 
states are now permitted to use block grants for any purpose 
which encourages two parent family formation or preservation.
    The ``Fathers Count Act of 1999'' is important not only for 
the programs that it will fund but also because those programs 
will become models as the states move into the second round of 
welfare reform and begin their efforts to encourage two parent 
family formation and preservation.
    The federal government currently spends billions of dollars 
each year in its efforts to enforce child support collection. 
Although the Fathers Count Act of 1999 is only a few drops 
compared to the flood of federal funding in child support 
enforcement, I believe that the programs under the ``Fathers 
Count Act of 1999'' will have a disproportionately large impact 
for the benefit of children and for the reconnection of fathers 
with their children. The reason for this disproportionately 
large impact is that the ``Fathers Count Act of 1999'' is the 
first federal program that views fathers as parents with needs, 
limitations and concerns rather than merely as debtors and 
deadbeats.
    We know that many fathers are overwhelmed by the legal 
system. We know that many child support orders are entered in 
default judgment proceedings and result in unsustainably high 
child support awards because the court assumes a level of 
income that does not really exist. We know that almost none of 
the low income obligors are represented by counsel. No one has 
been talking to these men as fathers who want to do the best 
they can for their children.
    Doing the best that they can for their children means much 
more than simply increasing the flow of child support dollars. 
Regardless of the social pathology under consideration, whether 
it is teenage pregnancy, suicide, low self-esteem, drug abuse, 
poor academic performance, school dropout, or any of the other 
social problems on which we spend billions of dollars each 
year, social science research shows that every one of these 
problems is causally linked to father absence. Children need 
their fathers and the ``Fathers Count Act of 1999'' gives us an 
opportunity to help fill that need.
    To maximize the effectiveness of the Act, please let me 
respectfully offer a few suggestions.
    First, the Act needs to be specifically geared toward 
promoting and rediscovering the social importance of 
fatherhood. As Professor Mead so eloquently expressed the 
problem for children, ``it does not matter so much what your 
father does but whether you have a father.''
    The ``Fathers Count Act of 1999'' needs to be directed to 
the social dimension of reconnecting fathers and children. The 
planned grants do not have enough money to simply create 
another jobs program. We do, however, have enough money to 
raise the flag of fatherhood in communities all over America 
and give these men a reason--the love a child--to improve their 
education and economic status through the various training and 
employment programs that Congress has created and funded over 
the years. Programs under the Fathers Count Act of 1999 should 
first connection fathers to children and then use that 
connection to further connect fathers to economic improvement 
programs.
    To do this, we need peer counseling programs, mentoring, 
parenting training, case management support, child development 
training, custody and visitation counseling, and assistance in 
obtaining access to other social services programs which can 
help these men become better fathers.
    In some ways, providing assistance in obtaining access to 
other social services may prove to be the most important part 
of the Fathers Count Act of 1999. All of us at the witness 
table have heard too many stories of fathers turned away from 
social programs not because they were ineligible but simply 
because program administrators were used to dealing with 
mothers and did not know how to deal with fathers. For example, 
it has only been within the past two years that the Head Start 
program has begun to show any willingness to include fathers in 
its activities. There has never been any legal impediment to 
father participation but local Head Start offices simply never 
thought of fathers being connected with or interested in their 
children. The ``Fathers Count Act of 1999'' will develop and 
demonstrate specific strategies for success with fathers and 
will accelerate the trend toward the inclusion of fathers in 
social services programs.
    Second, in keeping with the desire to encourage two parent 
family formation and preservation, a small change in the 
language regarding adjustment of child support arrearages is 
also needed. We need to address the question of arrearages not 
only when the father is making current child support payments, 
but also when the father is living with the child. Just two 
weeks ago, for example, this Committee received written 
testimony from a Texas father who is being pursued for child 
support arrearages even though he is living with the child and 
isproviding for all the child's needs on a current basis. In 
other words, we have a situation where the bureaucracy is 
working to take food out of the child's mouth today in order to 
recover the cost of welfare assistance in prior years. Where 
there is not enough money to go around, we need to recognize 
that it is more important to use the available money to 
encourage marriage and to support the child today rather than 
just generate good statistics on the collection of arrearages.
    Third, we must not be overly prescriptive about the 
conditions for grant eligibility. If grant eligibility is 
unduly conditioned on concessions and commitments made in 
advance by state bureaucracies, many worthwhile programs will 
not be funded. The ``Fathers Count Act of 1999'' should conduct 
demonstrations that will show state bureaucracies why they 
should change their procedures and should recognize that many 
states will be reluctant to change their procedures prior to 
the demonstration.
    Fourth, the welfare-to-work program already provides 
eligibility for non-custodial parents. To the extent that non-
custodial parent participation is not already occurring, it is 
because state agencies are not used to thinking about fathers 
on an equal footing with mothers and have had no encouragement 
to enroll fathers on a non-discriminatory basis. We must not 
exacerbate this problem by making it appear that finding and 
qualifying fathers will be more trouble than it is worth. A 
better solution requires only a simple amendment to existing 
law to make it clear that welfare-to-work program eligibility 
applies ``to both mothers and fathers on a nondiscriminatory 
basis.'' Child support will automatically be withheld from any 
program participant's earnings just as is the case with any 
other obligor. Any other administrative or qualifying 
requirements will only add burden that will diminish agency 
cooperation.
    In closing, let me again thank the Chair and Committee 
Members for initiating this most important and long over due 
legislation. Fathers of America will thank you, the mothers of 
America who regret the loss of fatherhood will thank you and, 
most of all, the children of America will thank you.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you.
    Dr. Primus.

    STATEMENT OF WENDELL PRIMUS, PH.D., DIRECTOR OF INCOME 
        SECURITY, CENTER ON BUDGET AND POLICY PRIORITIES

    Mr. Primus. Chairman Johnson and Members of the 
Subcommittee, thank you for the opportunity to testify on this 
fatherhood legislation. The center supports the basic goals of 
this proposed legislation. We believe that further steps can 
and should be taken by the Federal Government to promote the 
development of effective strategies for encouraging marriage, 
strengthening fragile families and increasing the likelihood 
that children will benefit from the financial support as well 
as the personal involvement of two parents.
    Research shows that children reared in single-parent 
families are at greater risk of adverse outcomes than those 
raised in two-parent families. At the same time, we recognize 
that many children will continue to be raised in single-parent 
households. Efforts to promote financial support and personal 
involvement of noncustodial parents in the lives of these 
children are likely to be successful only if they reflect a 
comprehensive approach that includes a broad array of 
employment services for such parents, including publicly funded 
jobs when necessary to help them make the transition into 
unsubsidized employment.
    I commend you for this bill in sending the message that 
government policy should acknowledge the importance of 
noncustodial parents, primarily fathers, assuming financial 
child rearing and emotional responsibility for their children.
    Given the unavailability of financing for broader efforts 
to promote fatherhood or assist noncustodial parents in meeting 
their parental responsibilities, this bill represents a good 
first step, although much more remains to be done. There is 
much we need to learn about how government policy should be 
structured and coordinated in a way that succeeds in assisting 
noncustodial parents.
    Let me just briefly mention the other provisions in the 
bill. We support the provision reducing the State child support 
penalty for not having a State disbursement unit fully 
operational. We also believe that your amendments to the 
welfare-to-work program are necessary. We are somewhat 
concerned that the section on employment appears in looking at 
the provision regarding personal responsibility contracts for 
noncustodial parents, we are concerned that this only 
emphasizes unpaid work activities, perhaps to the exclusion of 
subsidized employment strategies.
    I would also urge you to put within this title an amendment 
to IV-D, a conforming amendment, to ensure that information on 
noncustodial parents is shared from the IV-D program to the 
welfare-to-work program. And I would also believe that you 
should allow spending under this act to continue through 2002, 
even if you don't have any--additional financing is available.
    My primary concern with the bill as currently drafted is 
that it defines the problems with the current employment 
welfare and child support systems for low-income families too 
narrowly. The bill needs to recognize that the problem of 
financial and emotional lack of support by noncustodial parents 
of their children extends beyond child support arrearages. As a 
result, the pilot project should be encouraged to test a 
broader and bolder range of solutions. The model described in 
the legislation emphasizes one of many options although many 
other options are available. In general I think this title is 
too prescriptive.
    Based upon my work over the last 2 years, I am convinced 
that if fragile families are to be strengthened and if 
noncustodial parents are to be more involved in the lives of 
their children, employment, child support and welfare policies 
together need to be considered comprehensively. The provision 
of fatherhood services, an underlying premise of this bill, is 
a critical component of any effort to strengthen fragile 
families. But fatherhood services alone cannot do the job.
    What is needed and what these pilot projects should build 
on is the recognition that child support policies for low-
income, noncustodial parents needed modification as well, and 
these policies need to be coordinated with the provision of 
employment services, and various economic incentives to 
encourage the payment of child support should also be tested.
    The language in the draft bill does not sufficiently 
recognize, in my opinion, the degree to which the child support 
system does not work for low-income noncustodial parents. The 
issue extends beyond arrearages. The orders are large. We need 
to test approaches that orders are lowered. We also need to 
make sure that there is flexible modification. The orders go up 
and down as earnings change, and we also need to make sure that 
when dads paid, their children are actually better off, and 
just as we believe that low-wage work should be subsidized 
through the EITC, earned income tax credit, for custodial 
parents, we need to at least test the provision of subsidizing 
the payment of child support by low-income, noncustodial 
parents.
    I go on in the bill and suggest five changes that I think 
you ought to make. I think the Secretary in the panel that is 
going to be making recommendations should be provided more 
guidance. Awards should be based upon an assessment about which 
grants would best achieve the purposes of the act, which are 
the most creative, bold and innovative proposals in terms of 
the policy changes and integration across program boundaries.
    I would also argue that the 75-percent requirement that 
goes to community-based organizations is too proscriptive. I 
fully applaud the notion that we need to encourage the 
provision of fatherhood services, but I am concerned that 
community-based entities will not have the clout to give 
government policy changes or receive the necessary cooperation 
of government agencies if all the grants or most of the grants 
are awarded to community-based organizations.
    In conclusion, I think this bill is a right first step in 
assisting NCPs and meeting their parental responsibilities, and 
I think the effort could be strengthened if you made certain 
modifications. And thank you for the opportunity to testify.
    [The prepared statement follows:]

Statement of Wendell Primus, Ph.D., Director of Income Security, Center 
on Budget and Policy Priorities

    Thank you for the opportunity to testify on fatherhood 
legislation, specifically the proposed ``Fathers Count Act of 
1999.'' My name is Wendell Primus and I am Director of Income 
Security at the Center on Budget and Policy Priorities. The 
Center is a nonpartisan, nonprofit policy organization that 
conducts research and analysis on a wide range of issues 
affecting low-and moderate-income families. We are primarily 
funded by foundations and receive no federal funding.

                                Overview

    The Center supports the basic goals of this proposed 
legislation. We believe that further steps can and should be 
taken by the federal government to promote the development of 
effective strategies for encouraging marriage, strengthening 
fragile families, and increasing the likelihood that children 
will benefit from the financial support as well as the personal 
involvement of two parents. Research shows that children reared 
in single-parent families are at greater risk of adverse 
outcomes than those raised in two-parent families.\1\ At the 
same time, we recognize that, despite these efforts, many 
children will continue to be raised in single-parent 
households. Efforts to promote financial support and personal 
involvement of non-custodial parents in the lives of these 
children are likely to be successful only if they reflect a 
comprehensive approach that includes a broad array of 
employment services for such parents, including publicly-funded 
jobs when necessary to help them make the transition into 
unsubsidized employment.
---------------------------------------------------------------------------
    \1\ Sara McLanahan and Gary Sandefur, Growing Up with a Single 
Parent: What Hurts, What Helps. Harvard University Press, 1994.
---------------------------------------------------------------------------
    I commend you for this bill and compliment you for 
addressing these issues--and sending the message that 
government policy should acknowledge the importance of non-
custodial parents (primarily fathers) assuming financial, 
child-rearing and emotional responsibility for their children. 
Given the unavailability of financing for broader efforts to 
promote fatherhood or assist non-custodial parents in meeting 
their parental responsibilities, this bill represents a good 
first step, although much more remains to be done. There is 
much we need to learn about how government policies should be 
structured and coordinated in a way that succeeds in assisting 
non-custodial parents. That is why Title I, which funds a 
series of fatherhood grants to launch and evaluate pilot 
programs in order to improve non-custodial parents' ability to 
pay child support, to make child support policies for those 
parents more responsive and more appropriate for low-income 
families, to improve the parenting skills of non-custodial 
parents and to increase contact and interaction with their 
children, is the right place to begin.

                         SDU Penalty Provision

    Let me briefly comment on the other aspects of the bill, 
and then make several additional comments about Title I. The 
provision reducing the state child support penalty for failure 
to have a state disbursement unit fully operational is 
reasonable. For whatever reason, some states are unable to meet 
the requirement on a timely basis. Completely withdrawing all 
federal funding for the child support enforcement program for 
failing to meet this requirement is too large of a penalty and 
would be extremely disruptive to the critically important task 
of enforcing child support orders. As a result, states do not 
really believe this penalty will be levied and they act 
accordingly.
    A more prudent and effective approach to improving state 
compliance with child support program requirements is a series 
of gradually increasing penalties for failure to comply, as 
outlined in Title III of the draft bill. These penalties are 
reasonable and provide a strong incentive for a state to comply 
as soon as possible. This is the same structure that the 
Subcommittee adopted two years ago for enforcing the child 
support system requirements of the 1988 Family Support Act. 
Those requirements are having their intended effects.

                       Welfare-to-Work Amendments

    The Center also believes the Welfare to Work amendments 
incorporated in this bill are necessary. The eligibility 
requirements defining which adults in low-income families can 
receive services need to be modified. Providers of services 
have found that many low-income adults with high school degrees 
lack basic reading, writing and math skills and are very much 
in need of employment services. Services for these individuals 
could be financed by the welfare-to-work program except for the 
fact that their high school diplomas now render them ineligible 
under the targeting requirements that apply to 70 percent of 
the welfare-to-work funding.
    Many states have recognized that Welfare-to-Work funds can 
be an important source of funding for non-custodial parents. 
The Department of Labor estimates that approximately $375 
million of the Welfare-to-Work dollars awarded to date will 
serve low-income NCPs and their families. However, very few of 
these programs address child support issues, and even fewer 
address child support issues in a way that integrates them with 
fatherhood and employment services.
    Paid employment opportunities for non-custodial parents are 
an important element of efforts to develop this integrated 
approach to child support, fatherhood, and employment issues. 
As a recruitment tool and as a practical step that bolsters the 
ability of non-custodial parents to meet their child support 
obligations, a number of cities already have crafted programs 
that include subsidized employment options as ``stepping 
stones'' into unsubsidized jobs. Unpaid community service or 
work experience is less likely to be successful with this 
population, in part because non-custodial parents are not 
receiving cash assistance under TANF or other programs that 
would enable them to meet their basic needs while enrolled in 
such activities.
    In reviewing the bill's language regarding personal 
responsibility contracts for non-custodial parents, I am 
concerned that the section on employment appears to emphasize 
unpaid work activities, perhaps even to the exclusion of 
subsidized employment strategies (Section 
403(a)(5)(C)(iii)(III)(cc)). I assume the subcommittee's intent 
is not to narrow the range of allowable activities available in 
programs serving non-custodial parents, and I encourage you to 
revise this language so that temporary subsidized employment is 
recognized as an option as personal responsibility contracts 
are developed for participants.
    I would recommend one other addition to this title of the 
bill to increase the effectiveness of the welfare-to-work 
program. Within title IV-D, (section 454A(f)) there needs to be 
a conforming amendment that ensures that information on non-
custodial parents can be shared with the welfare-to-work 
programs funded under Part A and with the fatherhood grantees 
funded under Part C. Because of the need to protect the 
confidentiality of the state data systems, the IV-D statute is 
very restrictive in identifying ``with whom'' and ``for what 
purposes'' data can be shared. This conservative approach is 
generally appropriate, and we must continue to ensure that IV-D 
data is not misused, with particular attention to our 
responsibility to protect the interests and the safety of 
custodial parents. Within these constraints, however, I believe 
it is possible to allow the child support program to share 
limited information about non-custodial parents with WtW 
agencies for the purposes of WtW recruitment and 
implementation. Based on the language in this draft bill, it 
also appears that the subcommittee envisions a similar sharing 
of limited information between IV-D and Part C grantees. In 
order for that sharing to occur, Title IV-D will have to be 
amended.
    I also believe this program should be reauthorized through 
fiscal year 2002, and spending under the Act should be allowed 
through fiscal year 2002, even if no additional financing is 
provided.

               Fatherhood Grants Should Be More Flexible

    Now let me make some more detailed comments about Title I 
of the bill. The Center supports the pilot project structure 
for two reasons: 1) it will encourage some states, child 
support agencies, employment service providers, TANF agencies, 
and not-for-profit organizations to work together to overcome 
their bureaucratic boundaries and propose expanded and 
integrated policies for promoting fatherhood and assisting non-
custodial parents in meeting their parental responsibilities; 
and 2) it will enable other states and localities (and the 
federal government) to learn from these projects.
    However, the main concern with the bill as currently 
drafted is that it defines the problems with the current 
employment, welfare, and child support systems for low-income 
families too narrowly. The bill needs to recognize that the 
problem of financial and emotional lack of support by NCPs of 
their children extends beyond child support arrearages. As a 
result the pilot projects should be encouraged to test a 
broader and bolder range of solutions--the model described in 
the legislation emphasizes only one of many options, although 
other options are available. In general, this title is too 
prescriptive.
    There is increasing awareness that welfare, employment and 
child support policies are not achieving their objectives, 
particularly for low-income fragile families. Only a modest 
fraction of poor children in single-parent families currently 
receive child support income from their non-custodial parents. 
The proportion of never-married mothers whose children receive 
child support payments is especially low--around 20 percent. 
Research indicates that more than $34 billion in potential 
child support income goes unpaid each year and that almost two-
thirds of single mothers receive no support.\2\
---------------------------------------------------------------------------
    \2\ See Elaine Sorensen, ``The Benefits of Increased Child Support 
Enforcement,'' in Welfare Reform: An Analysis of the Issues, Urban 
Institute, 1995, pp. 55-58 and ``A National Profile of Nonresident 
Fathers and Their Ability to Pay Child Support,'' in Journal of 
Marriage and the Family, November 1997, pp. 785-797.
---------------------------------------------------------------------------
    There are many reasons why low-income non-custodial fathers 
often fail to pay child support on their children's behalf. 
Unemployment and underemployment are key factors limiting the 
ability of low-income fathers to meet their child support 
obligations. Some non-custodial parents choose not to pay 
because of strained relationships with the custodial parents, 
conflicts over visitation rights, or concerns that custodial 
parents will not spend the funds wisely.\3\ Others no doubt 
refuse to pay simply because they do not care about their 
children or reject the notion that they have a responsibility 
to provide financial support for their children.
---------------------------------------------------------------------------
    \3\ Dan Bloom and Kay Sherwood. Matching Opportunities to 
Obligations: Lessons for Child Support Reform from the Parents' Fair 
Share Pilot Phase. Manpower Demonstration Research Corporation, April 
1994, pp. 70-73.
---------------------------------------------------------------------------
    Within this range of explanations, however, considerable 
evidence also supports the view that many non-custodial fathers 
are able to pay child support and would be willing to do so if 
they believed the child support system was fair and designed to 
improve the well-being of their children. The provision in the 
bill to pass-through arrearage payments to the custodial family 
once it has left welfare is a step in the right direction in 
this regard, although several additional steps, such as 
disregarding a larger proportion of child support paid to 
families on TANF or subsidizing the payments through a matching 
program should be considered as well.
    Some fathers view the system as unfair because it is 
difficult to modify or adjust child support orders and to 
prevent the accumulation of large arrearages when their 
economic circumstances change and they are truly unable to meet 
their support obligations.\4\ For example, in most states, 
arrearages continue to accrue while NCPs are unemployed through 
no fault of their own and payment of child support orders is 
typically impossible. In some cases child support orders are 
unrealistically large--in these cases, a more realistic order 
might result in a higher rate of compliance.
---------------------------------------------------------------------------
    \4\ Bloom and Sherwood, p. 74.
---------------------------------------------------------------------------
    Many non-custodial fathers (and custodial mothers) are 
discouraged and frustrated by the fact that child support 
payments in many instances yield no benefits for their 
children. Under current law, when children live in households 
that receive public assistance, most or all of the child 
support paid by non-custodial parents is typically kept by 
state and federal governments as reimbursement for the cost of 
that assistance. The 1996 federal welfare law repealed a 
requirement that states ``pass-through'' the first $50 per 
month in child support payments to custodial parents and their 
children rather than retaining the full amount as reimbursement 
for cash assistance. In the 33 states that have eliminated the 
pass-through completely, child support payments are counted 
dollar for dollar against TANF benefits, effectively resulting 
in a 100 percent tax rate on those child support payments. 
Under these circumstances, fathers have no economic incentive 
to pay child support to their children because no matter how 
much they pay, their children are not economically better off. 
Furthermore, these NCPs currently do not benefit from the EITC 
and other work-based benefits focused on custodial families.
    While every low-income non-custodial father should be 
expected to comply with federal and state laws and to cooperate 
with child support enforcement efforts, the fact that children 
often derive little or no benefit from child support payments 
made by non-custodial parents undermines both the moral 
authority of those laws and the motivation of parents to obey 
them. As one observer noted, ``to many low-income non-custodial 
parents of children on public assistance, the biggest incentive 
for making regular and timely payment of child support 
(assuming that they actually had income from which to pay such 
support) would be knowing that their paying child support makes 
a real difference in their children's lives.\5\
---------------------------------------------------------------------------
    \5\ Margaret Stapleton. The Unnecessary Tragedy of Fatherless 
Children: Welfare Reform's Opportunities for Reversing Public Policies 
that Drove Low-Income Fathers Out of Their Children's Lives. 
Clearinghouse Review, January-February 1999, p.499.
---------------------------------------------------------------------------
    Based upon my work over the last two years, I am convinced 
that if fragile families are to be strengthened and if non-
custodial parents are to more involved in the lives of their 
children, employment, child support, and welfare need to be 
considered comprehensively. The provision of fatherhood 
services, an underlying premise of this bill, is a critical 
component of any effort to strengthen fragile families. But 
fatherhood services alone will not do the job. Furthermore, 
these services can be funded by the TANF monies states 
currently have. What is needed--and what these pilot projects 
should build on--is the recognition that child support policies 
for low-income non-custodial parents need modification as well. 
These policies need to be coordinated with the provision of 
employment services. Various economic incentives to encourage 
the payment of child support should also be tested. These 
incentives plans are described in more detail later in this 
testimony.\6\
---------------------------------------------------------------------------
    \6\ Wendell Primus and Kristina Daugirdas, Several Suggestions for 
Improving the Work-Based Safety Net and Reducing Child Poverty, 
presented at Joint Center on Poverty Research Conference, September 16, 
1999.
---------------------------------------------------------------------------
    Fathers who are employed will be better able to pay child 
support, while the changes to the system's structure will 
ensure that child support orders and arrearages are treated 
reasonably and appropriately. Ensuring that custodial families 
in fact benefit from these payments will provide an additional 
incentive for fathers to pay their child support orders. 
Finally, fatherhood services can emphasize that fathers play a 
role in their children's lives that goes much beyond bread-
winning and facilitate building relationships. Because each of 
these elements builds on the others, it is important that they 
be well-integrated; a project that provides one component but 
not others will probably fail both to meet the program's 
objectives and to fulfill its potential.
    In light of these and other issues with the current child 
support system, pilot projects offer an ideal opportunity for 
testing an improved child support system and determining how 
different components need to change to increase both the amount 
of child support collected and the involvement of fathers in 
the lives of their children. The language in the current draft 
bill does not sufficiently recognize the degree to which the 
child support enforcement system does not work well for low-
income non-custodial parents.
    The issue extends beyond arrearages. The size of the order 
can be a substantial problem. Many orders are so large that 
they are impossible for low-income non-custodial fathers to 
meet. We need to test approaches under which orders are lowered 
to a more manageable level and child support orders are subject 
to more flexible modification, both upward and downward, so 
they are more representative of the NCP's ability to pay. In 
some cases this may require a suspension of the current order 
as well as arrearages when a father is unemployed and engaged 
in activities that should subsequently increase earnings and, 
ultimately, child support payments. We need to learn whether 
changes in the size of the order or different arrearage 
policies would affect the payment of current child support 
obligations. This area is ripe for experimentation to see 
whether these policies can be made to work better for low-
income parents. The proposed bill should be modified somewhat 
so that the programs funded by the grants could address some of 
these issues as well.
    In addition, entities receiving grants be able to serve 
non-custodial parents who are women. Some of the social 
services provided may be father-specific, but the 
unavailability of the economic benefits of participation, such 
as suspension of child support arrearages for timely payment, 
the provision of WIA employment services, and the economic 
incentives for female NCPs on the basis of gender is troubling. 
The arrearage distribution issue especially raises considerable 
equal protection problems.

                    Specific Suggestions for Title I


There are five changes to the bill that should be made:

    (1) The Secretary and panel charged with making 
recommendations about which proposals should be awarded grants 
should be given more direction and guidance. Awards should be 
based upon an assessment of: which grants might best achieve 
the purposes of the Act; which are the most creative, bold and 
innovative proposals in terms of policy changes and integration 
across program boundaries; and which projects are designed in a 
way that yields the best chance of learning something from that 
grant. In addition, the panel should select a variety of 
different approaches and entities. I would fold the projects of 
national significance into Title I and say that at least one 
award should be a grantee that involves several cities/
counties. The grant applications should contain a clear 
description of what policies would be changed, and should 
include a clear description of who is going to deliver the 
services and what services will be delivered. Because 
integration of the different components is critical to success, 
the level of coordination among relevant governmental and 
neighborhood-based organizations should be a primary factor in 
choosing which proposals to fund.
    (2) The requirement that 75 percent of the money go to 
community-based entities is too high. Every grant should 
involve community-based (which can include faith-based) 
organizations in the delivery of the services--but the 75 
percent requirement is too prescriptive. The intentions of the 
subcommittee with respect to stimulating the provision of 
fatherhood services can be achieved through guidance and 
direction in the grant selection process. The bill should focus 
on integration of services rather than mandating that a 
particular portion should be paid to a specific type of 
organization. I am concerned that community-based entities will 
not have the clout to get government policies changed or 
receive the necessary cooperation of government agencies if 
most grants are awarded to community-based organizations.
    Furthermore, community-based fatherhood organizations 
should be funded primarily by state and local governments. 
Awarding fatherhood grants primarily to community based 
organizations through the federal government sets a bad 
precedent. I recognize that this subcommittee wants to 
stimulate the provision of these services, a goal which I 
applaud. But that can be accomplished by requiring each grant 
to incorporate fatherhood services in a significant manner 
through a community based organization. More importantly, this 
subcommittee should be concerned with how these services are 
integrated with economic incentives for the payment of child 
support, with how child support policies affect low-income 
NCPs, with the provision of employment services and how all of 
these services are integrated.
    (3) Recruitment is another factor that requires some 
consideration. Applications should also contain a clear 
description of how fathers will be recruited for the project. 
Incentives for participation are critical to a successful 
project. Changes in child support policies and the presence of 
economic incentives to pay child support should act as an 
incentive for non-custodial parents to participate. In 
addition, some localities may want to provide NCPs with a small 
stipend during any time they are not receiving wages or 
possibly provide the NCP with health insurance coverage.
    (4) One of the primary reasons for these pilots is to learn 
what policies work. Thus, evaluation funding may need to be 
increased somewhat. These projects would build upon what we 
learned from the Parents Fair Share Demonstration, a nine-site 
national demonstration. If the above suggestions are taken, 
these pilot demonstrations would go further by adding economic 
incentives for the payment of child support, by integrating 
child support and employment services, and by providing 
publicly funded jobs for the most difficult to employ, in 
addition to recognizing that child support policies must change 
for these fathers. Additional monies for evaluation are needed 
to determine the combined impact of the various changes in 
policy upon child support collections, the level of interaction 
between the NCPs and their children, and the overall income of 
the custodial parent. Ideally, one should allow the new 
policies to be in place or fully implemented for a period of 
time before expecting changes in behavior as a result of the 
policy change. In addition, it would be extremely useful if for 
one policy change--for example the addition of economic 
incentives, the change in arrearage policy, or a specific 
employment service--there would be an evaluation using more 
rigorous statistical methods.
    (5) Some guidance should also be given to the panel and the 
Secretary about the number and size of the pilot 
demonstrations. I would rather have several well-funded and 
carefully designed pilots conducted in a manner that enhances 
policy innovation, on a scale that the projects can be 
replicated, in a way that one can learn from these pilots. The 
alternative approach is to scatter the money so broadly that 
one does not learn much from the projects. The draft language 
suggests that $100 million be dedicated to these grants. Those 
monies can be supplemented substantially by state and local 
dollars, TANF dollars and welfare to work dollars. What these 
monies primarily provide is the incentive or catalyst to 
overcome bureaucratic boundaries and for governmental and non-
governmental resources to be pooled in such a manner that 
learning can take place.

         Additional Rationale for Child Support Policy Changes

    As I stated earlier, this bill is a good first step in 
recognizing that governmental policies need to be changed 
significantly to assist NCPs in meeting their parental 
responsibilities. However, several other policies ought to be 
considered next year in the context of a longer, broader bill.
    Under current law, states have considerable authority to 
change child support policies regarding the size of the order, 
how often and when orders are modified and how child support 
policies are integrated with welfare-to-work programs. I will 
argue briefly that additional federal incentives and policy 
changes are needed to encourage low-income NCPs to pay child 
support. In addition, the level of state investment of 
resources needs to be examined periodically. At some later 
date, I would urge the subcommittee to examine three additional 
policies that would encourage NCPs to pay child support. These 
are:
    <bullet> passing through all child support payments (this 
would have little federal cost),
    <bullet> encouraging states to disregard a greater portion 
of child support payments when TANF benefits are calculated, 
and
    <bullet> instituting a system of child support matching 
payments.
    By subsidizing child support payments and ensuring that 
those payments actually benefit the children of non-custodial 
parents, the intent is simultaneously to encourage low-income 
fathers to provide support on behalf of their children and to 
improve the well-being of those children.
    In addition to creating economic incentives for the payment 
of child support, there are also administrative reasons for 
increasing the pass-through. Outside of perhaps Medicaid 
eligibility rules, nothing is more complicated than the rules 
surrounding the distribution of child support collections. To 
function properly, the system requires constant, immediate, and 
substantial flows of information in both directions between the 
TANF/Medicaid eligibility and benefit determination processes 
and the child support office. For example, in most states, the 
child support office must withhold all child support 
collections while the family is on TANF and send a portion of 
those collections to the federal government. But the moment the 
family leaves TANF, child support must send all current child 
support collections to the family. In cases where the child 
support payment repays an arrearage, the amount the custodial 
family gets depends upon when the arrearage was accumulated--
specifically whether it occurred while the family was receiving 
AFDC. In some cases it also depends upon how the child support 
office got the collection--collections through federal income 
tax withholding are treated differently than collections by 
other methods.\7\
---------------------------------------------------------------------------
    \7\ For a complete description of assignment rules and distribution 
of child support, the readers is referred to pages 587, 591-594 of the 
1998 Green Book as well as OCSE Action Transmittals of (October 21, 
1997 and August 19, 1998.
---------------------------------------------------------------------------
    To determine benefit levels accurately, the TANF and food 
stamp offices must know whether the custodial family has 
cooperated (in terms of establishing paternity and assigning 
child support rights to the state), as well as the amount of 
child support that has actually been collected. A related 
problem is that families receiving cash assistance may actually 
have current child support payments that would make them 
ineligible for cash assistance if the payment was passed-
through. This has adverse consequences for the family--it uses 
months of time-limited assistance when it should not have.
    There is substantial anecdotal information and reports from 
state non-profit organizations that this system is not working 
well because the child support office is unaware of when 
families no longer receive TANF. Many times a family that 
leaves TANF does not receive current child support collections 
to which it is entitled until 3 to 6 months later. (Further 
evidence of this phenomenon is that child support TANF 
collections remain quite high despite the enormous decline in 
TANF caseloads.)
    State Child Support Directors and non-profit organizations 
could probably agree upon adopting a simple rule--collect from 
the non-custodial parent (NCP) and pass-through the entire 
amount to the family. This would eliminate the need to have any 
information flow from the TANF office to the child support 
office about changes in TANF case status. It would also mean 
that families would no longer experience delays in getting 
child support when they leave TANF. In addition, it would 
promote better government budgeting in the sense that TANF 
expenditures currently include money actually paid by NCPs. The 
cost would be relatively modest. The administrative savings 
from straightening out mistakes, explaining and defending these 
incomprehensible rules to both custodial and non-custodial 
parents and reducing information flows would offset a 
corresponding portion of additional payments to custodial 
parents that would occur under this policy.\8\
---------------------------------------------------------------------------
    \8\ There would be some additional costs because families receive 
all the child support payments to which they are entitled in a more 
timely manner and because more child support collections from IRS 
refunds would go to the custodial family.
---------------------------------------------------------------------------
    To increase collections and improve child well-being, 
states should significantly expand their child support 
disregards. In calculating the TANF payment, the state could 
establish a fixed flat amount to be disregarded (e.g., $100 or 
$200 per month), provide a disregard equal to a specified 
percentage of the monthly child support collections (e.g. 50 
percent), or combine these two approaches. States also could 
choose to treat payments received from non-custodial parents in 
the same manner as they now treat the earnings of custodial 
parents.
    Expanded child support disregards would do a great deal to 
restore incentives for payment of child support and to improve 
children's well-being. At the same time, this approach by 
itself has substantial limitations. Child support disregards 
will improve the well-being of children in TANF households but 
they have no effect on the income available to support low-
income children living in non-TANF households. This leads to 
another recommendation--that consideration be given to 
subsidizing child support payments from low-income non-
custodial fathers. This, in conjunction with a change in 
disregard policies, would encourage low-income non-custodial 
fathers to provide support on behalf of their children. This 
policy also holds promise for significantly improving the well-
being of these children.
    Economists argue that some positive incentives--i.e., some 
subsidies provided directly or through the tax system--can 
influence individual behavior and encourage desired activities. 
The federal tax code contains a number of provisions that 
promote work effort by custodial parents and help them meet the 
basic needs of their children (including the Earned Income Tax 
Credit, dependent exemptions, and child tax credits. Federal 
benefit programs also offer help to low-income custodial 
parents to improve the well-being of their children. No similar 
incentives currently exist to promote work effort and encourage 
child support payments by non-custodial parents.\9\
---------------------------------------------------------------------------
    \9\ Only families who live with their children receive the family 
EITC. Parents who do not live with their children do not qualify for 
the family credit, although they may be eligible for the small EITC for 
workers without a child in the home if their income is below $10,030 
for 1998.
---------------------------------------------------------------------------
    There would be little policy rationale or political support 
for extending similar tax incentives or earnings subsidies to 
non-custodial parents in circumstances in which they fail to 
meet their legal obligations to pay child support. However, a 
plan to match or subsidize child support payments could be 
effective in increasing the amount of child support paid by 
low-income non-custodial parents and serve as an important 
complement to current public policies designed to improve 
children's well-being. While there are many alternative designs 
that states might consider, the basic elements of such an 
approach would include:
    <bullet> A structure of matching payments to be made by the 
state to custodial families for every dollar of child support 
paid by low-income non-custodial parents, with matching rates 
reduced for non-custodial parents with higher incomes and 
subsidies phasing out completely for non-custodial parents with 
incomes above a modest level;
    <bullet> Administrative arrangements (most likely within 
state or county child support enforcement agencies) for 
verifying child support payments by eligible non-custodial 
parents and issuing matching payments to custodial families in 
an accurate and timely manner; and
    <bullet> Provisions within the state TANF program to ensure 
that a substantial portion of child support payments are passed 
through to custodial families.
    There are a myriad of possible subsidy levels and phase-out 
rates that could be used as a structure for child support 
matching payments. The key decisions to be made by the state in 
establishing this structure are: (1) the maximum rate at which 
matching payments will be provided; (2) the range of non-
custodial parent income over which this maximum rate will be 
applied; and (3) the phase-out rate, or how quickly the 
matching rate will be reduced as the income of the non-
custodial parent increases. These parameters will then 
determine the income level beyond which non-custodial parents 
will no longer qualify for matching payments. Decisions also 
would be needed on how the matching rate would interact with 
means-tested benefits. While economic theory suggests that 
these plans would increase child support payment, this has not 
been tested empirically nor does theory tell us the extent of 
which child support payment might increase. Consequently, these 
subsidy plans should be demonstrated and evaluated.

                               Conclusion

    In conclusion, the proposed fatherhood bill is the right 
first step in assisting NCPs in meeting their parental 
responsibilities. This bill, by encouraging state and local 
communities and community-based organizations to undertake 
integrated efforts to improve services to non-custodial parents 
through competitive grants, should act as an important catalyst 
for policy innovation. This effort could be strengthened if 
certain modifications in the bill were made. Again, thank you 
for the opportunity to testify this afternoon.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you very much, Dr. 
Primus.
    Dr. Horn.

     STATEMENT OF WADE F. HORN, PH.D., PRESIDENT, NATIONAL 
                     FATHERHOOD INITIATIVE

    Mr. Horn. It is good to see you again, Madam Chairman. It 
is also nice to be back here discussing fatherhood again. I 
believe the following five principles should be used in 
crafting Federal legislation aimed toward encouraging 
responsible fatherhood. First, Federal legislation must promote 
married fatherhood as the ideal. All available evidence 
suggests that the most effective pathway to an involved, 
committed, and responsible father is marriage.
    This doesn't mean that local programs should not work with 
unmarried or divorced fathers. Of course they should. We don't 
have a father to spare. But at the same time we need to be 
clear that the best situation is for a child to grow up with a 
real life, in the home, love the mother, married father. 
Federal legislation should support this goal.
    Second, while recognizing the importance of child support 
enforcement, Federal legislation must emphasize positive father 
engagement, not simply economic support. Since the fifties, the 
father's role in public policy has been mostly about paternity 
establishment and child support enforcement. This, of course, 
is not without merit. Any man who fathers a child ought to be 
held financially responsible for that child.
    But Federal and State governments already spend billions of 
dollars on child support enforcement. What is needed now is not 
more funds to enforce child support orders, but more resources 
to help fathers become engaged in positive ways in the lives of 
their children.
    Third, Federal legislation should be flexible, providing 
support for a range of fatherhood programs and initiatives, 
rather than providing support for only one or two programmatic 
models. While setting certain priorities, Federal legislation 
should not hamstring local programs into one particular 
fatherhood intervention model or working with only one type of 
father. In particular, Federal legislation should be careful 
not to condition services on having fathered a child out of 
wedlock.
    Fourth, Federal legislation must encourage the involvement 
of faith-based efforts to promote responsible fatherhood. Over 
the past decade, faith-based fatherhood interventions have 
shown an extraordinary capacity to motivate men to be better 
husbands and better fathers. Federal legislation must recognize 
the extraordinary power of faith to transform men's lives and 
ensure that Federal funds can be used to support faith-based 
fatherhood activities as well as secular ones.
    Fifth, Federal legislation should encourage the development 
of community-wide initiatives, not merely individual programs. 
Fatherlessness is a big problem; big problems can't be solved 
by little solutions. While individual fatherhood support, 
outreach, and skill-building programs will always be the 
backbone of efforts to motivate and equip men to be more 
responsible fathers, they are, by themselves, insufficient to 
address today's crisis of father- lessness.
    What is needed is the mobilization of entire communities in 
which every sector of American society is enlisted to help 
address the issue of fatherlessness. Federal legislation should 
be crafted so that fatherhood promotion activities do not 
become just another funding stream competing with every other 
funding stream for finite resources.
    When judged against these five principles, the Fathers 
Count Act of 1999 fares very well indeed. The act makes clear 
that grants are to be made available to promote marriage and 
successful fathering, as well as to improve the economic 
condition of noncustodial fathers so that they are in an 
enhanced position to pay child support. The act also 
commendably makes it clear that faith-based organizations are 
eligible for support.
    Nevertheless, I do have several recommendations for the 
consideration of this Subcommittee. First, an explicit 
preference should be added to Title I, for those fatherhood 
programs which set married fatherhood as the ideal and which 
strive to move as many unwed fathers toward marriage as 
possible or, at the very least, help unwed fathers understand 
the necessity of becoming married before fathering any 
additional children.
    Second, while recognizing that one way to strengthen 
marriage is to expand participation in welfare-to-work 
employment programs to include the broader population of low-
income males, we must be careful not to condition receipt of 
such services upon having fathered a child out of wedlock. To 
do otherwise would be to introduce perverse incentives for men 
to father children out of wedlock. Careful attention should be 
paid in both Titles I and III to ensure the act does not create 
these perverse incentives.
    Third, both Titles I and II should make clear that grants 
could be used to support broad-based, community-wide efforts to 
support responsible fatherhood and marriage, and not just 
individual, single-site programs.
    And, finally, it should be made clear in Title I that 
hospital-based programs can serve married fathers as well as 
unmarried ones.
    The good news is we are starting to see for the first time 
in over 30 years a leveling off of the number of children 
growing up in father absent households. I am convinced that 
with concerted effort we can actually reverse the trend toward 
fatherlessness and increase the number of children growing up 
in two-parent, intact, married households.
    Public policy can help by encouraging more skilled 
fathering, more work and more marriages. In this regard, I 
believe the Fathers Count Act of 1999 is a very significant, 
positive, and much welcomed step in the right direction.
    Thank you.
    [The prepared statement follows:]

Statement of Wade F. Horn, Ph.D., President, National Fatherhood 
Initiative

    My name is Wade F. Horn, Ph.D. I am a clinical child 
psychologist and President of the National Fatherhood 
Initiative, an organization whose mission is to improve the 
well-being of children by increasing the number of children 
growing up with an involved, responsible and loving father. 
Formerly, I served as Commissioner for Children, Youth and 
Families within the U.S. Department of Health and Human 
Services, and served as a member on the National Commission on 
Children, the National Commission on Childhood Disability, and 
the U.S Advisory Board on Welfare Indicators. Currently, I 
serve as a member of the U.S. Advisory Board on Head Start 
Evaluation and Research. I greatly appreciate this invitation 
to testify today on the ``Fathers Count Act of 1999.''

              The Scope and Consequences of Fatherlessness

    Fatherlessness in America today is an unprecedented reality 
with profound consequences for children and civil society. In 
1960, the total number of children in the United States living 
in father absent families was less than 10 million. Today, that 
number stands at 24 million.\1\ Nearly four out of ten children 
in America do not live in the same home as their father. By 
some estimates, this figure is likely to rise to 60% of 
children born in the 1990s.\2\
    For nearly one million children each year, the pathway to a 
fatherless family is divorce.\3\ The divorce rate nearly 
tripled from 1960 to 1980, before leveling off and declining 
slightly in the 1980s.\4\ Today, 40 out of every 100 first 
marriages now end in divorce, compared to 16 out of every 100 
first marriages in 1960. No other industrialized nation has a 
higher divorce rate.\5\
    The second pathway to a fatherless home is out-of-wedlock 
fathering. In 1960, about 5 percent of all births were out-of-
wedlock. That number increased to 10.7 percent in 1970, 18.4 
percent in 1980, 28 percent in 1990, and nearly 33 percent 
today.\6\ In the United States, the number of children fathered 
out-of-wedlock each year (approximately 1.2 million annually) 
now surpasses the number of children whose parents divorce 
(approximately 1 million annually).
    No region of the country has been immune to the growing 
problem of fatherlessness. Between 1980 and 1990, non-marital 
birth rates increased in every state of the Union.\7\ During 
this time period, ten states saw the rate of nonmarital births 
increase by over 60 percent. Furthermore, births to unmarried 
teenagers increased by 44 percent between 1985 and 1992.\8\ In 
fact, 76 percent of all births to teenagers nationwide are now 
out-of-wedlock. In 15 of our nation's largest cities, the 
teenage out-of-wedlock birth rate exceeds 90 percent. Overall, 
the percent of families with children headed by a single parent 
currently stands at nearly 28 percent, the vast majority of 
which are father absent households.\9\
    Although African-Americans are disproportionately affected 
by the problem of father absence (sixty-two percent of African-
American children live in father absent homes), fatherlessness 
is by no means a problem affecting minorities only. Indeed, the 
absolute number of father absent families is larger--and the 
rate of father absence is growing the fastest--in the white 
community. Currently, over 13 million white children reside in 
father absent homes, compared to 6.5 million African-American 
children.\10\
    The absence of an involved, committed and responsible 
father has profound consequences for children. Almost 75 
percent of children in the United States living in single-
parent families will experience poverty before they turn 
eleven-years-old, compared to only 20 percent of children in 
two-parent families.\11\ Children who grow up absent their 
fathers are also more likely to fail at school or to drop 
out,\12\ experience behavioral or emotional problems requiring 
psychiatric treatment,\13\ engage in early sexual activity,\14\ 
and develop drug and alcohol problems.\15\
    Children growing up with absent fathers are especially 
likely to experience violence. Violent criminals are 
overwhelmingly males who grew up without fathers, including up 
to 60 percent of rapists,\16\ 75 percent of adolescents charged 
with murder,\17\ and 70 percent of juveniles in state reform 
institutions.\18\ Children who grow up without fathers are also 
three times more likely to commit suicide as adolescents \19\ 
and to be victims of child abuse or neglect.\20\
    If ever there was a problem in need of a solution, it is 
this one, for the evidence suggests that improvements in the 
well-being of children will necessarily be limited without a 
restoration of responsible, committed, and involved fatherhood.

          Five Principles for Crafting Fatherhood Legislation

    The following five principles should be used in crafting 
and evaluating federal legislation encouraging responsible 
fatherhood.
    First, federal legislation must clearly promote married 
fatherhood as the ideal. All available evidence suggests that 
the most effective pathway to involved, committed and 
responsible fatherhood is marriage. Research consistently 
documents that unmarried fathers, whether divorced or unwed, 
tend over time to become disconnected, both financially and 
psychologically, from their children. Indeed, forty percent of 
children in father absent homes have not seen their father in 
at least a year. Of the remaining 60 percent, only one in five 
sleeps even one night per month in the father's home. Overall, 
only one in six sees their father an average of once or more 
per week.\21\ More than half of all children who don't live 
with their fathers have never even been in their father's 
home.\22\
    Unwed fathers are particularly unlikely to stay connected 
to their children over time. Whereas 57 percent of unwed 
fathers are visiting their child at least once per week during 
the first two years of their child's life, by the time their 
child reaches 7\1/2\ years of age, that percentage drops to 
less than 25 percent \23\ Indeed, approximately 75 percent of 
men who are not living with their children at the time of their 
birth never subsequently live with them.\24\
    Even when unwed fathers are cohabiting with the mother at 
the time of their child's birth, they are very unlikely to stay 
involved in their children's lives over the long term. Although 
a quarter of non-marital births occur to cohabiting couples, 
only four out of ten cohabiting unwed fathers ever go on to 
marry the mother of their children, and those who do are more 
likely to eventually divorce than men who father children 
within marriage.\25\ Remarriage, or, in cases of an unwed 
father, marriage to someone other than the child's mother, 
makes it especially unlikely that a non-custodial father will 
remain in contact with his children.\26\
    The inescapable conclusion is this: if we want to increase 
the proportion of children growing up with involved and 
committed fathers, we will have to increase the number of 
children living with their married fathers. Unmarried men, and 
especially unwed fathers, are far less unlikely to maintain 
contact with their children over the long term.
    This does not mean that local programs should restrict 
their efforts to working only with married fathers. We must, 
and should, work with unwed and divorced fathers to help them 
become and remain involved in their children's lives. We don't 
have a father to spare. But at the same time, it does children 
no favor to pretend that unwed or divorced fatherhood is the 
equivalent of married fatherhood. We need to be clear that the 
best situation is for children to grow up with a real live, in 
the home, love the mother, married father. Federal legislation 
should support this goal.
    Second, while recognizing the importance of child support 
enforcement, federal legislation must emphasize positive father 
engagement, not simply economic support.
    Since the 1950's, the fathers' role in public policy has 
been mostly about paternity establishment and child support 
enforcement. This is not, of course, without merit. Any man who 
fathers a child ought to be held financially responsible for 
that child. But as important as paternity establishment and 
child support enforcement may be, they are by themselves 
unlikely to substantially improve the well-being of children 
for several reasons.
    First, paternity establishment does not equal child 
support. In fact, only one in four single women with children 
living below the poverty line receive any child support from 
the non-custodial father.\27\ Some unwed fathers, especially in 
low-income communities, may lack the financial resources to 
provide economically for their children. These men may not be 
so much ``deadbeat,'' as ``deadbroke.''
    Second, even if paternity establishment led to a child 
support award, the average level of child support (about $3400 
per year \28\) is unlikely to move large numbers of children 
out of poverty. Some may move out of poverty marginally. But, 
absent changes in family structure or workforce attachment, 
moving from poverty to near poverty has not be found to be 
associated with significant improvements in child outcomes.\29\
    Third, an exclusive emphasis on child support enforcement 
may only drive these men farther away from their children. As 
word circulates within low-income communities that cooperating 
with paternity establishment but failing to comply with child 
support orders may result in imprisonment or revocation of 
one's driver's license, many may simply choose to become less 
involved with their children. Thus, the unintended consequence 
of an exclusive focus on child support enforcement may be to 
decrease, not increase, the number of children growing up with 
an involved father.
    Finally, a narrow focus on child support enforcement 
ignores the many non-economic contributions that fathers make 
to the well-being of their children. While the provision of 
economic support is certainly important, it is neither the only 
nor the most important role that fathers play. If we want 
fathers to be more than just money machines, we will need a 
public policy that supports their work as nurturers, 
disciplinarians, mentors, moral instructors and skill coaches, 
and not just as economic providers.
    Given that federal and state government already spends many 
billions of dollars on child support enforcement, what is 
needed most from federal legislation is not more money to 
enforce child support orders, but more resources to help 
fathers become engaged in the lives of their children in 
positive ways.
    Third, federal legislation should be flexible, providing 
support for a range of fatherhood programs and initiatives, 
rather than providing support for only one or two programmatic 
models.
    Fathers come in many varieties. What works with one kind of 
father in one type of situation, may not work with another kind 
of father in a different situation. While setting certain 
priorities, federal legislation should not hamstring local 
programs into one particular fatherhood intervention model or 
working with only one type of father. Federal legislation 
should be especially careful not to condition services to 
having fathered a child out-of-wedlock.
    Fourth, federal legislation must encourage the involvement 
of faith-based efforts to promote responsible fatherhood.
    Over the past decade, faith-based fatherhood interventions 
have shown an extraordinary capacity to attract men. Millions 
of men have attended Promise Keepers rallies. Tens of thousands 
of others have been involved with Dad: The Family Shepherd, 
Dad's University, and Legacy Builders. One needn't be an 
adherent to any particular faith tradition to recognize that no 
secular intervention has been able to attract the numbers of 
participants that routinely attend faith-based fatherhood 
promotion seminars, workshops, rallies, and retreats.
    I believe the attractiveness of faith-based fatherhood 
promotion to men lies in their ability to provide meaning to 
men in ways that more secular approaches can not; for faith-
based approaches give men a transcendent understanding of why 
they ought to be good fathers. Most men long for personal 
meaning and significance. They want their lives to count for 
something; they want their lives to matter. Faith-based 
fatherhood interventions answer this most basic of yearnings by 
saying to men that they matter to God.
    When men come to believe that they matter to God, their 
work as earthly fathers is given a transcendence that no social 
scientist or secular fatherhood enthusiast can ever hope to 
provide. Indeed, what faith-based interventions say to men is 
this: when you are an involved, loving father to your children, 
you give your children a glimpse of the Heavenly Father's love, 
and in so doing, you provide both you and your children with a 
cosmic connection that transcends earthly experience. Federal 
legislation must be crafted in such a way as to recognize the 
extraordinary power of faith to transform men's lives, and to 
ensure that it allows support for faith-based fatherhood 
promotion activities as well as secular ones.
    Fifth, federal legislation should encourage the development 
of community-wide initiatives, not merely individual programs. 
Fatherlessness is a big problem. Big problems can not be solved 
with little solutions. While individual fatherhood support, 
outreach, and skill building programs are the backbone of 
efforts to motivate and equip men to be responsible fathers, 
they are, by themselves, insufficient to address today's crisis 
of fatherlessness.
    Rather, what is needed is the mobilization of entire 
communities in which every sector of American society--both 
public and private--is enlisted to help address the issue of 
fatherlessness. This means that in addition to funding local 
fatherhood programs, we must also mobilize the media, 
hospitals, schools, the philanthropic sector, existing social 
services, and the judicial system, to name but a few, to help 
combat the rising problem of fatherlessness. Federal 
legislation should be crafted in such a way that fatherhood 
promotion activities do not become seen as just another funding 
stream, competing with every other funding stream, for finite 
resources.

                     The Fathers Count Act of 1999

    When judged against the aforementioned five principles, the 
``Fathers Count Act of 1999'' fares very well indeed. Titles I 
and II make it clear that grants are to be made available to 
promote marriage and successful fathering, as well to improve 
the economic condition of fathers so that they are in an 
enhanced position to pay child support. Title II of the Act 
also provides funds for a broad-based public awareness campaign 
promoting the importance of responsible fatherhood and marriage 
to the well-being of children and communities. The Act is also 
commendable in its explicit support for faith-based fatherhood 
and marriage promotion activities.
    Nevertheless, I do have several suggestions for the 
Committee's consideration. First, I recommend adding to the 
``Preferences'' section of Title I, an explict preference when 
awarding grants under this section to those fatherhood programs 
which set married fatherhood as the ideal and which strive to 
move as many unwed fathers toward marriage as possible or, at 
the very least, help these fathers understand the necessity of 
becoming married before fathering any additional children out-
of-wedlock.
    Second, while recognizing that one way to strengthen 
marriage, especially within low-income communities, is to 
expand participation in welfare-to-work employment programs to 
include the broader population of low-income males, we must be 
careful not to condition receipt of such services upon having 
fathered a child out-of-wedlock. To do so may only serve to 
introduce perverse incentives for men to father children out-
of-wedlock, in much the same way that AFDC provided perverse 
incentives for women to bear children out-of-wedlock. Careful 
attention should be paid in both Titles I and III to ensure 
that such perverse incentives for unmarried fatherhood do not 
exist.
    Third, the Act would be enhanced by making it clear that 
grants could be used to support broad-based, community-wide 
efforts to support responsible fatherhood and marriage, and not 
just individual, single site programs. This should be clarified 
in both Titles I and II of the Act.
    Fourth, it should be made clear in the section of Title I 
entitled ``Minimum Percentage of Grants for Projects 
Coordinated with Paternity Establishment'' that programs which 
serve married fathers at the time of the child's birth are 
eligible under this section. Otherwise, one could interpret 
this section to mean that 50 percent of the funds under Title I 
can only be used to support fathers who have establish legal 
paternity, but who are not married to the mothers of their 
children. Such a reading of the Act could potentially provide 
perverse incentives for unwed fatherhood.
    Finally, it is admirable that the Act sets aside $6,000,000 
for evaluation of the fatherhood programs funded by this 
legislation. It appears, however, that the first year any 
evaluation funds become available is in FY 2006, four years 
after the first fatherhood program funds are made available. 
The best evaluations are those which are fully integrated into 
programs when first implemented, rather than tagged on after 
the fact. I recommend that the Committee clarify that the 
evaluation efforts must begin at the point of program 
implementation, rather than four years after the programs have 
already begun.

                               Conclusion

    There exists today no greater single threat to the long-
term well-being of children, our communities or our nation, 
than the increasing number of children being raised without a 
committed, responsible and loving father. This tide will not be 
turned easily, and certainly not by changes in public policy 
alone. But public policy can have a significant effect upon how 
potential parents view marriage and parental responsibilities.
    The good news is that we are starting to see, for the first 
time in over thirty years, a leveling off of the number of 
children growing up in father absent homes. I believe that with 
concerted effort we can actually reverse the trend toward 
fatherlessness within the next five years. Not simply stop the 
rise in fatherlessness, but reverse it. Doing so will require 
that we stand firm on the issue of marriage, for marriage is 
the most likely--not perfect, but certainly the most likely--
pathway to a lifetime father.
    Simply put: children need their fathers, and men need 
marriage to be good fathers. Effective public policy means 
encouraging more skilled fathering, more work, and more 
marriages. The ``Fathers Count Act of 1999'' is a very 
significant, positive and much welcomed step forward in this 
regard.
    I thank you for the opportunity to provide you with this 
testimony, and would be pleased to answer any questions you 
might have concerning my testimony.

                                Endnotes

    \1\ Wade F. Horn, Father Facts, 3rd Edition (Gaithersburg, MD: The 
National Fatherhood Initiative, 1998).
    \2\ Frank F. Furstenberg, Jr., and Andrew J. Cherlin, Divided 
Families: What Happens to Children When Parents Part (Cambridge, MA: 
Harvard University Press, 1991).
    \3\ U.S. Department of Health & Human Services, National Center for 
Health Statistics, ``Advance Report of Final Divorce Statistics, 
1988,'' Monthly Vital Statistics Report, Vol. 39, (Washington, D.C.: 
U.S. Government Printing Office, 1991).
    \4\ U.S. Department of Commerce, Bureau of the Census, 
``Statistical Abstract of the United States, 1993,'' (Washington, D.C.: 
Government Printing Office, 1993).
    \5\ National Commission on Children, ``Just the Facts: A Summary of 
Recent Information on America's Children and Their Families,'' 
(Washington, D.C.: U.S. Government Printing Office, 1993).
    \6\ United States House of Representatives, Committee on Ways and 
Means, ``1991 Green Book,'' (Washington, D.C.: Government Printing 
Office, 1991).
    \7\ Stephanie J. Ventura, Christine A. Bachrach, Laura Hill, 
Kellenn Kay, Pamela Holcomb, and Elisa Koff, ``The Demography of Out-
of-Wedlock Childbearing,'' in U.S. Department of Health and Human 
Services, National Center for Health Statistics, ``Report to Congress 
on Out-of-Wedlock Childbearing,'' DHHS Pub. no. (PHS) 95-1257, 
(Washington, D.C.: U.S. Government Printing Office, 1995): 105.
    \8\ Kids Count Data Book: State Profiles of Child Well-Being, 
(Baltimore, MD: TheAnnie E. Casey Foundation, 1995): 125.
    \9\ Kids Count Data Book: State Profiles of Child Well-Being, 
(Baltimore, MD: The Annie E. Casey Foundation, 1995): 125.
    \10\ U.S. House of Representatives, Committee on Ways and Means, 
``1993 Green Book,'' (Washington, D.C.: U.S. Government Printing 
Office, 1993); Arlene Saluter, U.S. Department of Commerce, Bureau of 
the Census, ``Marital Status and Living Arrangements: March 1993,'' 
Current Population Reports: Population Characteristics P20-478, 
(Washington, D.C.: U.S. Government Printing Office, 1994); Stacy 
Furudawa, U.S. Department of commerce, Bureau of the Census, ``Diverse 
Living Arrangements of Children: Summer 1991,'' Current Population 
Reports: Household Economic Studies, (Washington, D.C.: U.S. Government 
Printing Office, 1994).
    \11\ National Commission on Children, ``Just the Facts: A Summary 
of Recent Information on America's Children and Their Families,'' 
(Washington, D.C.: U.S. Government Printing Office, 1993).
    \12\ Debra Dawson, ``Family Structure and Children's Well-Being: 
Data from the 1988 National Health Survey,'' Journal of Marriage and 
Family 53 (1991); U.S. Department of Health and Human Services, 
National Center for Health Statistics, ``Survey of Child Health,'' 
(Washington, D.C.: U.S. Government Printing Office, 1993).
    \13\ U.S. Department of Health and Human Services, National Center 
for Health Statistics, ``National Health Interview Survey,'' 
(Hyattsville, MD: U.S. Government Printing Office, 1988).
    \14\ Irwin Garfinkel and Sara McLanahan, Single Mothers and Their 
Children (Washington, D.C.: Urban Institute Press, 1986); Susan 
Newcomer and J. Richard Udry, ``Parental Marital Status Effects on 
Adolescent Sexual Behavior,'' Journal of Marriage and the Family (May 
1987): 235-240.
    \15\ U.S. Department of Health and Human Services, National Center 
for Health Statistics, ``Survey on Child Health,'' (Washington, D.C.: 
U.S. Government Printing Office, 1993).
    \16\ Nicholas Davidson, ``Life Without Father,'' Policy Review 
(1990).
    \17\ Dewey Cornell, et al., ``Characteristics of Adolescents 
Charged with Homicide,'' Behavioral Sciences and the Law 5 (1987): 11-
23.
    \18\ M. Eileen Matlock, et al., ``Family Correlates of Social 
Skills Deficits in Incarcerated and Nonincarcerated Adolescents, 
Adolescence 29 (1994): 119-130.
    \19\ Patricia L. McCall and Kenneth C. Land, ``Trends in White Male 
Adolescent Young-Adults and Elderly Suicide: Are There Common 
Underlying Structural Factors?'' Social Science Research 23 (1994): 57-
81; U.S. Department of Health and Human Services, National Center for 
Health Statistics, ``Survey on Child Health,'' (Washington, D.C.: U.S. 
Government Printing Office, 1993).
    \20\ Catherine M. Malkin and Michael E. Lamb, ``Child Maltreatment: 
A Test of Sociobiological Theory,'' Journal of Comparative Family 
Studies 25 (1994): 121-130.
    \21\ Frank F. Furstenberg, Jr., and Christine Winquist Nord, 
``Parenting Apart: Patterns of Child Rearing After Marital 
Disruption,'' Journal of Marriage and the Family, (November 1985): 896.
    \22\ Frank Furstenberg and Andrew Cherlin, Divided Families: What 
Happens to Children When Parents Part (Cambridge, MA: Harvard 
University Press, 1991).
    \23\ Robert Lerman and Theodora Ooms, Young Unwed Fathers: Changing 
Roles and Emerging Policies (Philadelphia, PA: Temple, 1993): 45.
    \24\ Ibid.
    \25\ Moore, Kristin A., ``Nonmarital Childbearing in the United 
States.'' In: U.S. Department of Health and Human Services, ``Report to 
Congress on Out-of-Wedlock Childbearing,'' DHHS Pub. no. (PHS) 95-1257, 
(Washington, D.C.: U.S. Government Printing Office, 1995): vii.
    \26\ Linda S. Stephens, ``Will Johnny See Daddy This Week?'' 
Journal of Family Issues 17 (1996): 466-494.
    \27\ Ways and Means Committee, U.S. House of Representatives, 1996 
Green Book. Washington, D.C., 1996, p. 580.
    \28\ Lydia Scoon-Rogers, ``Child Support for Custodial Mothers and 
Fathers: 1995.'' U.S. Census Bureau (Washington, D.C.: U.S. Government 
Printing Office, 1999).
    \29\ See, for example, Kristen A. Moore, Donna Ruane Morrison, 
Martha Zaslow and Dana A. Glei, Ebbing and Flowing, Learning and 
Growing: Family Economic Resources and Children's Development. Paper 
presented at the Workshop on Welfare and Child Development sponsored by 
the Board of Children and Families of the National Institute of Child 
Health and Human Development's Family and Child Well-Being Network.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you very much, Dr. 
Horn.
    Mr. Rector, nice to have you.

 STATEMENT OF ROBERT RECTOR, SENIOR RESEARCH FELLOW, HERITAGE 
                           FOUNDATION

    Mr. Rector. Thank you, Chairwoman. I appreciate the 
opportunity of being back here today to testify about this most 
important issue. The central problem in our society today is 
that marriage is dying. A third of all children are born out of 
wedlock. There is a child born out of wedlock roughly every 25 
seconds across the United States. Among minority children, 70 
percent are born out of wedlock.
    The death of marriage is the root cause of crime, of child 
poverty, of welfare dependence, of school failure, of drug 
addiction, and most of the other social problems that we are 
concerned with.
    Yet in the United States today, the government spends about 
$1,000 subsidizing single parenthood for every single dollar it 
spends trying to reduce illegitimacy and promote marriage.
    This bill I feel straddles the fence between those two 
issues. When we use the term fatherhood, it is in some sense an 
ambiguous term. We must ask what is the goal of fatherhood 
programs. As we look at the range of fatherhood programs, we 
see that there are basically two polar goals here. A lot of 
programs focus on collecting child support and providing job 
training. Other programs, the minority, focus on the much more 
important issue of restoring marriage.
    I would simply like to ask the question, what do we expect 
the effect of collecting child support to be on child outcome? 
Do we expect that if we collect child support today, it will 
reduce juvenile crime in the future? Do we expect it will 
reduce future out-of-wedlock births as girls become teenagers? 
Do we expect it will reduce the rate of school failure? Do we 
expect it will increase the rate of psychological health or 
reduce the rate of child abuse? No.
    No credible researcher could tell you that collecting child 
support is expected to have any of those positive outcomes on 
children. In fact, as a researcher, I would say to you that 
collecting child support is such a weak variable that when I do 
regressions and things, very few people would use it as a 
variable because it does not affect those outcomes that we are 
concerned with. But on the other hand, marriage does, marriage 
affects them profoundly and positively and marriage is key to 
the well-being of children.
    Now, we could spend the next decade emphasizing the 
collection of child support, and after that was over, we would 
ask, have to ask ourselves exactly what did we do for these 
children, or we could spend a decade working on programs that 
focus on restoring loving marriages, and we would find that we 
would have then defeated the culture of the underclass.
    One of the problems that I find with the Fathers Count bill 
as it is currently configured is that it waits until an out-of-
wedlock pregnancy has occurred to begin an intervention. I 
think, in fact, the bulk of effort should be put at a much 
earlier stage, in particular, going into high school with 
marriage education programs that explain to at-risk, young 
people that what marriage can do for them and what it will do 
for their children to create the expectation and the idea of 
marriage. In other words, what I want to do is to prevent 
Humpty Dumpty from falling off the wall rather than trying to 
glue him back together again after he has fallen.
    Let us go back, let us go to the very beginning of the 
problem and try to prevent young men and women from falling 
into these problems, falling into the problem of illegitimacy, 
rather than waiting until one or two children have been born, 
the mother and father have fallen into a broken relationship 
and now we are trying to patch it together again for an 
emphasis on child support. That is not the place to put our 
emphasis. The place to put our emphasis is on disaster 
prevention rather than disaster relief, and the prevention of 
disaster is a focus on the restoration of marriage in these 
communities.
    I am also concerned under this act of the very large role 
that it gives to the professional Washington bureaucracy in the 
selection of grantees. I have worked in this field for 20 
years, and I must say to you that there is, although this issue 
is changing slightly, I experienced 20 years of indifference or 
hostility to the question of marriage within the professional 
bureaucracy here in Washington and many of the State capitals, 
and, therefore, expecting this bureaucracy to allocate funds to 
grantees that have a strong pro-marriage goal and posture is 
very, very unlikely.
    I do think that the issue is changing slightly, but I have 
been in this field so long that I can remember over and over 
again being told by the very people that will be making the 
decisions about this funding that marriage is essentially 
obsolete, it is not important.
    And this bill I believe wants to break from the status quo, 
a break from the status quo. I believe the most important thing 
that you could do would be to go into Title II of the act, 
which is a very well-designed title and is in fact I think the 
beginning of a pro-marriage initiative in the Federal 
Government, find those organizations that have a historic track 
record in support of marriage and directly put the funds on 
those organizations and see what they can do.
    I believe that across the Nation in the communities that we 
are concerned with, there is an appetite for hope. There is an 
appetite for the message of marriage. They are waiting for us 
to tell them what to do and how to lead their lives properly. 
We need to put an emphasis on giving that message out at the 
appropriate time before the girl has become pregnant, before 
the out-of-wedlock child birth has occurred or at least at that 
very point rather than waiting 6 or 7 years until a boy has had 
2 or 3 children out of wedlock, the relationship between the 
man and the woman have collapsed and now we are trying to paste 
the whole thing back together again.
    Let us start and prevent the problem from emerging in the 
first place. I believe we can do that if we have a will and a 
goal of that in mind.
    [The prepared statement follows:]

Statement of Robert Rector, Senior Research Fellow, Heritage Foundation

                              Introduction

    I wish to thank the sub-committee for the opportunity to 
testify on the Fathers Count bill. The views I will express are 
my own and do not necessarily reflect those of The Heritage 
Foundation.
    Marriage in our society is dying. Today, a third of all 
births occur outside of wedlock. Among blacks the rate is 
nearly 70 percent. The collapse of marriage lies at the core of 
underclass culture and is the root cause of a vast array of 
overlapping social problems including crime, welfare 
dependence, child poverty, drug use, eroded work effort and 
school failure.
    Yet rather than seeking to combat marital collapse the 
government subsidizes it. At present, the federal and state 
governments spend around $150 billion a year on means-tested 
subsidies to single parents. These subsidies promote single 
parenthood and undermine marriage. By contrast, the government 
spends some $150 million a year on programs designed to reduce 
illegitimacy and increase marriage. Thus the government spends 
$1,000 subsidizing single parenthood for every $1.00 it spends 
to restore marriage and reduce illegitimacy. Moreover, 
obtaining even the $150 million in pro-marriage funding was 
severe up-hill struggle.
    This $1,000 to $1.00 ratio is no accident, but reflects the 
value system which pervades the welfare and social service 
establishment in this nation. Since the fervent assault on the 
Moynihan Report in 1963, the professional welfare industry has 
regarded the institution of marriage with indifference or 
contempt. William Ryan in his influential book Blaming the 
Victim expressed this view most clearly, saying that ``only a 
few old diehards cling to old myths [concerning the value of 
marriage].''
    When pressed, the welfare and social service industry may 
now pay weak lip service to marriage but the underlying 
attitude of indifference or hostility remains. This attitude 
explains why, despite the fact that the welfare reform 
legislation of 1996, the Personal Responsibility and Work 
Opportunity Reconciliation Act (PRWORA), identified reducing 
illegitimacy as a paramount goal, few if any states use TANF 
surplus funds in active programs aimed at reducing illegitimacy 
and increasing marriage.
    The ``Fathers Count'' bill, like PRWORA, identifies 
restoring marriage as a paramount goal, but once again this 
lacks operational teeth. The structure of the programs and the 
role of formal bureaucracies in selecting grantees ensure that 
only a tiny fraction of these funds will go to organizations 
with a strong commitment to marriage. Instead nearly all on the 
funding will be devoted to providing job training to absent 
fathers and collecting child support.

                          Title One of the Act

    Title One of the bill contains the bulk of funding with 
$150 million over four years. It is true that one of the stated 
goals of title one is to promote marriage. However, none of the 
six active preference criteria to be used in selecting grants 
relate even remotely to marriage. Instead the emphasis is on 
job training, cooperation with child support enforcement, and 
paternity establishment.
    Moreover, the eligibility criteria of title one are 
incompatible with a focus on reducing illegitimacy and 
increasing marriage. Young men may receive services under the 
bill only after they have fathered a child out-of-wedlock or 
made a married girl pregnant, generally out-of-wedlock. By 
contrast, a pro-marriage strategy would focus on preventing 
out-of-wedlock pregnancies from occurring and would encourage 
marriage before the pregnancy and non-marital birth happen.
    If the overall goal is to reduce illegitimacy and to 
increase and strengthen marriage then we need to realize that 
interventions may planned at many different stages in the 
individual's life cycle. These stages include:
    Stage One: Before the initiation of sexual activity in teen 
or early adult years.
    Stage Two: During the early stages of non-marital sexual 
activity.
    Stage Three: While a young woman is cohabiting with 
boyfriend.
    Stage Four: When a young woman cohabiting with boyfriend 
becomes pregnant and intends to bear the child.
    Stage Five: When a young unmarried mother with new-born 
infant is cohabiting or in a relationship with child's father.
    Stage Six: When the mother and father's relationship has 
broken down, and the father leaves household.
    Stage Seven: When the absent father fails to pay child 
support.
    Stage Eight: When the absent father fails to pay child 
support, and the mother is involved with other men.
    A comprehensive strategy to increase marriage and reduce 
illegitimacy would provide an overlapping series of 
interventions with an emphasis on stages one through five. 
These interventions could involve marriage education, skills 
building, mentoring, ad campaigns, and programs to reward 
marriage and the avoidance of illegitimacy. Education programs 
concerning the value of marriage targeted to at-risk youth in 
high school and middle school are particularly important.
    By contrast, nearly all so called fatherhood programs focus 
on stages seven and eight. But these are precisely the points 
which have the least likelihood of producing a stable married 
home environment for the child. This is no accident. These 
programs were explicitly designed with the goals of providing 
job training to absent fathers and collecting child support. 
Most of the organizations involved share the mindset of most of 
the social service industry ranging from indifference to overt 
hostility towards marriage. Many of these organizations have 
been reluctant even to mention the word marriage.
    While the interventions most likely to increase marriage 
and reduce illegitimacy will occur in stages one through five, 
title one of Fathers Counts prohibits funding to any 
interventions in stages one through three. Title one does 
depart from conventional practice by requiring some programs to 
recruit participants in stage four (during pregnancy of the 
mother). However, the fact remains that nearly all the activity 
funded under title one will occur after an illegitimate birth 
has occurred; the bulk will focus on providing largely 
ineffectual job training to absent fathers long after the 
relationship with the mother has collapsed. By focusing its 
efforts after an out-of wedlock pregnancy or birth has 
occurred, Fathers Count bill provides disaster relief when what 
is needed is disaster prevention.

                        Misstating the Objective

    Thus nearly all of the activities funded under Title one 
will focus on preparing and assisting absent fathers to pay 
more in child support. Why this inordinate focus on child 
support? What better outcomes for the child born out-of-wedlock 
can we expect if more child support is collected? Will the 
child's rate of future criminal activity and incarceration drop 
significantly? Will child's mental health and psychological 
stability improve? Will the school drop-out rates and rates of 
drug and alcohol abuse decline? Will the child's prospects of 
giving birth out-wedlock herself as an adult drop?
    Of course, improved child support collection will have a 
nugatory effect on all of these crucial life outcomes. In other 
words, child support has, at best, and a marginal effect on the 
well-being of the child. By contrast, restoration of marriage 
will have the most profound beneficial effects on the child's 
life outcomes and on the culture of the underclass. Why then, 
the pre-occupation with child support and the neglect in 
fostering marriage? The answer lies in the institutional 
hostility to marriage I alluded to earlier.

                   Bureaucratic Selection of Grantees

    Another substantial problem with Title one is the dominant 
role it gives the federal bureaucracy in selecting grantees. 
There is no group of people with greater hostility to the 
institution of marriage of than the professional bureaucracy to 
the U.S. Department of Health and Human Services. Yet the 
Washington bureaucratic class will have a huge role in 
selecting grantees. Funding conservative pro-marriage groups 
would represent an enormous break the social service status 
quo. This departure from the status quo will not occur if the 
allocation of funding and selection of grantees is controlled 
by either federal or state welfare bureaucracies. Instead funds 
must be directly targeted to pro-marriage groups.

                     Title Two and Targeted Funding

    However, Title Two of the bill is substantially different 
than title one. Title two actually targets funds to two groups 
with a historic commitment and track record in support of 
marriage. Assuming that the HHS bureaucracy actually allows 
these funds to flow to the targeted groups, title two will fund 
critically needed pro-marriage activities. Thus the title two 
funding could provide the first significant step in a national 
campaign to restore marriage and save the underclass.
    Unfortunately, the funds allocated to pro-marriage groups 
under Title two will constitute only $5 to $10 million over 
four years. By contrast, total funding under the Fathers Counts 
bill, including title three will be around $230 million. Thus 
the funds which will actually flow to pro-marriage activities 
and pro-marriage groups will be only two to four percent of the 
total.
    This is simply insufficient. If the bill is to have a 
substantial pro-marriage component, this can only be 
accomplished by increasing the funds allocated to the committed 
pro-marriage groups targeted in title two. Pro-marriage groups 
and activities should receive at least a quarter of the funding 
under this bill, or roughly $50 million over four years, rather 
than the current $5 to $10 million.

                              Title Three

    Title three of the act provides $65 million to provide more 
job training. At a time when state governments are sitting on 
nearly $6 billion in surplus TANF funds this expenditure is 
simply a waste of the taxpayers money.

                               Conclusion

    The most pressing goal facing our nation is strengthening 
marriage and reducing illegitimacy. The collapse of marriage is 
at the center of the problem of the underclass. Any policy, 
which seriously seeks to redeem the underclass, must begin by 
restoring marriage.
    Unfortunately, the Fathers Count bill will not strengthen 
marriage. Although some 2 to 4 percent of its funds will 
probably flow to groups with a historic track record of 
fostering marriage, the remaining bulk of the funds will be 
used to provide job training of marginal effectiveness and to 
increase child support payments. Nearly all of the 
organizations which will receive funds will share the ethos 
which has characterized the U.S. social service industry since 
the denunciation of the Moynihan report in 1963. That ethos 
ranges from complete indifference to outright hostility toward 
marriage as an institution.
    Even worse, the Fathers' Count bill will undermine efforts 
to restore marriage for two reasons. First, the bill will 
decisively draw attention and scarce funds away from the real 
issue of marriage. Second, because of its emphasis on child 
support pass through, the bill is likely to result in an 
indirect increase in welfare benefits flowing to single 
mothers. This will increase rather than reduce illegitimacy.
    Regrettably, those policy makers truly interested in a 
restoration of marriage should seek a substantial alteration to 
the Fathers Count Act.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you very much, Mr. 
Rector.
    Dr. Johnson.

  STATEMENT OF JEFFREY M. JOHNSON, PH.D., PRESIDENT AND CHIEF 
  EXECUTIVE OFFICER, NATIONAL CENTER FOR STRATEGIC NONPROFIT 
               PLANNING AND COMMUNITY LEADERSHIP

    Mr. Jeffrey Johnson. Good afternoon. I want to thank you, 
Chairman Johnson, Mr. Cardin and Members of the Human Resources 
Subcommittee for this opportunity to testify on the proposed 
Fathers Count Act of 1999. As you know, Madam Chair, for 20 
years, I have been involved with the programs concerned with 
the plight of poor families from a lot of different positions, 
from a corporate executive, from a nonprofit executive, a 
college professor and a practitioner.
    I try to bring that knowledge to my work at the 
organization I represent, and that is the National Center for 
Strategic Nonprofit Planning and Community Leadership. Simply 
put, NPCL works with communities and families to help 
themselves.
    With the passage of the Fathers Count Act of 1999, it will 
be a first step in providing the general public support needed 
to move closer to the day when fatherlessness is no longer a 
major American social issue. Since before the passage of the 
Personal Responsibility and Work Opportunities Reconciliation 
Act of 1996, NPCL through the Strengthening Fragile Families 
Initiative sponsored by the Ford Foundation has been working 
toward the objectives set by welfare reform.
    The major provision of that legislation the temporary 
assistance for needy families, or TANF, had four goals. Along 
with my colleagues, Dr. Elaine Sorensen of the Urban Institute 
and Dr. Ronald Mincy of the Ford Foundation, who joined me in 
this statement, strengthening family grantees has been focused 
especially on the fourth goal, which is to encourage the 
formation and maintenance of two-parent households.
    In our opinion, this legislation is intended to begin its 
work where welfare reform ended. That means, not only extending 
the employment gains made by mothers of children on welfare to 
fathers, but also helping young, low-income fathers and mothers 
to develop the personal employment and relationship skills they 
need to jointly support their children.
    In our view, this will go a long way toward meeting the 
fourth goal, especially in communities where most children are 
born to unwed parents. Strengthening fragile families 
initiative research shows that many young fathers are highly 
involved with their children and their children's mothers at 
the birth of the child and during the early childhood years; 
therefore, the image of mothers raising their children born out 
of--outside of marriage by themselves is not totally accurate.
    I would like to draw your attention to the charts on my 
right. And, Madam Chairperson, they are attachments 1 and 2 in 
my prepared written testimony. These findings bolster the 
evidence provided by Professor Sara McLanahan during the 
Subcommittee's previous hearing on fatherhood of high father 
involvement at the time of the child's birth. We believe that 
this legislation must more clearly make provisions for 
interventions that support and strengthen the bond between 
younger and low-skilled and low-income fathers, mothers and 
their children, a group we referred to as fragile families.
    So, first, we ask you to broaden the purpose of the 
legislation to look at fragile families as an appropriate point 
of intervention.
    A fourth goal might be added as follows: To promote the 
long-term collaboration of unwed parents in their child's 
development through interventions that serve both parents 
during the early years of a child's life. The Fathers Count Act 
should also seek to coordinate the service requirements of moms 
and dads and make eligibility requirements more gender or 
custody neutral so that dad can receive assistance as needed to 
bolster his self-sufficiency and capacity to care for his 
family.
    There are some additional points I would like to bring to 
your attention. First is that MPCL has developed an expertise 
to coordinate amongst a variety of agencies serving low-income, 
low-skilled parents. Much of the work that we are doing is done 
in collaboration with the Department of Labor, programs at the 
local level, the worker force investment boards, with Head 
Start, with Healthy Start, with Runaway Services, with the TANF 
program. We have a national demonstration project operating in 
10 cities, and we have been able to pull it off, and so some of 
the suggestions about a community-wide initiative does make 
sense to us, and I can point very specifically to these types 
of projects in those communities we are working in.
    Also, the Partner for Fragile Families demonstration 
project, a 10-city demonstration, is the first comprehensive 
initiative that is designed to focus on both moms and fathers 
as they try to pull themselves out of poverty and build 
stronger links with their children and to develop the bonds 
necessary to provide worthwhile role models to their children.
    The Fathers Count Act provides a broad programmatic 
framework for reengaging fathers with families. The Partners 
for Fragile Families project is already in the process of 
conducting the work recognized necessary by the bill. The PFF 
project also emphasizes team parenting, meaning that parents 
work together for the benefit of their children regardless of 
their marital status.
    Let me address the question of marriage here by stating 
that we support it. However, the crucial question for us is not 
whether but when. A young father without a job or prospects is 
a poor candidate for marriage. He is not, as we phrase it, 
marriageable, but that does not mean that he abdicates his role 
as daddy. The Fathers Count Act of 1999 needs the support and 
to cultivate marriageability with a fervor equal to that 
expressed commitment to support and cultivate marriage.
    Finally, it is imperative that any new or revised policy 
initiatives toward supporting fragile families be enacted. That 
is where the Fathers Count Act of 1999 can make a real 
difference. We need to shape guidelines that focus efforts 
where we can and to maximize results now that welfare reform 
has become operational. We need to intervene now and cutoff the 
supply of children who require public assistance because their 
families are unable to provide their basic needs. Research 
strongly suggests that the best way to ensure that children do 
not need public assistance is to ensure that their parents have 
the wherewithal to support their family.
    For many young fathers, the heart is indeed willing but the 
ability is lacking. Multiple, flexible strategies will be 
necessary to address the challenges these men and their 
families face. Part of that response we believe is the Fathers 
Count Act of 1999, as well as our Partners for Fragile Families 
project.
    Although I have several other recommendations that I would 
like to discuss, time will not permit, and so Madam 
Chairperson, I would just like to offer those as part of my 
written testimony, and I would be happy to answer any questions 
that you and the Subcommittee might have at this time.
    [The prepared statement follows:]

Statement of Jeffrey M. Johnson, Ph.D., President and Chief Executive 
Officer, National Center for Strategic Nonprofit Planning and Community 
Leadership

    Good Afternoon, first my thanks to Chairman Johnson and 
members of the Human Resources Subcommittee of the House Ways 
and Means Committee for this opportunity to testify on the 
proposed Fathers Count Act of 1999. I applaud your wisdom, 
foresight, tenacity and commitment to fathers, families and 
children as indicated by this proposed legislation and these 
hearings aimed at addressing father involvement in the lives of 
their children. I know first hand the importance of fathers in 
families and I try to bring that knowledge to my work as 
President and CEO of the National Center for Strategic 
Nonprofit Planning and Community Leadership. The mission of 
NPCL is to enhance the capacity of community-based 
organizations to address identified local needs, primarily 
through family and neighborhood empowerment. Simply put NPCL 
works to help communities and families help themselves. I am 
Dr. Jeffery M. Johnson, and on behalf of the board and staff of 
NPCL, the ten Partners for Fragile Families Demonstration 
Sites, over 3,000 fatherhood professionals that we have trained 
over the past few years, representatives from the faith based 
community and an array of non-governmental organizations, I 
thank you for squarely addressing this long-neglected aspect of 
family social policy. If you are successful at passing the 
Fathers Count Act of 1999, it will be a first step in providing 
the general public support needed to move us closer to the day 
when fatherlessness is no longer a major American social issue. 
This bill also has implications for the greater success of 
child support collections and welfare-to-work initiatives and 
calls for coordination between service providers at all levels 
which everyone agrees will enhance services to families. We 
applaud your attempt to ensure the integration of the services 
authorized under welfare reform.
    Since before the passage of the Personal Responsibility and 
Work Opportunity Reconciliation Act of 1996, NPCL as part of 
the Ford Foundation's Strengthening Fragile Families Initiative 
(SFFI) has been working towards the objectives set forth by 
welfare reform. The major provision of that legislation, 
Temporary Assistance to Needy Families or TANF, had four goals. 
States were required to use funding to:
    decrease welfare dependency by providing enhanced job 
opportunities;
    provide cash assistance and other services to needy 
families;
    reduce the rate of out-of-wedlock pregnancies;
    encourage the formation and maintenance of two parent 
households.
    Along with my colleagues Dr. Elaine Sorensen of the Urban 
Institute and Dr. Ronald Mincy of the Ford Foundation, who join 
me in this statement, SFFI grantees have been focussed 
especially on the fourth goal. In our opinion this legislation 
is intended to begin its work where welfare reform ended. This 
means, not only extending the employment gains made by the 
mothers of children on welfare to fathers, but also helping 
young, low-income unwed fathers and mothers to develop the 
personal, employment, and relationship skills they need to 
jointly support their children. In our view, this will go a 
long way toward meeting the fourth goal, especially in 
communities where most children are born to unwed parents.
    SFFI research shows that most young fathers are highly 
involved with their children and their children's mothers at 
the birth of the child and during their early childhood years. 
Therefore, the image of mothers raising their children born 
outside marriage by themselves is not totally accurate. 
According to chart 1, attachment 1,* a large nationally 
representative survey conducted by the Urban Institute in 1997, 
for example, 30 percent of children under the age of two who 
are born outside of marriage live with both of their biological 
parents. Another 32 percent lived with their mother and saw 
their father at least once a week. Thus, according to this 
survey, the majority of young poor children born outside of 
marriage have highly involved fathers. Chart 2, attachment 2, 
shows that just over a quarter of poor children spend their 
first two years in a fragile family, but as children get older, 
this family type declines. As you can see, for poor children 
under the age of two, 38 percent of them live with their two 
natural, married parents; 27 percent live in a fragile family; 
29 percent live with their mother and their father is not 
highly involved; and 5 percent live in other arrangements. By 
the time poor children are in their teens, however, only 5 
percent of them live in a fragile family; 59 percent live with 
their mother and their dad is not highly involved. Thus, most 
poor children end up in a single mother family with an 
uninvolved father, but when poor children are young, both 
parents are more likely than not to be involved.
---------------------------------------------------------------------------
    * The National Survey of America's Families is a large nationally 
representative survey of the non elderly population (under 65 years of 
age) conducted in 1997 for the urban Institute.
---------------------------------------------------------------------------
    These findings bolster the evidence provided by Professor 
Sarah McLanahan, during the committee's previous hearings on 
fatherhood, of high father involvement at the time of the 
child's birth. Professor McLanahan's preliminary findings are 
from the Fragile Families and Child Wellbeing Survey, which was 
initiated through a Ford Foundation, SFFI grant. This survey is 
in the process of interviewing unwed mothers and fathers in 21 
cities across the country. While the current findings are 
preliminary, the final survey results will doubtlessly show 
levels of father involvement of a similar order of magnitude, 
which is much higher than most experts would have anticipated 
based upon previous research.
    These findings suggest that a new family type has emerged--
it consists of poor children and their young, disadvantaged, 
unwed parents who want to work together on behalf of their 
offspring. This is where the Fathers Count Act can and should 
focus its work. Thus, we believe that this legislation must 
more clearly make provisions for interventions that support and 
strengthen the bond between young low-skilled, low-income 
fathers, mothers and their children, a group we refer to as 
``fragile families.''
    So we first we ask you to broaden the purpose of this 
legislation to look at ``fragile families,'' as an appropriate 
point of intervention. A fourth goal might be added as follows:
    (4) to promote the long-term collaboration of unwed parents 
in their child's development through interventions that serve 
both parents during the early years of a child's life.
    The Fathers Count Act should also seek to coordinate the 
service requirements of moms and dads and make eligibility 
requirements more gender-or-custody neutral so that dad can 
receive assistance, as needed, to bolster his self-sufficiency 
and capacity to care for his family. We are not suggesting that 
fathers be provided the same level of services as mothers, nor 
are we challenging the presumptive custody that the mother has 
under current law. Instead, we would modify the eligibility 
criteria in the Fathers Count Act to make it easier for fathers 
to receive employment, counseling, and related services under 
the Act. I would suggest that the mere inclusion of so many 
different factors for eligibility will make the implementation 
of the various program elements difficult ``on the ground'' 
when states and localities attempt to operationalize these 
programs. In that regard, for the sake of consistency, the bill 
should also raise the personal eligibility criteria to 200 
percent of the poverty guideline for fathers. Similarly, we 
should streamline eligibility requirements and do away with any 
criteria that are not absolutely necessary to maintain the 
integrity of programs.
    NPCL has developed the expertise to coordinate among the 
various agencies serving low-income, low-skilled parents and 
their children, because we have discovered that fathers and 
mothers in fragile families have very similar need profiles. 
Our primary project, Partners for Fragile Families (PFF), 
includes a ten-city demonstration project that is the first 
comprehensive national initiative designed to help poor, single 
fathers join the mothers of their children in pulling 
themselves out of poverty and building stronger links to their 
children and their children's mothers. Thus, we believe that we 
are focused on a specific segment of families that the Fathers 
Count Act should target in order to maximize its effectiveness.
    PFF fathers are not ``deadbeat dads'' but men we call 
``dead-broke dads.'' These are men likely to qualify themselves 
for food stamps, men who look statistically much like mothers 
who are long-term welfare recipients. The difference between 
``deadbeat dads'' and those we refer to as ``dead-broke dads'' 
is that the former can pay child support but will not. ``Dead-
broke dads'' cannot pay child support but would if they were 
able.
    As it streamlines eligibility requirements, the Fathers 
Count Act should also require that organizations eligible to 
receive funds have two additional kinds of experience:
    offering national technical assistance and training to 
programs that target fragile families; and
    working in partnership with programs under the aegis of the 
Department of Labor, the Department of Health and Human 
Services, (including Head Start and Child Support Enforcement) 
Department of Education,, and other child well-being 
initiatives.
    Such coordination is not always necessary to serve mothers 
and fathers separately, but it is essential to help mothers and 
fathers jointly support their children, which is consistent 
with the fourth goal.
    The Partners for Fragile Families Site Demonstration is a 
collaborative effort funded by grants from NPCL and operated in 
the ten test cities by public and private groups, grass roots 
community-based organizations, federal and state child support 
enforcement agencies, private employers and others to help men 
take financial, emotional and legal responsibility for their 
children. The operative idea here is a partnership that 
leverages resources in a broad working coalition toward the 
goal of strong, independent families where children are well-
cared for by both mother and father.
    The Fathers Counts Act provides a broad programmatic 
framework for re-engaging fathers with families. Thus, PFF is 
already in the process of conducting the work recognized as 
necessary by the bill. PFF addresses a range of interlocking 
issues, including the type of systemic policy change suggested 
by the Fathers Counts Act.
    All PFF grantees are required to use the Fatherhood 
Development Curriculum co-authored by myself and Pamela Wilson 
to teach values, manhood, parental accountability, anger 
management, self-sufficiency, health, sexuality and pregnancy 
prevention and conflict resolution. These lessons are 
emphasized by a peer support component of the program which 
means that young fathers who have successfully become 
responsible help teach those who are trying to become good 
parents. We also emphasize what we call team, T-E-A-M 
parenting, meaning that parents work together for the benefit 
of their children regardless of their marital status. And let 
me address the question of marriage here by stating that we 
support it. However, the crucial question for us is not whether 
but when. A young father without a job or prospects is a poor 
candidate for marriage--he is not as we phrase it, 
marriageable, but that does not mean he abdicates his role as 
``daddy.'' Whether or not they are married, the child needs 
food, clothes, care, love and two supportive, nurturing 
parents. As he becomes self-supporting and an integral part of 
his child(ren)s lives, hopefully, marriage is a result if that 
is something the couple seeks for themselves.
    The Fathers Counts Act of 1999 needs to support and 
cultivate marriageability with a fervor equal to its expressed 
commitment to support and cultivate marriage.
    Toward that goal, our program helps these men to establish 
legal paternity, learn their legal rights and responsibilities, 
and negotiate the formal child support system. Child support 
enforcement agencies, in turn, may modify child support orders 
to give fathers time to secure training and a job, then 
gradually increase the order to match the father's ability to 
pay. The Fathers Count Act speaks explicitly to this kind of 
proportional relief. The bill's expansion of the provision that 
would allow for true forgiveness of child support arrearages, 
where it is apparent that fathers are making a good faith 
effort to pay what they can afford, is another major move in 
the right direction. We welcome the legislation's recognition 
of the necessity of having a simple, straightforward 
methodology for addressing this issue, which presents a 
monumental roadblock for many good dead-broke dads. The low-
skilled labor market is unstable. Fathers (and mothers) are, 
therefore, at risk of losing their jobs, which would cause an 
interruption in the father's child support payments. We would 
suggest that the legislation include a provision to allow 
fathers, who rapidly seek a modification of their child support 
orders, when they become involuntarily unemployed, to qualify 
for some level of relief from arrearages. It should also 
require that applicant organizations have experience working in 
partnership with Child Support Enforcement at the national, 
state and local level. NPCL and its PFF grantees developed 
these relationships during the planning phase of the 
demonstration. Therefore, we believe that we are prepared to 
take advantage of the current language providing for relief 
from child support arrearages or of the expanded language, 
which suggested here.
    The Parent's Fair Share (PFS) Demonstration recently 
conducted by the Manpower Demonstration and Research 
Corporation, was able to achieve higher child support 
compliance rates for fathers in the treatment group, but the 
child support payments of fathers in the treatment group did 
not exceed those of fathers in the control group. This occurred 
because workforce development efforts in the PFS demonstration 
did not focus on wage growth. In line with the goal of 
promoting marriageability and increased child support, all PFF 
grantees are required to institute or provide access to 
intensive career and personal development-skills training in 
preparation for placement in family-sustaining, wage-growth 
jobs. We are talking about boot-camp-job-readiness programs. 
PFF grantees are also urged to perform long-term follow-up for 
clients to maximize the chances for job retention.
    The program has an excellent prognosis and we are preparing 
to expand to more cities and accept greater numbers of fathers. 
Evaluative reports suggest that young fathers are indeed 
becoming responsible workers, adept at mediating the 
relationship between themselves and the mothers of their 
children as well as good parents.
    Early research data show that PFF grantees are succeeding 
in training and job placement with a difficult population. Of 
567 participants enrolled in the Boston and New York Access 
Support and Advancement Partnership (ASAP) intensive job 
training programs for example, a total of 308 were placed in 
jobs after two years. The average salary of ASAP graduates in 
Boston was $22,308 and $20,301 in New York. In 1990, 61 percent 
of dead-broke dads had incomes below poverty level (about 
$6800) and 86 percent had personal incomes below the poverty 
level for a family of four (about $13,000).
    Unlike past publicly funded programs, PFF is concentrating 
on young, low-income, low-skilled men early enough to ensure 
that we can make a difference in the family outcome, before he 
drifts away from his responsibilities, or accrues large child 
support arrearages, or goes to jail multiple times, or 
disappears. This represents a new approach to anti-poverty, 
pro-family programs, one that we believe is most effective in 
promising the outcomes we seek. Any evaluation efforts mandated 
by the Fathers Count Act should focus on development of 
accurate documentation. This documentation can then provide a 
firm foundation for future evaluation efforts. This field is in 
an early stage of development and evaluation requirements need 
to recognize that by targeting specific programs as opposed to 
random assignment for evaluation of all programs on the ground.
    Finally, the Act should include a provision to provide 
support to organizations that have proven to be both effective 
in their outreach to fathers in fragile families (or fragile 
families) and effective in their attempts to educate the 
public, service provider community, policymakers and the target 
population itself about our objectives.
    It is imperative that any new or revised policy initiatives 
work towards supporting the above-mentioned efforts to assist 
fragile families in addition to educating young parents on the 
benefits of marriage. That's where the Fathers Counts Act of 
1999 can make a real difference. We need to shape guidelines 
that focus efforts where we can maximize results now that 
welfare reform has become operational. We need to intervene now 
and cut off the supply of children who require public 
assistance because their families are unable provide the basic 
needs. Research strongly suggests that the best way to ensure 
that children do not need public assistance is to ensure that 
their parents have the where withal to support their family. 
For many young, fathers, the heart is indeed willing but the 
ability is lacking. Multiple, flexible strategies will be 
necessary to address the challenges these men and their 
families face. Part of that response, we believe, is the 
Fathers Count Act of 1999 and Partners for Fragile Families.
[GRAPHIC] [TIFF OMITTED] T3641.001

[GRAPHIC] [TIFF OMITTED] T3641.002

      

                                <F-dash>


    Chairman Johnson of Connecticut. I thank the panel for 
their excellent input. The point you raised, Mr. Rector, about 
the importance of marriage is one that we have talked a lot 
about, and I don't think we would be here with this legislation 
if we didn't think it was important, and it is the first time 
that we have ever had in Federal law any effort to focus on 
marriage.
    I don't think we know a lot about how to teach about 
marriage. We do absolutely nothing in our high schools to talk 
about relationships, how men think, how women think, how you 
settle conflicts. I am very pleased that in most of the grammar 
schools in my district now they are now teaching mediation and 
dispute resolution in the third, fourth and fifth grade and the 
kids are solving their own disputes, and all that helps, but I 
don't see how in good conscience when we have methodically 
ignored our failure to provide the quality education we need in 
just personal development, child development, human development 
in our schools or colleges, we can disregard the, in a sense, 
catastrophe we face.
    It is true, we need to put better resources in to prevent 
this from happening, and I would be interested in talking with 
you about how you think we can do that. I have been very 
impressed with the pregnancy prevention program in my 
hometown--it does not qualify for the abstinence money but has 
100 percent abstinence success. Very few programs in America 
can claim that, and it is because they are real, and they are 
really talking about sex education and why you don't do sex and 
so on and so forth as well as relational things, school, 
mentoring, career opportunities. Really, it is very holistic, 
but you see it doesn't qualify because it isn't pure in a 
sense, and that is a problem.
    But I think when we see how many young men, when you look 
at those charts and see that, you know, 62 percent are 
attached, we have to strike now to say if you are attached, we 
will help you work and pay child support, we will help you 
learn how to manage money, we will help you learn how to relate 
to the mother of this child. We will also help you understand 
why marriage is a good thing, even though you have probably 
never seen a good model of a good marriage in your growing up 
years.
    So I don't want to give up the opportunity or the 
responsibility to do a better job toward fathers. In welfare 
reform too, we are telling these women you have abilities, and 
we are going to help you figure out what those are and get in 
the job force, and we really don't even teach them anything 
about either money management to speak of, parenting skills, 
some plans do, some don't, but notice, we talk about parenting 
skills. We don't talk about interparent skills.
    So we are really just coming to this realization that kids 
need two parents, and the parents need to know how to relate to 
the child, but they also need to know how to relate to each 
other, and I think the better job we do on that, the better 
groundwork we will lay for an understanding of marriage. It 
constantly amazes me that young married people do not 
understand and have no place to turn if they can't figure out 
how to resolve significant differences in their marriage, and 
these are stable kids and stable marriages.
    So I think we have such a long way to go in this area that 
I would hate to lose this opportunity to start.
    Mr. Rector. I think that we have a very long way to go 
because we basically have ignored this issue for so many years.
    Chairman Johnson of Connecticut. Right, we have.
    Mr. Rector. One of the problems with abstinence programs 
that most abstinence providers would recognize is that it is 
basically a negative message. It says don't do this, and then 
there is a kind of a blank spot after that.
    My vision is of marriage education which would be to go 
into young, at-risk women in high school and to explain to them 
exactly if you love the child that you are going to have, and 
most of these young women do love their children, these are the 
things that if you really love this child, the child that you 
are going to have, wait. If the best thing that you can 
possibly do for a child is not have it out of wedlock, find the 
right man, develop a marital commitment and then have that 
child. And these are the things, you know, the poverty rate 
will drop by 80 percent, crime rate drop, and all of those 
things which you on this Subcommittee understand, but to these 
young men and women, they have never heard that message at all, 
and they will say the most strange things like we believe in 
marriage but we don't have enough money or we don't have a 
proper church.
    I mean, there is just a huge, huge market there, if we were 
to go in and say this is what marriage, if you want to 
understand, if you are a young black person, you want to 
understand why there is black poverty, the main reason for 
black poverty is that you are not married, and this is the way 
you can fix it and set that goal for them long before that 
pregnancy occurs so that when the pregnancy occurs you have 
already sown the field, so to speak, that they understand that 
this is important.
    Chairman Johnson of Connecticut. I would certainly agree 
that that is true. I do think the whole emphasis on eliminating 
the marriage penalty reflects a certain amount of 
superficiality in our attitude toward what makes marriage worth 
it.
    Let me just move on because there are a couple of questions 
I want to ask. I will yield to Ben and then we will see how 
much time is left because we do have another panel.
    I did want to say, Dr. Johnson, since you have had so much 
experience in coordinating services at the local level, I hope 
you will look carefully at that, the effort we have made in the 
wording of this bill, because it is very important to me that 
we do build on what is there and not create another level or 
another group, and that is hard to do because the tendency has 
been the opposite.
    Mr. Jeffrey Johnson. I think you are right, Madam 
Chairperson. I think what we have been able to establish is a 
common vision with multiple missions and that we are all 
striving toward the same goal and that is to improve the 
quality of life for young people, and I have partners right 
here from child support from the State of Massachusetts as an 
example of a working partnership that has been conceived in the 
idea, in a planning process that we all kind of can live with, 
and we are a work in progress, but I think that the point that 
we can all work together toward the end of trying to create the 
conditions for child well-being is critical. I think the key is 
getting involved early. I think it is creating forums where 
people can dialog and to resolve conflict and to understand 
that there are going to have to be some changes in attitude, 
some changes in some cultural patterns, on the part of these 
organizations to really get at some of these issues. So I think 
that is a critical issue, and again, I just wish I had an 
opportunity to bring many of these communities before you so 
you can see that it really works.
    Chairman Johnson of Connecticut. Those of you who have had 
experience, and I invite all of you to do this, if you look at 
the wording--is there any way we can strengthen that 
collaboration, if there are any sort of things we should say 
you can't do so that we don't create another center of power 
and bureaucracy, I would be interested to know.
    Last, I would just want you to comment on this issue of the 
25 percent local match. I have a lot of reservation about using 
TANF moneys for matching because I believe that we are about to 
figure out the dimensions of the need for day care in TANF, and 
we have really not begun to address the mental health and 
substance abuse problems among the TANF population. So I don't 
want to really open up that money for something else. I want to 
incentivize the infusion of new money into the system, but I am 
open both in the percentage and the flexibility, whatever you 
want to comment in that regard.
    Ms. Turetsky. Well, the use of Federal funds, Madam 
Chairman, to match the fatherhood demonstration funds may not 
be appropriate. It may be appropriate to use the State's own 
maintenance of efforts funds and be able to count them both as 
maintenance of effort and draw down----
    Chairman Johnson of Connecticut. That is not new money.
    Ms. Turetsky. It is not new money, but it is a way both to 
fund these projects and solve the matching problems that Mr. 
Ballard brought up and to get significant State investment and 
interest in these projects, because if the States turn their 
backs on these projects, the community-based organizations 
cannot run the projects required by the legislation.
    Chairman Johnson of Connecticut. I see that, but Mr. Horn 
put it well in his testimony, community-wide. You know, talk 
about preferences, maybe we should have--I don't mind a little 
United Way money, but when I see that pregnancy prevention 
program I mentioned, Pathway Cinderos, I can't believe what 
they have done. They started a nonprofit business to help 
support themselves. I really want you to know I am not hot on 
reusing existing money in the system. So I can hear that you 
might have troubles. The other part of me wants to be sure 
little programs that are creative and that can fit together 
everybody in the community so they are using a lot of existing 
money, but that those guys won't find the barriers too high to 
apply is a problem.
    So I am interested in any thoughts you might have about 
this.
    Mr. Primus. I guess I would just share the following 
comment. I share your concerns about not using Federal dollars 
to match a Federal program. I think in general I very much 
agree with that principle, Madam Chairman, but in this case, it 
is such a small amount of moneys and I think what you are 
really doing, I mean there is enough money in the system 
between the welfare work grants, the TANF surpluses and the 
State surpluses, that the hundred million dollars here for this 
act I think should be thought of as dangling some Federal money 
so that you get some bureaucracies that normally don't like to 
talk to one another to come together and put a proposal 
together with a community-based organization. And as a sign of 
commitment to that project, they ought to, and I think your 
bill language suggests this, they ought to identify the TANF 
dollars and the welfare work dollars and state all the moneys 
along with this grant that they are hoping to get from the 
Federal Government so that you can see the totality of the 
projects, so that this is a catalyst to provide the incentive 
for these bureaucracies to talk to one another because that is 
what I think is crucial.
    Mr. Horn. If I could add something here. At the National 
Fatherhood Initiative, we have worked with hundreds if not 
thousands of local fatherhood programs. Let me describe the 
typical program to you because I think this match requirement 
will prove very difficult for them. Mostly, they are inner-city 
churches, and individual churches in the suburbs. They are also 
community-based organizations who have been operating for the 
last 2 or 3 years with no budget or very, very small budgets. 
The idea that they can come up with hard cash as a match 
requirement is going to be very difficult for a lot of these 
programs.
    I believe the great genius of this bill is that it will 
infuse into the fatherhood field much needed resources so that 
these little programs that are now operating on shoestring 
budgets, or no budget at all, will have the opportunity to 
increase their capacity by accessing grants of $5,000 or $6,000 
or $7,000. It would worry me if the recipients of these grants 
become instead traditional social service delivery systems 
because they can write good grants and are better able to meet 
the match requirements.
    That would worry me greatly because they are not the ones 
with the passion and the heart for this work. The people that 
have the passion and the heart for this work are the community-
based organizations who are working at this very moment with 
practically no money. I hope that this money will filter down 
to those folks because they are the ones that are in such need 
of it.
    Chairman Johnson of Connecticut. It would just even require 
coordination, and it is hard for those folks to actually work 
that out.
    Mr. Horn. Yes. I understand what you are saying.
    Chairman Johnson of Connecticut. We are on a clock here. So 
should we set aside some money that is governed by different 
rules? You don't have to answer this now. I think the national 
models are fine, and there are some others that could be these 
sort of collaborative projects, but somehow we have to make 
sure they are really sort of frontline. You know, the church of 
the north end of Hartford who actually knows the people and 
have got the contacts, you know, make sure they have that 
little money to do better.
    Mr. Horn. One of the ways that one does that is by front 
loading some technical assistance so that those organizations 
which that are out there doing fatherhood are not at a 
disadvantage because they don't have a staff of fifty or 
seventy people, and don't have a grant writing office. They may 
not have access to United Way funds or other sources of funds 
that could satisfy the match requirement.
    Chairman Johnson of Connecticut. We have another panel. I 
am going to yield to Ben. I know that you would all like to 
chime in. You can do that in the course of the next 48 hours 
particularly and then gradually thereafter.
    Mr. Cardin. Thank you, Madam Chair.
    Dr. Primus, I want to follow up on one of Chairman 
Johnson's inquiries but in a somewhat different way. The 
competitive grant funds will not be available until fiscal year 
2002 and then it is $36 million a year, and then the grants of 
national significance also is not available until fiscal year 
2002, and it is $3.7 million a year. I just would like to get 
your view as to whether we couldn't get this started earlier. 
It seems to me to wait--it is not a large sum of money. We are 
going to get the advantage of it and be able to leverage the 
other activities, particularly where there are larger sums of 
money. Isn't it possible to get this out earlier than fiscal 
year 2002? Can the mechanisms be put in place?
    Mr. Primus. I think they can be put in place and should be 
put in place, and I would argue that the award should be made 
on January 1, 2001, and all of the grant awards at that time. I 
mean, this is a small amount of money, and if the next 
administration, should it change, believes that these awards 
weren't entirely appropriate, then I think there is plenty of 
things to learn here, and the Subcommittee can come back and 
reauthorize another hundred million or something.
    So I think you should get these grants out as soon as 
possible. I think we have so much to learn, and also you have 
States sitting with surpluses right now. They have the money 
and the interest, I think the Subcommittee is leading the way, 
and you should capitalize on that.
    Mr. Cardin. I see most of you nodding your heads that you 
would like to see this money out earlier than that period. We 
will see if we can't work on that.
    I was interested in listening to all of your testimony. 
Some of you think we are too proscriptive. Others of you think 
we are not proscriptive enough, so I guess we did it right. I 
think we have got the right balance here. It is interesting. 
What we are trying to do, and we were talking a little bit 
during Chairman Johnson's questioning, is that we are trying to 
give incentive for activity, and there are other sources of 
funds available. We have other sources of Federal funs 
available through TANF and welfare to work.
    But we want to underscore the importance of fatherhood 
programs, and we want to provide maximum flexibility, as we did 
of course under the welfare reform proposals that we have had 
and we want to give the direction. So we were trying to balance 
that, and I see that to a certain degree all of you are happy 
and unhappy by that. So let me at least try, on a couple of the 
provisions in the suggested bill, get your views on it.
    One deals with promoting fatherhood. That is something that 
we all believe in--promoting marriage, something that we all 
agree on. It is clearly something we would like to see more in 
our society where children are parented. The question is, how 
do you do that in these programs? How do you balance this 
welfare of the child? We know that in some households, if we 
bring the mother and father together, there could be physical 
violence. On the other hand, we want to encourage skills to the 
father, particularly a noncustodial father that makes that type 
of conduct less likely. So how do you balance the goal that we 
have established in this bill and still carry out the 
underlining practicalities in our community and making sure 
that we are not creating a dangerous situation but encouraging 
marriage?
    Mr. Ballard. I have been doing this work for 22 years and 
largely in the inner city. I came from the same environment. I 
was a single father coming out of prison in 1959 when I 
couldn't even buy a job, but my heart changed for my son. 
Wanting to raise him myself caused me to go and adopt him and 
before I could get a full-time, good paying job making $18 a 
week we were never hungry, we were never homeless, but being, 
having the attitude that marriage was crucial, was important, I 
went back into the community. Now, that same spirit that I came 
out of prison with, a change of heart, change of mind, I now 
have instilled in programs around this country, and what we 
discovered is that in 1965, when integration came about and 
people moved out of the community, the good models, the good 
strong families, we began to see these families left behind 
coming apart.
    And so in order to answer that, we have taken the young 
married couples that I have demonstrated here today, and they 
go back into the community and not only do they model marriage, 
but they teach the importance of relationships, how do you 
raise a child in a loving, compassionate way without hitting 
the child and those kind of things, how do you support the mom. 
We have said to our fathers the best way to show your child 
that you love and respect him is to honor the child's mother, 
and so we have seen child abuse, we have seen domestic violence 
crash in those communities where we work.
    So they are segregated but the jobs and the decisions are 
not made by the residents. They are made by us up here, and so 
we must go into those communities with a good, young, loving 
married couple who live a risk-free lifestyle, no drugs, no 
alcohol, and they become the models we are looking for, and 
then they begin to work with these families door to door.
    I indicated earlier before you came in that we went to 
almost 7,000 homes since October 1, and we have placed in full-
time employment 402 individuals, good paying jobs who are 
taking care of their kids, and so I think we need to 
collaborate. In many cases, I find that collaboration still has 
the old system in place.
    Mr. Cardin. Mr. Ballard, I very much appreciate that 
response, and that is one of the reasons I think we cannot be 
more proscriptive on this issue, on this bill because what you 
have said makes a lot of sense, and there might be programs in 
other parts of the country that are going to be totally 
different than that that makes sense for that community, 
promoting marriage but not trying to tell us how we are going 
to get there. We all understand the underlining skills of self-
esteem and how to respect a child and how to respect a parent 
and how to have the skills to be part of the economic fiber of 
a family and to carry out your responsibilities, all will lead 
to marriage, but that to be so proscriptive as to it becomes 
very, very difficult, particularly from the Federal 
Government's point of view.
    One last comment, and then I know we do have another panel. 
We have other Members that are here. The same thing I see, I 
think it was Wendell who raised the concern on the passthrough 
issues on child support, whether we have done enough here. I 
would like to be much more direct about that, but it seems to 
me that the goal of encouraging or actually requiring that 
preferences be given to applicants who encourage or facilitate 
the payments of child support, that that allows for the use of 
passthroughs in order to get more child support collections 
because it is a proven tool. You know that if a father knows 
the money is going to the family, there is much more 
willingness to comply with child support.
    So I think it is covered in the legislation, not as well 
as, quite frankly, I would like to see it covered, and I hope 
that there will be creative applications coming in using this 
tool to help us in child support collections.
    If the gentleman wants to respond, very quickly, fine.
    Dr. Johnson.
    Mr. Jeffrey Johnson. I want to say, first of all, I do 
think it is important that child support passthroughs, the part 
that is in this bill works in the sense that I think it is a 
recognition that fathers want to know that their child support 
is going directly to their child. I talk to any number of 
fathers who say one of my problems with child support is that 
it goes into government hands and only a percentage goes to my 
child. I want my money to go to my child, and so I think that 
is critical.
    I think the other part of it is that another way of looking 
at this marriage promotion issue is working with these families 
and these moms and these dads and creating the conditions where 
they can talk about it and really begin to, for the first time, 
explore marriage as something very viable. I recall just last 
week I was with a couple from our Baltimore Partners of Fragile 
Families site. It was a couple who was turned off to the 
system. She qualified for TANF. The social worker told the 
father he shouldn't marry mom because they were going to be 
committing welfare fraud, and the program put in place in 
Baltimore allowed them to talk about it, allowed them to 
negotiate a relationship with the TANF office and the child 
support people, and I am happy to report to you, Mr. Cardin, 
that that couple got married all of 30 days ago, and it was 
because the conditions were created for them to talk about 
their relationship, talk about the responsibility to the child 
and to really begin to talk with other folks who had more 
positive views of marriage and had something to communicate to 
them, a way of thinking about it that they never had before, 
but they came to that conclusion themselves.
    Mr. Cardin. Thanks for bringing up the Baltimore 
connection. I always appreciate that.
    One last comment on the passthrough. I have talked to some 
noncustodial fathers who are paying child support arrearages, 
and it goes to the State, not to the family, and they sort of 
look at it as a tax. Now, you can argue it is not, but they 
look at it as a tax, and I know the Republican leadership is 
interested in reducing taxes, so this might be a very good way 
to do it.
    Chairman Johnson of Connecticut. Mr. Stark.
    Mr. Stark. Thank you, Madam Chairman. I must say I have 
mixed emotions about this bill. My suspicion, my instinct is 
that it is an area in which we probably should not be 
legislating. We have done some horrendous things. I take this 
on a bipartisan basis. We created a system many years ago when 
we emasculated most young men in poverty, forcing them to leave 
home, be able to support their kids, and they were mostly not 
able to avail themselves of whatever psychological or 
psychiatric counselling they might need to make them think 
that, but that was because of a bill we created that you said 
you don't get AFDC if the pop is at home.
    And I just think I have watched in the past when some of us 
entered into this area of seeing the change in the birth 
control, which led people to be sexually more active. We didn't 
have much of this problem in the thirties and forties. I know 
my colleagues on the dais don't remember that, but we didn't, 
largely because there was this huge fear of sexual relations 
due to the possibility of pregnancy.
    And then you are apt to get into the definition of 
marriage, and I don't think you want to do that, as my 
colleague has suggested here earlier. We get this on the floor, 
and you are going to have every whacko who disagrees with your 
concept--I have a coven of witches in my district, literally, 
of which I am an honorary warlock, and they had a case in the 
issue of whether they could as a religious organization get 
funds under an educational voucher, and you get into these 
kinds of issues. You don't want to get into that and you may.
    And all I am suggesting, I think Wendell brings up the area 
of strengthening the families. In California, it is easier to 
get married than to get a driver's license, buy a case of beer 
or buy a handgun, and it is easier to get divorced than it is 
to find your way through a coin-operated car wash and almost as 
fast. So I mean, do you just want people to sign up some place, 
at the local lottery sales counter and say we are married? Do 
you want them to go to these guys who are handing out 
ministerial certificates in the Central Valley of California--
you can get them over the Internet now--and become a preacher 
and marry people in the State?
    And I am just suggesting that the underlying basis of 
strengthening our commitment to one another as humans and to 
our children is wonderful, but I just am nervous, Madam Chair, 
about the idea of our defining faith and marriage. The Federal 
Government gets awfully ham-handed when we do that, and I would 
just hope we could find a way to fund--I don't mind funding 
faith-based organizations. Let us let the matching funds, I 
understand it is legal for sweat equity, so you hustle up a 
bunch of volunteers. I understand Wade Horn is going to apply 
for this. He is going to contribute his entire salary to this 
when he gets his grant, and that ought to go to the matching 
funds. Maybe you will get Wendell to contribute a little free 
consulting, and we could add that in it. There is no end to how 
this could go and how we could help.
    We get families, what was that, Wendell, where we tried to 
coordinate social services, the Family Preservation Act, and 
this smacks of an attempt to do that, but I would hope that all 
the people here I know are well-intended, but I am afraid that 
the devil will arise in the details here and that what comes as 
a well-intended move might--maybe it is just the current 
atmosphere here and I say that again on a bipartisan basis--
that this might not be the climate for us to get into the issue 
of defining marriage, of suggesting whether we can support 
faith-based organizations with Federal dollars. Those become 
very hot button issues in this climate, and they have got to be 
either finessed or addressed.
    And I think your intentions are marvelous and I would like 
to help, and I hate to be the skunk at the picnic, but I have 
this sort of reservation, and I know the Chairlady will be able 
the resolve all my concerns.
    Chairman Johnson of Connecticut. I would just point out 
that the language in terms of faith-based organizations is the 
same that we used in welfare reform. So we aren't actually 
breaking new ground on that.
    Mr. Stark. I didn't like the welfare reform bill.
    Chairman Johnson of Connecticut. It was a lot better than 
it started out being.
    I do want to make one closing comment before we go to the 
other panel. I must say I had an opponent who used to say 
``same old, same old,'' so I know the sting of that comment, 
but there is also a problem with how do you get beyond the 
past. So I would very much oppose all these grants being out by 
January 1. I think we will get ``same old, same old.'' We will 
get the good grant writers. We will get the parts of the 
country where we already have the best coordination doing the 
best grants. So I tell you, my mind is really way out on this 
grant stuff. So you should consider this wide open.
    I am not even sure we shouldn't take some portion of the 
money and let the cities as entities compete for this and show 
that they have neighborhood groups who can show you that in 
this part of town, if we get all these churches together and 
then there is this landlord who has this job training, we have 
day care, I think we have to think outside the box on some of 
this money because the most creative initiatives on fatherhood 
have come from outside the system because the system doesn't 
think about this. So I don't want it to be just system grants.
    Mr. Cardin. Would the gentlewoman yield just on that point, 
because we share the common desire to think out of the box, and 
quite frankly, I have been impressed by what I have seen in my 
own State of Maryland, some very creative programs, some of 
which were locally initiated, some of which used Federal funds 
in order to move forward, and it has been in the area of 
fatherhood and other areas that we have been extremely 
successful, so much so that some of the Federal agencies have 
actually come to Maryland to learn how we have done things in 
parts of my State.
    I guess my concern is, and the reason I asked the question 
on the timing of the grants, is that as currently drafted, 
there could be no money, no grants on the first issued until 
October 1, 2001, and my concern is that people might and 
organizations may think that is so far off they might not take 
this seriously, and it isn't a lot of money. So I want to get 
people thinking today.
    Wendell's point about January 1, that is over a year from 
now. That is certainly a lot of time for organizations to get 
their thoughts together and to come forward. It is going to be 
extremely competitive with the amount of dollars that are 
available here. We know we are going to get many more 
applications than we are going to be able to finance. So I 
think we are going to, and the mechanism to be put in the bill 
to evaluate it, I think we are going to get a lot of interest 
in these funds, and I would just like to get it started as 
early as possible.
    I thank the gentlelady for yielding.
    Mr. Primus. Can I make one last comment in response to what 
all three of you have said? I think you ought to look upon this 
process, even if an organization doesn't get a grant but you 
have had at the State level Charles Ballard or Jeffrey 
Johnson's group and the child support people and the welfare-
to-work people sit down and say we can do a better job by State 
policies, and even if that grant is rejected, there is enough 
money in the system now so that the State could use that and 
move forward.
    So I think that is another reason I would argue that you 
ought to move forward and that this bill could be, again, a 
very good catalyst for initiating these policy discussions.
    I guess I would say to Congressman Stark, the way I would 
think about this bill, and there is plenty of ethnographic 
research that says marriage isn't on the horizon here among 
mothers in inner cities. I mean, that is not on the radar 
screen, and I think promoting marriage, that if we get dads 
employed and get them less engaged in deviant behavior and 
better parents, that is also promoting marriage, and in my 
world, you know, I think that may be the most effective way.
    So I see this bill and the reason I think it is still a 
little too proscriptive on the 75 percent, I think every grant 
should have fatherhood services, and it should be provided by a 
community-based organization. I see the primary problem as a 
lack of coordination between child support and welfare to work, 
and even though the bill says there has got to be coordination, 
that unless they are heavily involved and maybe the grant goes 
to the State government or local government and then to the 
fatherhood group, I just don't think you are going to get the 
collaboration and the policy change to affect noncustodial 
parents and get them more involved in the lives of their 
children.
    Mr. Horn. Thirty seconds, please. Wendell just said 
something which I think is wrong. What he said was that there 
is plenty of evidence that in low-income communities, marriage 
is not on the radar screen. But data from the fragile families 
initiative clearly shows that at the point where the child is 
born to an unwed mother, 80 percent of the couples are 
romantically involved with each other, and when asked the 
question what is the likelihood you are going to get married, 
two-thirds say certain, near certain or fifty-fifty. Fifty-two 
percent say either certain or near certain. Marriage is on 
their radar screen.
    What we need to do is to support their desire to get 
married, not by saying get thee to the altar and get married, 
but rather to talk with them, find out what challenges they 
face, what are the obstacles to marriage, and then move these 
couples, where you can, closer to marriage, hopefully to 
marriage. But the idea that somehow marriage is not on their 
radar screen, at the least at the point when the child is born, 
that is incorrect.
    Chairman Johnson of Connecticut. That is certainly what has 
been driving us.
    Ms. Turetsky.
    Ms. Turetsky. Thank you. I think we are all interested in 
getting the traditional social services agencies, both private 
and public, to think out of the box, and the way to get 
community-based organizations and governmental agencies alike 
to think out of the box is, first of all, to encourage and 
require multiorganizational collaboration. That has been done 
in the domestic violence area where the Federal grant terms 
required the grantee to go out and prove that they had good 
collaborations going, not just paper collaborations, but real 
ones. That forced people to come to the table and really kick 
around some ideas.
    The second way to get the organizations to think out of the 
box is to increase the flexibility around project ideas and not 
be overly prescriptive about what a project can or cannot do, 
but instead, put the focus on well designed, 
multiorganizational collaborations that really look like they 
have got the possibility of helping and of changing the 
environment.
    Chairman Johnson of Connecticut. Thank you very much. We 
really do have to move on to the other panel in fairness. Thank 
you for your thoughts, and we look forward to working with you 
as we refine this legislation.
    If we could start as soon as you can get seated. We will 
start with Kathleen Kerr. Next panel, please. If we could 
please have the next panel, promptly. I am afraid we are going 
to get into voting again and won't have the same conversation 
with this panel that we did with the preceding one.
    Kathleen Kerr, the Vice President of Operations for 
Supportkids.com, from Austin, Texas. Welcome.

       STATEMENT OF KATHLEEN KERR, J.D., VICE PRESIDENT, 
                 SUPPORTKIDS.COM, AUSTIN, TEXAS

    Ms. Kerr. Thank you, Chairwoman Johnson, Representative 
Cardin and other distinguished Subcommittee Members. I am 
Kathleen Kerr, vice president of Supportkids.com, a private 
child support enforcement organization.
    I feel uniquely qualified to offer testimony on how to 
enhance the Nation's child support program. Until just 6 weeks 
ago, I was the IV-D director for the State of New Hampshire, a 
position I held for 2\1/2\ years. Twelve years ago, my first 
day on the job as a staff attorney, I was shown a wall full of 
file cabinets that contained my cases and then was told the 
entire state was my jurisdiction. It did not take me long to 
figure out that this was a system that needed change.
    Today, New Hampshire is recognized as a top program, and 
yet we still collect in only one out of three cases. 
Consequently, there were thousands of complaints, and sadly, 
when I read those files, it was readily apparent to me that 
with enough personnel we could have helped many of these 
families. The reality is we didn't have the personnel, and we 
never would.
    Today, we are offering a solution to this problem that is 
possible when you consider the significant and powerful tools 
authorized by you, the Congress, through the PRWORA, Personal 
Responsibility and Work Opportunity Reconciliation Act. With 
the success of this legislation, it is important not to forget 
that one-third of all child support cases in the country are 
not even part of the Title IV-D program and, therefore, did not 
benefit from significant and important provisions of PRWORA. I 
urge you to take the next step and let all families benefit 
from your efforts in passing PRWORA by expanding access to some 
of those PRWORA provisions.
    Forty agencies have done an admirable job in meeting a 
diverse set of expectations with significant limitations. 
Reality sets in, however, when you hear that more than 15 
million children receive not one penny of child support and no 
collection was received in four out of five cases.
    State IV-D agencies would clearly benefit from local 
government programs in the private sector working together on 
behalf of these children. The benefits will be significant if 
everyone who wants to work on behalf of children have all of 
the tools that exist available. By doing this, we will support 
an effective collaboration of the Title IV-D program with 
public and private enforcement entities and a concerted attack 
upon the problem of nonsupport.
    My vision is the creation of an enforcement partnership. I 
want to be very clear, I am not talking about the privatization 
of the IV-D program. Instead, what we would create is a true 
partnership of the IV-D program with public and private child 
support enforcement entities sharing the work and sharing the 
tools. This would be a partnership to complement the program, 
not supplant it.
    The limited proposal that I urge you to adopt today has 
just three major provisions which are set out in the written 
testimony of Judy Fink, who you will hear from shortly. Number 
one, the use of IRS and passport revocation procedures for 
public non-IV-D agencies. Second, authorizing the attachment of 
unemployment compensation benefits in both non-IV-D and IV-D 
cases, just like we do all wage withholding for all employers. 
And finally, requiring that IV-D programs honor any request for 
an address change received from someone like a child support 
mother, Susan Williams.
    Please note that this limited proposal avoids significant 
privacy concerns as there is no request in this limited 
proposal for information. In the future, as we look toward a 
full partnership, it would be important to build sufficient 
protections in to avoid the misuse of information. I urge you 
to consider adding this limited proposal to your Fathers Count 
bill. We cannot rest on the successes to date. There are too 
many Susan Williams still waiting for their child support.
    Thank you, and for the remainder of my time, I would like 
to turn to Susan Williams, who is a child support mother.
    [The prepared statement follows:]

Statement of Kathleen Kerr, J.D., Vice President, Supportkids.com, 
Austin, Texas

    Chairwoman Johnson, Representative Cardin, and other 
distinguished Subcommittee members, I am Kathleen Kerr, Vice 
President of Supportkids.com, the nation's largest private 
child support enforcement organization helping custodial 
parents collect unpaid child support. I appreciate the 
opportunity to testify today about ways in which Congress can 
enhance the nation's child support enforcement program through 
greater involvement by ``non IV-D'' public and private child 
support enforcement agencies.
    I feel uniquely qualified to offer testimony on this 
subject. Until just six weeks ago, I was the Title IV-D 
Director for the State of New Hampshire, a position I held for 
two and half years. Prior to that, I was an attorney with the 
New Hampshire program for ten years. I am also a member and 
officer of the National Child Support Enforcement Association 
(NCSEA).
    I am testifying today to urge you and your colleagues in 
Congress to pass legislation that will provide custodial 
parents more effective options for collecting the unpaid child 
support owed them.
    My first day on the job 12 years ago as a staff attorney 
for the New Hampshire child support enforcement program, I was 
shown a wall full of file cabinets. I was told that these files 
contained my cases and, furthermore, that that the entire state 
was my jurisdiction! It did not take me long to figure out that 
this was a system badly in need of change. Today, with the help 
of laws passed by Congress, the New Hampshire child support 
enforcement program is recognized as one of the best in the 
country, and yet we are still able to collect in only one out 
of every 3 cases. Each time a constituent complaint from a 
legislator was brought to my attention, my reaction was 
visceral. The reality of our situation was apparent to me 
almost immediately: with adequate resources we could have 
helped these clients. But we didn't have adequate resources--
and the consequences for these families whose enforcement needs 
were not fully met were severe.
    The situation in New Hampshire is, of course, not unique. 
Nationally, a child support collection is made in only one out 
of every five cases in the IV-D caseload. Despite significant 
and powerful tools authorized by Congress--including, most 
recently, those contained in the 1996 Welfare Reform Act--Title 
IV-D agencies simply cannot adequately and timely serve all the 
millions of custodial parents needing enforcement services. 
Absent increases in federal and state funding, the IV-D program 
will continue to collect on only a small percentage of its 
child support enforcement caseload.
    While I wholeheartedly support the need for additional 
funding for the IV-D program--and have been outspoken about my 
position in that regard--I understand the fiscal realities 
facing Congress and state legislatures. Difficult decisions 
must be made in allocating limited government dollars among the 
many worthwhile programs competing for those funds.
    Fortunately, there are steps that Congress can take 
immediately to help more custodial parents receive effective 
child support enforcement services. Best of all, these steps 
will not cost the federal government a significant amount of 
money--if any. Indeed, they could end up saving federal and 
state tax dollars.
    As a former IV-D program director--and someone committed to 
the success of the IV-D program--I urge this subcommittee, and 
the Congress, to support legislation to allow more extensive 
sharing of some of the most effective child support enforcement 
tools that Congress has created in recent years. Specifically, 
I am urging that the use of certain enforcement tools currently 
available only to IV-D agencies be extended to non-IV-D 
government child support enforcement agencies, operated by 
counties and courts, and to responsible private attorneys 
representing clients attempting to obtain their child support. 
These non-IV-D governmental child support enforcement agencies 
operate without federal and state IV-D funds. Instead, they 
rely on county funds, court fees, private grants and other 
revenue sources. Private firms--such as Supportkids.com--
provide enforcement services without using any government 
funds.
    The IV-D program does not--and should not--constitute the 
only child support enforcement enterprise in the country. There 
is a great wealth of enforcement resources outside the IV-D 
program in the form of public, locally funded enforcement 
agencies and private enforcement entities that use attorneys. 
But regrettably we have not yet brought those non-IV-D 
resources fully into our national child support enforcement 
efforts. Public and private non-IV-D child support enforcement 
organizations can significantly augment the IV-D child support 
enforcement program, without added federal and state IV-D 
program costs. The intent of the legislation I am urging you to 
adopt is not to supplant the IV-D program--or even to change 
its scope or responsibilities in any way. The intent of this 
legislation is to provide custodial parents child support 
enforcement options if the government program is unable to help 
them fully and effectively.
    Many custodial parents know that, because of its caseload 
size, the state IV-D agency cannot always offer personalized 
attention. These parents should have a choice of child support 
enforcement services outside the IV-D program. To provide 
families with a true choice of enforcement services, tools now 
limited to use in the IV-D program need to be extended to other 
public enforcement agencies and to members of the private bar. 
The IV-D program, public non-IV-D enforcement agencies, and the 
private entities enforcing support are, after all, committed to 
a common purpose and goal--getting support to the families owed 
and urgently needing that support. Everything should be done to 
facilitate the implementation of that purpose and the 
attainment of that goal.
    The collaboration of the state IV-D agency with local, non-
IV-D government programs and private enforcement entities could 
clearly have a major impact upon the child support problem. 
This impact can occur only if the locally funded government 
entities and private enforcement agencies have both the tools 
they need to be as productive as possible and the cooperation 
of state IV-D agencies in the enforcement effort. What is 
needed is the effective collaboration of the Title IV-D program 
with public and private enforcement entities in a concerted 
attack upon the problem of nonsupport--an enforcement 
partnership.
    It is important to stress that, in urging the involvement 
of the private sector in the enforcement partnership, I am not 
talking in this particular context about the privatization of 
the IV-D program or about contracts between private sector 
entities and the state IV-D agency. Those are issues completely 
apart from my proposal today. Instead, what I have in mind is a 
true partnership of the IV-D program with public and private 
child support enforcement entities--sharing the work and 
sharing the tools--without, however, having to enter into 
contracts. This is a partnership to supplement, not supplant 
the Title IV-D program. I cannot stress this too greatly. The 
government child support enforcement program is indispensable--
but, in spite of the dedicated efforts of its staff members, it 
is not able to serve fully and effectively every family needing 
enforcement services. Non-IV-D public and private enforcement 
entities could be invaluable partners with the IV-D program if 
they could share the use of all the tools Congress has 
authorized.
    Congress has already started down the road in extending to 
public and private non-IV-D organizations access to highly 
effective child support enforcement tools. For example, nearly 
15 years ago, Congress provided for ``universal'' wage 
withholding in the collection of child support. As a result, 
this enforcement tool may be used in all child support cases--
both IV-D and non-IV-D. This means that my own company, 
Supportkids.com, is able to use wage withholding to help 
custodial parents receive the child support owed them. Without 
the use of this tool, the effectiveness of our enforcement 
efforts on behalf of these parents and their families would be 
greatly reduced.
    Unfortunately, however, not all child support enforcement 
remedies authorized by Congress are available beyond the IV-D 
program. I believe that this has occurred not so much by design 
or intention, but simply by omission. This has led to the 
frustration and anger of custodial parents--which I have often 
witnessed--who are forced to use the services of an already 
overworked state IV-D agency in order to have access to all the 
enforcement remedies Congress has provided and their tax 
dollars have paid for. It simply does not make sense to them 
that they have to wait month after month--sometimes year after 
year--to receive support collections which they might more 
expeditiously receive through the services of non-IV-D 
enforcement entities, if those entities also had use of all the 
tools Congress has authorized. Congress is to be commended for 
taking bold steps towards the improvement of child support 
enforcement. This proposal is just the next step in the 
continuum of significant improvements to the child support 
program begun with the passage of the 1996 Personal 
Responsibility and Work Opportunity Act (PRWORA).

                    Unemployment Insurance Benefits

    Although Congress made wage withholding available for child 
support enforcement in both IV-D and non-IV-D cases, it failed 
to extend withholding from unemployment compensation except in 
cases enforced by IV-D program. There was no logical reason for 
omitting this remedy for use by non-IV-D enforcement agencies 
and may even have been an error in drafting. The consequence, 
however, is significant and leaves some custodial parents with 
no option other than a IV-D agency that may not get to their 
case for months or even years.
    To illustrate this point, suppose a custodial parent 
decides to use Supportkids.com for assistance in collecting 
past-due child support. Our company locates the non-paying 
parent, finds out that he is employed and serves the non-paying 
parent's employer with a court order for income withholding. 
Child support payments from the wage withholding now start 
coming in for our client. Now, suppose the non-paying parent 
quits his job and goes on unemployment compensation. Although 
federal law permits withholding on unemployment compensation, 
it does so only when it is a IV-D case. That means 
Supportkids.com can no longer help our client in this 
situation.
    This loophole--and others like it in federal law--needs to 
be corrected. In this illustration, federal law should provide 
that the state employment security agency honor the withholding 
order on unemployment compensation (just as every employer must 
honor a withholding order for wages), regardless of whether it 
is a IV-D or non-IV-D case. This relatively simple change in 
federal law would comport with the change Congress made under 
the 1996 Welfare Reform Act in redefining ``wage withholding'' 
as ``income withholding'' to include any form of periodic 
payment made to non-custodial parent, regardless of source.

                          Passport Revocation

    Similarly, Congress in the 1996 Welfare Reform Act required 
all states to have laws to provide for denial or suspension of 
various kinds of licenses--including professional and driver's 
licenses--for individuals who ignore their child support 
obligations. The federal statute was written in a manner making 
this legal enforcement remedy available in all cases, not just 
those being enforced by a state IV-D agency. As a result, non-
IV-D public child support agencies and private attorneys can 
pursue this remedy by seeking a court order.
    The 1996 Act also required state Title IV-D agencies to 
implement procedures for reporting to the Secretary of Health 
and Human Services the names of non-custodial parents who owed 
past-due support amounting to $5,000 or more for the purpose of 
denying or revoking a passport. As written, however, the law 
[42 U.S.C. 652(k); 654(31)] appears to restrict access to this 
highly valuable tool to the state Title IV-D agency alone, with 
no opportunity for its use in a non-Title IV-D case. Federal 
law should be amended so that, with appropriate due process and 
other safeguards, this remedy may be used to compel any 
delinquent non-custodial parent to pay support arrears 
amounting to $5,000 or more, regardless of whether the case is 
being enforced by the state IV-D agency.

                         Legislative Proposals

    Last year, following congressional testimony similar to 
what is being presented here today, Senator Kay Bailey 
Hutchison introduced legislation that would open up access to 
federal child support enforcement tools. This legislation would 
offer custodial parents some effective options for obtaining 
enforcement assistance. She is preparing similar legislation 
for introduction again in the current Congress.
    There is also another legislative draft that has been 
provided to the Human Resources Subcommittee staff, which 
focuses on just a few of the issues contained in Senator 
Hutchison's more sweeping proposal. I respectfully urge this 
subcommittee to include this legislative proposal as an 
amendment to any child support related legislation being 
considered this year by the subcommittee. The more limited 
version of the Hutchison proposal has four major points. It 
would provide public non-IV-D agencies with the ability, as IV-
D agencies have, to request that the U.S. Department of the 
Treasury intercept personal income tax refunds for payment of 
child support arrears. It would enable these public non-IV-D 
agencies to request that the U.S. Secretary of State impose 
passport sanctions for unpaid child support amounting to $5,000 
or more. It would make unemployment compensation benefits 
attachable in both non IV-D and IV-D cases. Finally, it would 
require state child support disbursement units and IV-D 
programs to honor a custodial parent's request for change of 
address in the process of support collections.
    If Senator Hutchison's legislation is enacted, or if this 
subcommittee will incorporate the proposed amendment into child 
support legislation being considered now by this subcommittee, 
custodial parents in Broward County, Florida and the millions 
of Susan Williams' throughout the United States will be the 
beneficiaries of the enhanced enforcement services that non-IV-
D public and private child support enforcement entities would 
be able to provide them.
    Each day, the amount of unpaid child support in this 
country increases. Currently, more than 40 billion dollars in 
past due child support remain uncollected in the national IV-D 
program.\1\ With the passage of this legislation, local 
governmental and private enforcement agencies would be able to 
provide custodial parents with all the remedies Congress has 
provided for the enforcement of child support. To the extent 
that enforcement tools available to the Title IV-D program are 
not also available to other public and private enforcement 
entities, they are being underutilized, and non-IV-D entities 
are limited in their ability to contribute fully to the 
national child support enforcement effort.
---------------------------------------------------------------------------
    \1\ All IV-D program data cited in this testimony are taken from 
the Preliminary Child Support Enforcement FY 1998 Report, Office of 
Child Support Enforcement, Washington D.C., August 29, 1997 and the 
22nd Annual OCSE Report to Congress.
---------------------------------------------------------------------------
    As we move into the new century, we need new strategies and 
a new vision of possibilities--which fully embrace the 
realities of limited resources--in order to ensure that the 
millions of families in this country owed child support receive 
that support fully and in a timely manner. Therefore, I 
respectfully urge Congress to enact the legislative proposal to 
which I have referred. Without additional cost to the taxpayer, 
the implementation of this legislation can, I believe, make a 
significant difference in our efforts to provide all families 
with options and to secure the well being of millions of our 
children.
    Thank you.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Ms. Williams, welcome.

STATEMENT OF SUSAN B. WILLIAMS, CHILD SUPPORT MOTHER, CYPRESS, 
                             TEXAS

    Ms. Williams. Madam Chair, distinguished Members of the 
Subcommittee, thank you for the opportunity to testify today on 
the importance of enforcement options for custodial parents who 
need help in collecting past due child support. I was and am 
one of those custodial parents. I worked with an attorney, I 
tried to help myself and I pursued my case with my State agency 
before finally getting help from a private child support 
enforcement company.
    My name is Susan Williams. I am a first grade teacher from 
Cypress, Texas, which is a suburb of Houston. My former husband 
left home when our daughter Jennifer, who is now a sophomore in 
high school, was seven. A month after we divorced in 1992 my 
former husband quit his job and left the State of Texas. After 
the divorce, Jennifer's father moved from State to State and 
job to job. He would accept a signing bonus, begin a new job in 
computer programming and stay until there was pressure on him 
from me or someone else, then he would quit and move on.
    I could have hired an attorney again, but it is expensive 
and since they work on retainer, you have to pay them before 
the work is done. So I opened a case with my State child 
support enforcement office. They made it clear that they could 
make no promises of being able to help. Because my case was an 
interstate case, it was especially difficult to pursue. The 
State agency was able to help me in a single instance when they 
intercepted my former husband's income tax return and turned it 
over to me. After I got the IRS check I never heard another 
word from the government.
    I was constantly anxious, working and worrying about money 
and the effects of all this on my daughter, when I heard about 
a private child support enforcement company that was based in 
Texas, Supportkids.com. A friend mentioned the company to me at 
a baby shower we were both attending. I contacted 
Supportkids.com in 1997 and decided to fill out an application 
and authorize them to pursue my case. It was a hard decision to 
make, but when I finally decided that one parent shouldn't have 
to do the work of two, I put the application in the mail.
    Supportkids.com found my former husband and got payments 
started. Eventually, Supportkids.com negotiated a lump sum 
payment of the past due amount. My former husband borrowed the 
money from his parents and paid almost $16,000 to me and my 
daughter. This concluded my contract with the company. However, 
when the payments later stopped coming again, the company 
reopened my case, tracked him down and got the monthly checks 
coming in again. They had the focus and the tenacity to stay 
with it.
    I would advise other custodial parents not to hesitate to 
work with a good private company. They have the resources and 
the time to really pursue cases. They do take a percentage of 
what they collect on your behalf, but they earn it. I would 
urge Congress to change Federal law so that private attorneys, 
including those working with firms like Supportkids.com, will 
have access to all enforcement tools that have already been 
made available to the State's child support enforcement 
agencies.
    [The prepared statement follows:]

Statement of Susan B. Williams, Child Support Mother, Cypress, Texas

    Mr. Chairman, distinguished members of the Subcommittee: 
thank you for the opportunity to testify today on the 
importance of enforcement options for custodial parents who 
need help in collecting past-due child support. I was, and am, 
one of those custodial parents. I worked with an attorney, 
tried to help myself, and pursued my case with my state agency 
before finally getting help from a private child support 
enforcement company.
    My name is Susan Williams. I am a kindergarten teacher from 
Cypress, Texas, which is a suburb of Houston. My former 
husband, who I met in college, and married after we'd both 
graduated, left when our daughter, Jennifer, was seven. She is 
now a sophomore in high school.
    My former husband's decision to leave the marriage caused 
me a lot of pain and grief, as you might expect in a situation 
like that. It never occurred to me that he would also be 
leaving Jennifer, however. He had always been a good father to 
her, and while I came to accept that our relationship could 
end, I never expected him to walk away from her, too.
    And yet, a month after we divorced in 1992, he quit his job 
and left the state of Texas. Although I began teaching in 1980, 
it was in a private setting, and after my divorce, I made plans 
to work full-time in the public school system. Switching to the 
public sector meant that I was essentially starting over in 
terms of building my seniority. The news of my former husband's 
disappearance filled me with anxiety and concern.
    The terms of my divorce seemed Ok at the time, but as my 
attorney pointed out, it's one thing to look good on paper, and 
another to enforce the court order. You've probably heard the 
stories of other parents whose experiences are similar to mine.
    After the divorce, Jennifer's father moved from state to 
state, and job to job. He's a conservative and professional 
looking person, a quiet man who sells himself well. He would 
accept a signing bonus, begin a new job in computer programming 
and stay until there was pressure put on him, from me or from 
anyone else. Then he'd quit and move on.
    You can hire an attorney, but it's expensive and since they 
work on retainer, you have to pay them before they will work on 
your case. So I made an appointment to open a case with my 
state's child support enforcement office, and arrived that day 
to take a seat in a very small waiting room. I waited for some 
time, until I was shepherded into a conference room with 
several other women for a backgrounding session, and became a 
number, right before my own eyes. They were very clear that 
they could make no promises of being able to help. Because my 
case was an interstate case, with Jennifer and I living in a 
different state from her father, it would be more difficult to 
pursue. I was not optimistic that I would get help.
    I felt totally alone. I learned then, and it's still true 
today, that child support is a hard topic to discuss with other 
people. The state agency was able to help me in a single 
instance, when they intercepted my former husband's income tax 
return and turned it over to me. After I got the IRS check I 
never heard another word from the government. It was as though 
they had filed away my information forever. I could only keep 
leaving messages.
    During this time, I actually got fairly good at personally 
delivering the wage withholding information to my former 
husband's employers. When I knew where he was working, once 
he'd returned to Texas, I would drive down to the courthouse, 
and for $15 I would file the paperwork requesting that the new 
employer set up wage withholding. I did this four or five 
times. And no employer failed to cooperate. But I could expect 
an angry phone call from him, and once it came, he would 
eventually quit the job. There was also a two year period when 
I had no idea where he was.
    I was in constant anxiety mode, working and worrying about 
money and the effects of all this on my daughter, when I heard 
about a private child support enforcement company that was 
based in Texas--Supportkids.com. A friend mentioned the company 
to me at a baby shower we were both attending. I contacted 
Supportkids.com in 1997 and decided to fill out an application 
and authorize them to pursue my case. It was a hard decision to 
make, and I really agonized over it. I knew that I met the 
criteria that Supportkids.com looks for in a new client: I 
wasn't on welfare, I had a court order for support, and I was 
owed over $5000. But I still went back and forth over 
confronting the situation so directly. When I finally decided 
that one parent shouldn't have to do the work of two, I put the 
application in the mailbox.
    The minute I signed up with Supportkids.com I felt a huge 
sense of relief. It was almost instantaneous. I felt like I had 
some control again, after years of feeling alone and like I was 
only able to react.
    And they found my former husband, and got payments started. 
So even though I was still getting angry phone calls, I knew I 
could rely on them to keep things on an even keel--that they 
had the resources to pursue my daughter's child support. 
Eventually Supportkids.com negotiated a lump sum payment of the 
past-due amount. My former husband borrowed the money from his 
parents and paid almost $16,000 to me and my daughter.
    This concluded my contract with the company. However, when 
the payments later stopped coming again, the company reopened 
my case even before I had accrued $5000, tracked him down, and 
got the monthly checks coming in again. They had the focus and 
the tenacity to stay with it.
    I can't even describe to you how this felt. I know that at 
some level, I will never feel totally safe about this. I will 
always be wondering how far I can trust that these resources 
will continue coming for my daughter. Will that fear ever go 
away? Probably not.
    But I have regained a certain amount of my self-esteem. I 
asserted myself and I persevered throughout this roller coaster 
ride. I couldn't give up, even though there were times before I 
got to Supportkids where I didn't think I could do it anymore. 
I've gained a lot of courage, and I've sent a good message to 
my child.
    I am thankful that I have a job. Even though I lost the 
house as a result of his not paying, I am proud that I have 
been able to provide stability for Jennifer. We've only moved 
once in seven years, and she was able to stay in the same 
schools. As a teacher, I see the impact of uprooting on kids 
all the time. It affects them long-term. I have tried to help 
my daughter build relationships where she can talk about her 
dad, apart from me, and the struggle we've been through. My 
fear is that she might seek out a father figure in a mate.
    I would advise other custodial parents not to hesitate to 
work with a private company or a private attorney, once they've 
done their homework and know it's a reputable firm. A good 
private company like Supportkids.com has the resources and the 
time to really pursue cases. They do take a percentage of what 
they collect on your behalf, but they earn it. Parents have 
always had the choice of working with a private attorney, but 
we need to be able to choose to work with a private company 
that uses attorneys if that is a better solution financially 
for our families. Everyday people just don't have the tools to 
pursue missing parents on their own.
    In closing, I'm also happy to say that several months ago, 
Jennifer's dad wrote her a letter apologizing for his behavior. 
The three of us were able to meet for lunch eventually, and my 
daughter saw her parents getting along.
    This wasn't easy for me to do, but it was in my daughter's 
best interest. It gave her a sense of family again. Her dad now 
calls her every week, and she is pursuing her own relationship 
with him.
    He continues to pay his child support.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you very much, Ms. 
Williams.
    Ms. Fink.

  STATEMENT OF JUDITH FINK, DIRECTOR, BROWARD COUNTY SUPPORT 
         ENFORCEMENT DIVISION, FORT LAUDERDALE, FLORIDA

    Ms. Fink. Chairwoman Johnson and distinguished Members of 
the Subcommittee, good afternoon and thank you for the 
invitation to testify on the issue of child support enforcement 
in the non-IV-D arena. My name is Judith Fink, and I am the 
Director of Broward County Support Enforcement Division in Fort 
Lauderdale, Florida. We are funded completely through the 
county's property tax dollars. Through the local funding of a 
separate child support program in Broward County we are able to 
assist our IV-D counterparts, thus reducing the need for 
additional Federal dollars. Our services are completely free to 
the residents of Broward County.
    Although we are a non-IV-D, local government-funded agency 
with an active caseload of more than 5,500 residential parents 
and over 20 years of enforcement experience, we work very 
closely with the local IV-D agency. All of our child support 
clients qualify for IV-D services. However, they choose to 
place their cases in our hands because we are effective, 
responsive and more easily accessible. Last year alone we had a 
collection rate of 77 percent.
    Due to the diligence of Congress and in particular the work 
of this Subcommittee, some very effective child support tools 
have been created and are in use throughout the United States. 
One very notable example is wage withholding. This process is 
one of the primary methods by which child support is now 
collected. What is very significant is that wage withholding 
was first enacted by Congress as an enforcement tool available 
only to IV-D agencies. States were then given the option of 
whether to extend the use of this tool to non-IV-D cases. 
Eventually, Congress required immediate wage withholding for 
child support in all cases.
    Another very effective enforcement tool to which we have 
received access in recent years is the ability to revoke 
driver's licenses. Through this program we have been able to 
convince people to meet their child support obligations who 
previously ignored all other enforcement attempts. 
Unfortunately, non-IV-D enforcement agencies are not able to 
utilize passport revocation procedures. Unlike driver license 
revocation, for some reason passport revocation has been 
limited for use only by IV-D agencies. Congress should enact 
legislation making it clear that passport revocation as an 
enforcement tool should also be available in non-IV-D cases.
    The national directory of new hire programs has proven to 
be a very successful tool for the IV-D program. The fatherhood 
legislation proposes providing access to this directory to 
assist in collection of defaulted student loans. Today I am 
requesting that our non-IV-D child support program also be 
given access to new hire directories so that we can help our 
clients in the collection of child support.
    While the IV-D child support agencies have rightfully been 
given access to a well-balanced variety of enforcement tools, 
the non-IV-D agencies continue to operate in their shadow. This 
has meant that our clients give up opportunities for access to 
some effective enforcement tools because they would rather work 
with a local agency that reports to county government and is 
more responsive to community needs. This choice should not be 
necessary.
    Residential parents who choose to work with the non-IV-D 
agencies should have access to the same variety of enforcement 
tools as IV-D clients. Together, we have made great strides in 
improving child support enforcement services. Today, 
residential parents have more tools available to them for 
enforcement of court-ordered support than ever before. 
Collections are on the rise, however, we can do more. All 
single parents deserve the same range of enforcement options 
regardless of who they choose to go to for help. They should 
not have to sacrifice their right to a variety of enforcement 
methods simply because they believe their needs will better be 
served outside of the IV-D program.
    As a government agency, the Broward County Support 
Enforcement Division should be able to share in the same 
information and enforcement tools as the state IV-D agency. We 
are both organizations employing staff dedicated to public 
service. Just as the IV-D agency is dedicated to serving the 
residents of the State, we are also dedicated to serving the 
residents of our county.
    In the eyes of our clients, we are both the government and 
as such should provide the same services. Every year when it is 
IRS intercept season, our clients feel left out. They truly do 
not understand why we are not allowed access to this program. 
It is easier to say they should apply for IV-D services, but 
the truth of the matter is the IV-D program is already 
overburdened. If we had the same tools, we could relieve the 
burden even further.
    As you are no doubt aware, last year Senator Kay Bailey 
Hutchison introduced Senate bill S. 2411 that addresses many of 
the concerns mentioned here today. We support this bill and 
expect that the Senator will refile it in the future.
    There are more immediate steps that can be taken to provide 
non-IV-D agencies with the powerful enforcement tools that will 
be beneficial to our neediest clients. An amendment has been 
drafted that many of you have already seen. Today I am asking 
for your help to make this amendment a reality by including it 
in any legislation that you consider and pass this year. The 
amendment would be a modest step with potential for great 
rewards in the war on child support. If it were to become the 
law of the land, every child support case would have access to 
wage withholding from unemployment insurance benefits. Non-IV-D 
government agencies, like the Broward County Support 
Enforcement Division, would be allowed to submit qualifying 
cases for IRS intercept and passport revocations.
    The changes that I am asking of you today all boil down to 
a matter of choice for parents who are owed child support. They 
should never ever have to give up access to even one 
enforcement tool merely because they choose to exercise their 
right to ask for help from a non-IV-D enforcement agency rather 
than unwillingly enter the overburdened IV-D program.
    Chairwoman Johnson, thank you for the invitation and 
opportunity to testify before this distinguished Subcommittee. 
The leadership exhibited by you and the Members of this 
Subcommittee has truly made a difference in the lives of the 
children of this Nation who rely on child support.
    Thank you.
    [The prepared statement follows:]
    [An attachment is being retained in the Committee files.]

Statement of Judith Fink, Director, Broward County Support Enforcement 
Division, Fort Lauderdale, Florida

    Chairwoman Johnson and distinguished members of the 
Subcommittee: Good afternoon and thank you for the invitation 
to testify on the issue of child support enforcement in the 
non-IV-D arena. I am grateful for the opportunity to discuss 
the valuable contributions made by non-IV-D government funded 
enforcement agencies in the partnership of helping our nation's 
children collect the child support they so desperately need and 
deserve.
    My name is Judith Fink and I am the Director of the Broward 
County Support Enforcement Division. The Support Enforcement 
Division is an agency of County Government in Broward County, 
Florida. We are funded completely through the County's property 
tax dollars. Our County Commission believes that they must do 
their part to keep people off the welfare roles. Through the 
local funding of a separate child support program in Broward 
County, we are able to assist our IV-D counterparts, thus 
reducing the need for additional Federal dollars. Our services 
are completely free to the residents of Broward County.
    The responsibilities of the Broward County Support 
Enforcement Division are simple: (1) we enforce current orders 
of support for Broward County residents and (2) we serve as the 
central depository for all child support and alimony payments 
in Broward County, regardless of whom serves as the enforcing 
agent. Although we are a non-IV-D, local government funded 
agency, with an active caseload of more than 5,500 residential 
parents, and over 20 years of enforcement experience, we work 
very closely with the local IV-D agency. As the local 
depository, we maintain the financial records for all child 
support and alimony cases in our County. We collect and 
disburse the payments, certify arrears and payment records and 
provide the IV-D agency with a variety of reports and services 
that are helpful to them in their enforcement efforts. All of 
our child support clients qualify for IV-D services; however, 
they choose to place their cases in our hands because we are 
effective, responsive and more easily accessible. Last year 
alone, we had a collection of rate of 77%.
    Due to the diligence of Congress, and in particular the 
work of this subcommittee, some very effective child support 
enforcement tools have been created and are in use throughout 
the United States. One very notable example is wage 
withholding, sometimes also known as income deduction. This 
process is one of the primary methods by which child support is 
now collected. Through this process, residential parents can 
count on receiving child support on a regular basis. Much of 
the financial stress is relieved because they know ``the check 
is in the mail.'' They can plan for back to school expenditures 
and holidays. Nonresidential parents are freed from the regular 
worry of financial support and can spend their energies on the 
emotional support of their children. In other words, parenting 
becomes the priority because the financial obligations are 
automatically deducted from earnings and forwarded, through the 
depositories (soon to be the State Disbursement Unit), to the 
residential parents and the children. What is very significant, 
is that wage withholding was first enacted by Congress as an 
enforcement tool available only to IV-D agencies. States were 
then given the option of whether to extend use of this tool to 
non-IV-D cases. Eventually, Congress required immediate wage 
withholding for child support in all cases.
    Another very effective enforcement tool to which we have 
received access in recent years is the ability to revoke 
drivers' licenses. We have found the threat of drivers' license 
revocation to be even more effective than the threat of 
incarceration. It is common for a delinquent parent to rush to 
the depository to pay thousands of dollars to avoid the 
suspension of a driver's license. Apparently this privilege is 
even more dear to some people than personal freedom. Through 
this program, we have been able to convince people to meet 
their child support obligations who had previously ignored all 
other enforcement attempts.
    Unfortunately, however, non-IV-D enforcement agencies are 
not able to utilize passport revocation procedures. Unlike 
drivers' license revocation, for some reason passport 
revocation has been limited for use only by IV-D agencies. 
Congress should enact legislation making it clear that passport 
revocation as an enforcement tool should also be available in 
non-IV-D cases.
    These two examples illustrate the importance of 
Congressional action to create a level playing field by which 
non-IV-D child support enforcement agencies are able to access 
important enforcement tools. I am here today to ask for your 
help in leveling the playing field that is child support 
enforcement. While the IV-D child support agencies have 
rightfully been given access to a well-balanced variety of 
enforcement tools, the non-IV-D agencies continue to operate in 
their shadow. This has meant that our clients give up 
opportunities for access to some effective enforcement tools 
because they would rather work with a local agency that reports 
to county government and is more responsive to community needs. 
This choice should not be necessary. Residential parents who 
choose to work with the non-IV-D agencies should have access to 
the same variety of enforcement tools as the IV-D clients. 
After all, every child support case is different. Each case 
requires a different mix of enforcement techniques in order to 
attain the ultimate goal of successful collection of child 
support dollars.
    In order to afford the non-IV-D client the same enforcement 
opportunities as those made available to the IV-D residential 
parents, we are requesting that non-IV-D agencies be given 
access to the following enforcement tools:

        Income Withholding for Unemployment Insurance Benefits:

    Non-IV-D clients already benefit from the use of Income 
Withholding through the use of Income Deduction Orders 
submitted to employers. This is the singular most consistent 
method of assuring that regular child support payments are made 
to the residential parent. A logical extension of this very 
effective tool would be to grant non-IV-D agencies the right to 
issue Income Deduction Orders against Unemployment Insurance 
Benefits. Without this right, child support payments previously 
made through employer income deduction comes to a grinding halt 
when the non-residential parent's job is lost. If the 
residential parent wants to benefit from unemployment insurance 
benefits, application must first be made to the local IV-D 
agency for services. It could literally take months before the 
Income Deduction Order is issued against the unemployment 
insurance benefits. By this time, the non-residential parent 
may already have found another job and is no longer receiving 
unemployment benefits. Months of child support have gone 
uncollected and the search for the new employer begins. It 
could be several more months before the new employer is found 
and the deduction from the payroll begins. Conceivably, six 
months to a year could go by without any child support payments 
being sent to the residential parent.

                          New Hire Directory:

     As stated earlier, the singular most effective enforcement 
tool is the Income Deduction Order. Many non-IV-D agencies rely 
solely on information provided by the residential parent. If 
the residential parent cannot supply employment information, we 
are unable to move forward with an Income Deduction Order. This 
is because we lack the funding to hire staff who are skilled 
investigators. With access to the New Hire Directory, we would 
be better positioned to help our clients collect the court 
ordered child support. This is a service that our clients 
frequently request. They read about this service in the 
newspapers and believe that we are obligated to make use of the 
Directory. They truly do not understand the difference between 
a IV-D and a non-IV-D agency. They believe that we are required 
by law to provide access to this service to help them find the 
employer of the non-residential parent. If this service were to 
become an automatic function of the non-IV-D agency, we could 
help some of our neediest clients to collect their child 
support. The original Income Deduction Order would more 
expediently follow the non-residential parent from employer to 
employer. It would be more difficult to avoid paying child 
support.

                         Federal Case Registry:

     Under the Personal Responsibility and Work Opportunity 
Reconciliation Act of 1996, all non-IV-D cases established or 
modified on or after October 1, 1998 must be maintained on a 
state and federal case registry. Federal matches will be run on 
all cases included in the registry; however, the non-IV-D 
enforcement agencies will not be given access to any matches 
that occur. Even though non-IV-D case information will be 
maintained, the non-IV-D client will receive no tangible 
benefit. The information matched through the Registry would be 
extremely valuable and helpful in our ongoing enforcement 
efforts. Access to the matched information would be especially 
useful in our attempts to collect support from the most 
difficult delinquent parents. More specifically, the self-
employed who are paid under the table or maintain businesses or 
assets in the new spouse's name.

                    Federal Parent Locator Services:

    We presently rely solely on the residential parent to 
provide us with the location of the non-residential parent. 
Without an address, we cannot proceed with enforcement efforts. 
If the residential parent cannot provide this critical piece of 
information, we often have to direct that the client apply to 
the local IV-D agency for services. By sending these clients to 
the IV-D agency, an additional burden is placed on an already 
overwhelmed program. If we had direct access to the Federal 
Parent Locator Service, we could immediately help those clients 
who have no idea where to find the non-residential parent. 
These parents would not have to get in line to apply for IV-D 
services.

                          Passport Revocation:

     The Welfare Reform Act of 1996 allows for passport 
sanctions when a child support debt of more than $5,000 is 
owed. The passport application may be denied, or if the non-
residential parent already possesses a passport, it may be 
revoked or it's use limited. We believe that, much like the 
driver's license revocation, this would be an extraordinarily 
valuable tool. We live in a global society where it's just as 
easy to travel abroad as it is to cross the state line. 
Additionally, many conduct their businesses in the 
international arena. While this enforcement tool is currently 
limited to the IV-D agencies, we believe that our clients would 
also benefit from this enforcement tool. On a regular basis, we 
are informed of delinquent parents who are temporarily out of 
the country on business and vacation, while their children go 
without due to the lack of child support received. We would 
like to assure that child support obligations are placed ahead 
of international travel in the delinquent parent's list of 
priorities.
    In addition to access to the previously mentioned 
enforcement tools already made available to and used by the IV-
D agencies, we would like to propose some amendments to current 
law.

                              Bankruptcy:

     Under existing law, when a residential parent files for 
bankruptcy, there is an automatic stay for child support 
enforcement. While a child support obligation cannot be 
discharged as a result of bankruptcy, until the bankruptcy 
issue is resolve, our hands are tied with regard to 
enforcement. The children suffer from lack of support and the 
arrearage continues to grow. We propose that child support 
enforcement be exempt from the automatic stay. This would 
result in all child support agencies having the opportunity to 
continue their efforts on behalf of the children.

                   Enforcement of Alimony Only Cases:

    The non-IV-D agencies are the only agencies available to 
help the alimony only clients. While a IV-D agency may enforce 
alimony when there is also a child support obligation, the 
alimony only client is faced with very limited options. 
Additionally, not all enforcement tools are available to the 
alimony only client. These clients are often the neediest of 
them all. We find that many of them are illiterate or suffer 
from mental health problems. It is because of these extreme 
needs that they have been awarded alimony. While we are able to 
help them by using such tools as the Income Deduction Order, we 
believe we could do even more if all tools that are available 
for child support enforcement could also be used for 
enforcement of alimony obligations.

                               Conclusion

    Together we have made great strides in improving child 
support enforcement services. Today, residential parents have 
more tools available to them for enforcement of court ordered 
child support than ever before. Collections are on the rise; 
however, we can do more. All single parents deserve the same 
range of enforcement options, regardless of who they choose to 
go to for help. They should not have to sacrifice their right 
to a variety of enforcement methods simply because they believe 
their needs could be better served outside of the IV-D program.
    As a government agency, the Broward County Support 
Enforcement Division should be able to share in the same 
information and enforcement tools as the state IV-D agency. We 
are both organizations employing staff dedicated to public 
service. Just as the state IV-D agency is dedicate to serving 
the residents of the state, we are also dedicated to serving 
the residents of our County.
    In the eyes of our clients, we are both ``the government,'' 
and, as such, should provide the same services. Every year when 
it is IRS Intercept ``season'' our clients feel left out. They 
truly do not understand why we are not allowed access to this 
program. It's easy to say they should apply for IV-D services, 
but, the truth of the matter is that the IV-D program is 
already overburdened. If we had the same tools, we could 
relieve this burden even further.
    We see ourselves as the unofficial partners to the IV-D 
agencies in this war on child support. There are so many 
parents who need help that, without our willingness to jump in 
and aid in the battle, the IV-D agencies would be even further 
overburdened. We are not asking for funding. We are not even 
asking for recognition for the wonderful work we do each day to 
help improve the lives of the children whose parents come to us 
for help. All that we ask is to help us by leveling the playing 
field so that our clients may be the recipients of many of the 
remarkable enforcement methods that you have made available to 
those parents who choose to apply for IV-D services.
    As you are, no doubt, aware, last year Senator Kay Bailey 
Hutchison introduced S2411 that addresses many of the concerns 
mentioned here today. We support this bill and expect that the 
Senator will refile it in the future.
    There are more immediate steps that can be taken to provide 
non-IV-D agencies with powerful enforcement tools that would be 
beneficial to our neediest clients. An amendment has been 
drafted that many of you may have already seen. (Attached) It 
addresses some immediate concerns that we believe should become 
law as a matter of policy. Today I am asking for your help to 
make this amendment a reality by including it in any 
legislation that you consider and pass this year. The amendment 
would be a modest step with potential for great rewards in the 
war on child support. If it were to become the law of the land, 
every child support case would have access to wage withholding 
from Unemployment Insurance Benefits. Non-IV-D government 
agencies like the Broward County Support Enforcement Division 
would be allowed to submit qualifying cases for IRS Intercept 
and passport revocations. Custodial parents would have the 
right to notify central depositories and State Disbursement 
Units of their address of choice to which all of their child 
support payments should be mailed. As you can see, these simple 
steps would grant non-IV-D enforcers access to tools that have 
the potential for reaping great benefits for some of our 
toughest cases to enforce.
    The changes that I am asking of you today all boil down to 
a matter of choice for parents who are owed child support. They 
should never have to give up access to even one enforcement 
tool merely because they choose to exercise their right to ask 
for help from a non-IV-D enforcement agency, rather than 
unwillingly enter the overburdened IV-D system.
    Chairwoman Johnson, thank you for the invitation and 
opportunity to testify before this distinguished Committee. The 
leadership exhibited by you and the members of this Committee 
has truly made a difference in the lives of the children of 
this nation who rely on child support. You have been 
instrumental in assuring that the needs of these families 
remain a priority of our government. The lives of the single 
parents of America are improved due to the diligent efforts and 
caring of this Committee. Thank you.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you.
    Ms. Smith, welcome back.

 STATEMENT OF MARILYN RAY SMITH, ASSOCIATE DEPUTY COMMISSIONER 
 AND CHIEF LEGAL COUNSEL, MASSACHUSETTS DEPARTMENT OF REVENUE, 
               CHILD SUPPORT ENFORCEMENT DIVISION

    Ms. Smith. Madam Chairman, Members of the Subcommittee, 
thank you for the opportunity to testify on proposals to extend 
child support information and remedies to entities outside the 
State child support agencies. My name is Marilyn Ray Smith. I 
am Chief Legal Counsel at the Massachusetts Department of 
Revenue, Child Support Enforcement Division.
    While the child support program has come a long way, it 
still has a long way to go. We need to continue to look for 
creative solutions and keep an open mind about new ways of 
doing business. But we must not let our search for innovation 
lead us to embrace ideas that sound good but have unintended 
consequences.
    Before I get to the heart of this debate, I want to say at 
the outset that I am a friend and colleague of the proponents 
of these proposals. Nevertheless, I must also say that I am in 
respectful disagreement. These proposals will have an impact 
far beyond the individuals here today. I do not intend my 
remarks to question their commitment to the child support 
program, but in my view, these proposals in their current form 
will not get us where we want to go.
    My purpose here is to identity the tough political and 
practical issues that should be addressed before Congress 
decides to move in the direction of expanding access to child 
support remedies and information.
    I have three key questions for you to consider today:
    First, should the child support program use tax dollars to 
act as bill collectors for private collection agencies when the 
work for which the fees are sought was performed by State and 
Federal employees?
    Second, should the child support program turn over to 
unregulated public entities, collection agencies and private 
attorneys who are not realistically subject to privacy and 
other safeguards the vast array of confidential information and 
enforcement remedies we have assembled?
    Third, should we create another parallel administrative 
structure, computer communication network, set of forms and 
procedures outside the IV-D system that will result in 
additional operational burdens, not only for the child support 
program but also for its collaborating partners.
    There are two proposals being advanced; one is relatively 
modest, and the other quite extensive. Both proposals require 
the IV-D agency to send any payments it collects to any entity 
or person designated by the custodial parent. I would like to 
discuss this provision first, and then come back to an analysis 
of the other proposals.
    Requiring the IV-D agency to forward support payments as a 
directive of the custodial parent seems like a benign and 
reasonable mandate. You have already heard that some custodial 
parents become frustrated with their IV-D child support agency 
and turn to private collection companies for assistance.
    In their desperate need for child support, they sign 
contracts with these companies which require them to pay 30 to 
40 percent of any collection made from that day forward, 
regardless of how, or by whom, the collection was made. 
Collection agencies justify these high fees by saying ``66 
percent of something is better than 100 percent of nothing.'' 
But is it better than 100 percent of something?
    Suppose the week after the custodial parent signs the 
contract, one or more of the following things happen after 
years of little or no action on the case by the IV-D agency:
    The IV-D agency's data match with the State or national 
directory of new hires suddenly locates the noncustodial 
parent's employer and a wage assignment issued by the IV-D 
automatically kicks in.
    The Federal tax refund intercept, prepared and submitted by 
the IV-D agency, finally scores.
    The financial institution data match negotiated by the IV-D 
agency with local banks gets underway. A bank account is 
located and the IV-D agency issues a levy to seize it.
    The noncustodial parent wins the lottery and the IV-D 
agency's lien that has been patiently sitting there catches the 
winnings.
    The IV-D agency sends a notice threatening driver's license 
revocation and the noncustodial parent decides to enter into a 
payment plan.
    Or the noncustodial parent goes to one of the fatherhood 
programs that you heard about earlier today, embraces their 
message of responsibility, and starts to pay voluntarily.
    By now the point is clear: The new systems that you 
mandated and that we set up are starting to pay off. The 
collection agency did nothing to earn its fee, yet it claims 
the right to a substantial cut of the child support check.
    We have to ask ourselves the tough question of what public 
policy is served by taking money intended to keep children out 
of poverty and diverting it to profit-driven private companies?
    How can we bring fathers back into the fold, when so much 
of their child support check would never reach their children?
    I would like to turn now to the proposal for extensive 
access to IV-D child support information and remedies. This 
bill was filed in the Senate last year. Reportedly a modified 
version will be filed this year, and sooner or later you will 
likely hear more about it.
    The enforcement remedies include Federal and State tax 
refund intercepts, passport sanctions, access to new hiring 
reporting and financial institution data matches and more. The 
information sought consists of all the information in the 
Federal and State parent locator services, including names, 
addresses, Social Security numbers, dates of birth, health 
insurance coverage, assets and liabilities and employer 
information of both custodial and noncustodial parents.
    It also includes information from all other State agencies 
the child support program deals with, such as vital statistics, 
public assistance, corrections, tax and financial institutions.
    All that is necessary to get access to this gold mine is to 
register with the Secretary of Health and Human Services by 
filling out a simple application. The entities and individuals 
potentially eligible to apply for registration could encompass 
literally hundreds of private collection agencies, thousands of 
local county clerks of courts, district attorneys, sheriffs and 
other State and local government entities, as well as tens of 
thousands of private attorneys practicing family law.
    HHS would have no authority to deny an application that 
discloses all the requested information. There is no approval 
process to evaluate qualifications. Nor would HHS have 
authority to regulate performance and services.
    Although this proposal purports to advance 
``privatization'' to streamline government at no cost, in fact, 
it would require significant taxpayer dollars to expand the 
bureaucracy.
    It is a far cry from the privatization contracts that are 
in operation in most States. Unlike this scheme, those 
contracts operate under State and Federal law. They are subject 
to audit and they must meet clearly defined measures of 
accountability.
    There are also very real privacy concerns, which I will 
just have to summarize in the interest of time, but we believe 
that it would be virtually impossible to prevent fly by-night 
operators from using this information for other purposes.
    There are also problems of private law enforcement raised 
by giving quasi-law enforcement powers to seize income and 
assets to private collection agencies.
    Finally, having said all of this, is there something that 
could be done to extend some tools of the child support 
programs to responsible government entities? This brings us to 
this more modest proposal which both of my colleagues have 
mentioned already. Typically, we would expect it would be 
clerks of court who would participate, but it could include 
district attorneys, attorneys general, sheriffs and others.
    My written testimony analyzes the proposal in some detail 
but there seem to be several ways to proceed. For the Federal 
and tax refund intercept and passport sanctions, clerks could 
submit cases directly to the Treasury or the State Department 
or they could go through the Federal Office of Child Support 
Enforcement, which could conduct the data exchanges with 
Treasury and State, or they could submit cases to the local IV-
D agency for transmission to Washington.
    As for unemployment compensation benefits, they could send 
the income withholdings order directly to the agency for the 
unemployment agency to sort out.
    However, all of these routes raise questions about computer 
connections, arrears certifications and due process rights of 
noncustodial parents.
    The final alternative is that clerks of court could simply 
enter into a cooperative agreement with the IV-D agency and 
make the case for which the remedy is sought an IV-D case. Ms. 
Fink and the clerks could continue to provide the services that 
they do so well in Broward County, and at the same time those 
remedies would be available to their clients.
    The millions of little details have been worked out between 
the IV-D agencies and these other entities over the last 15 or 
20 years. We built computer systems to conduct the data matches 
and we dealt with all the permutations of calculating arrears. 
Moving in this direction keeps us on our 20-year path of 
consolidating the child support functions rather than 
fragmenting them.
    In my view, it would be far cheaper and easier for all 
concerned to build on the existing structure rather than create 
a whole new parallel process.
    In closing, I respectfully recommend that much more work 
needs to be done to assess the impact of these proposals on 
computer systems and the operational constraints of the 
affected agencies. We have barely scratched the surface on the 
ramifications of releasing confidential data and giving broad 
enforcement powers to unregulated entities.
    The child support community appreciates the attention to 
detail that this Subcommittee consistently shows and your 
willingness to engage us in these discussions. By working 
together we can craft laws that translate into workable 
programs for the children who need our support. Thank you.
    [The prepard statement follows:]

Statement of Marilyn Ray Smith, Associate Deputy Commissioner and Chief 
Legal Counsel, Massachusetts Department of Revenue, Child Support 
Enforcement Division

    Madam Chairman, distinguished Members of the Human 
Resources Subcommittee: Good afternoon, and thank you for the 
opportunity to testify on proposals to make available certain 
child support remedies and information to entities outside 
state child support enforcement agencies.
    My name is Marilyn Ray Smith. I am Chief Legal Counsel and 
Associate Deputy Commissioner for the Child Support Enforcement 
Division of the Massachusetts Department of Revenue. Before 
joining DOR in 1987, I was a family law attorney, and continue 
to be active in local, state, and national bar associations.
    As you heard two weeks ago, the nation's child support 
program has made great improvements in recent years. This 
progress is a result not only of the bold and innovative 
reforms that you sponsored as part of welfare reform, but also 
of years of hard work by dedicated child support professionals 
that are beginning to bear fruit. However, we still have a long 
way to go. Too many American children still do not get the 
child support that they are due, on time and in full. We need 
to continue to look for innovative, creative solutions and keep 
an open mind about new ways of doing business that maximize use 
of limited resources for an ever expanding caseload. But we 
must also make sure that further innovations are introduced in 
a way that does not derail our current forward movement. 
Expanding access to child support enforcement remedies and 
information to entities outside the IV-D system raises many 
concerns about costs and fees, operational burdens on state and 
federal agencies, upsetting computer systems that are finally 
beginning to work, and safeguarding confidential information, 
as well as changing the direction of the nation's child support 
program.
    In my testimony today, there are several questions in 
particular that I wish to discuss: Should federal and state tax 
dollars be used to collect fees due under private contracts, 
when the work for which the fees are sought has been performed 
by federal and state employees at taxpayer expense? What 
administrative and operational burdens will these proposals, as 
drafted, present to federal and state agencies? Who is going to 
pay for the computer modifications and increased personnel 
costs that these proposals will require? Will these costs be 
eligible for the federal match as IV-D costs, even though the 
services may be for non-IV-D cases? Will we be starting down a 
slippery slope that erodes our commitment to protect 
confidential information?
    I also want to say at the outset that I am a friend and 
colleague to the proponents of these proposals. Nevertheless, 
there are areas where I am in respectful substantive 
disagreement. My remarks are not intended to question their 
commitment to the child support program. However, any 
legislation enacted in this area would have an impact far 
beyond the individuals here today. There are hundreds of 
private collection agencies; thousands of local county clerks 
of courts, district attorneys, and governmental entities; and 
tens of thousands of private attorneys practicing family law, 
all of whom would be potentially eligible to participate in 
these proposed programs. My intention here is to identify the 
tough political and practical issues that should be addressed 
if Congress decides to move in this new direction.

    Two Proposals to Expand Access to Child Support Information and 
                                Remedies

    There are at least two proposals being advanced that would 
extend child support information and remedies to cases that are 
currently not in the IV-D system.\1\ One proposal (``the 
limited proposal'') would make the federal tax refund intercept 
and passport sanction programs available to certain public 
agencies--usually county clerks of court--that handle cases 
outside the state IV-D child support agency, the so-called 
``public non-IV-D cases.'' It would also require state 
unemployment compensation agencies to accept income withholding 
orders to collect child support from unemployment benefits in 
all cases, not just those being enforced by the state IV-D 
child support agency, as is currently the case.
---------------------------------------------------------------------------
    \1\ A child support enforcement agency is operated by each state as 
a condition of receiving federal financial support both for the child 
support program and for the cash assistance program, Temporary 
Assistance to Needy Families (TANF). The child support agency is often 
referred to as the ``IV-D agency,'' whose services include locating 
noncustodial parents, establishing paternity, and establishing, 
modifying, and enforcing child support obligations in ``IV-D cases.'' 
IV-D cases consist of cases of families who currently receive TANF, who 
formerly received TANF or Aid to Families with Dependent Children 
(AFDC), or who applied for child support services from the state. State 
IV-D agencies are administered pursuant to detailed federal law and 
regulations, and involve cooperative agreements with courts, district 
attorneys, and a variety of other state agencies including vital 
records agencies, licensing agencies, and registries of motor vehicles. 
Some states have contracted with private vendors to provide specific 
services, including operating local child support offices. Public 
agencies entering into cooperative agreements and private vendors 
working under contract with state IV-D agencies are required to comply 
with the same federal law and regulations that govern State IV-D 
agencies and are subject to audit by state and federal officials.
---------------------------------------------------------------------------
    The second proposal is considerably more expansive (``the 
expanded proposal''). One version was filed last year in the 
Senate by Senator Kay Bailey Hutchison as S.2411, and a revised 
version is expected to be filed in the Senate in a few weeks. 
It would permit state and local non-IV-D public child support 
enforcement agencies, private attorneys, and private collection 
agencies who employ attorneys to have access to virtually every 
enforcement remedy and every source of information about 
custodial and noncustodial parents currently available to state 
IV-D child support agencies. To obtain this access, these 
agencies and attorneys would be required to register with the 
U.S. Department of Health and Human Services (HHS) by filing an 
application that discloses certain specified information.
    Both the limited proposal and the extended proposal would 
require IV-D agencies' state disbursement units to send any 
child support payment collected by the IV-D agency in any case, 
including IV-D cases, to any address designated by the 
custodial parent, unless the court had specified in the order 
the address to which the payment should be sent.
    There are many controversial provisions in both of these 
proposals, but perhaps none is more so than the proposal to 
require state disbursement units to redirect payments to 
entities or individuals other than the custodial parent. I will 
discuss this provision first, and next turn to an analysis of 
the more limited proposal relating to federal tax refund 
intercept, passport sanctions, and income withholding for 
unemployment benefits in all cases. I will then follow with a 
review of the proposal for extended access to information and 
remedies, looking particularly at concerns about safeguarding 
confidential information. Finally, I will close with a 
recommendation that much more work needs to be done to root out 
the proverbial ``devil in the details'' before we embark on 
this path.

     Redirection of Payments at the Request of the Custodial Parent

    Requiring the state disbursement unit to forward any 
support payments due a custodial parent--whether or not a IV-D 
case--to any address or in care of any person or entity that 
the custodial parent specifies seems on its face to be a benign 
and reasonable mandate. It could include, for example, a bank 
for electronic or direct deposit of funds into the custodial 
parent's account. Or perhaps a custodial parent wishes to 
receive mail at the address of a friend or relative, because 
her mailbox is not secure or she wishes to avoid disclosing her 
address because of domestic violence.
    Why then is this legislation being sought, and what is the 
objection to it? Some custodial parents, frustrated at not 
getting child support through the IV-D agency or through their 
own efforts, have turned to private collection agencies for 
assistance. Under the contracts for services used by many 
private collection agencies, the custodial parent must agree to 
pay the collection agency a specified fee which ranges from 30 
to 40 percent of the collection, regardless of how the 
collection is made. The custodial parent must further agree to 
pay the percentage fee on any child support payment made either 
directly to her, through the court, through the IV-D agency, or 
through any other means. It may also include a percent of 
current support collected by income withholding. Some contracts 
appear to remain in effect as long as a child support arrearage 
is owed, even if the private collection agency has not been 
successful, and even if an income withholding order remains in 
effect for many years.\2\
---------------------------------------------------------------------------
    \2\ These contracts are not subject to federal rules relating to 
timely distribution of funds to families. Some contracts specify that 
the agency will forward to the custodial parent the balance of the 
payment within 30 days of receipt, after deduction of the agency's fee. 
By contrast, federal law requires the state disbursement unit to send 
collections to the custodial parent within two days, unless there is an 
appeal pending related to an arrearage collection.
---------------------------------------------------------------------------
    The apparent purpose of this proposal is to permit 
collection agencies, private attorneys, and non-IV-D public 
entities collecting child support to receive the child support 
collections made by the IV-D agency, and then deduct their fees 
before sending the money to the custodial parent. Some state 
IV-D agencies have received instructions to forward collections 
made by the IV-D agency to a private collection agency 
purporting to be under retainer from the custodial parent, 
without any direct communication from the custodial parent to 
the IV-D agency. Other states have received these requests 
directly from the custodial parent.\3\
---------------------------------------------------------------------------
    \3\ IV-D agencies have responded in a variety of ways. These 
include requiring an affidavit from the custodial parent stating that 
she is aware of the scope of child support services offered by the IV-D 
agency, requiring her to close the IV-D case, or requiring a power of 
attorney authorizing another entity or person to receive the payments. 
Other states have required the custodial parent to seek a court order 
to change the payee, on grounds that the court expects the child to 
receive the full amount due. Finally, some child support agencies have 
administrative or system constraints against keeping more than one 
address for the custodial parent in the state case registry, which is 
the source of address information for the state disbursement unit. They 
are mindful of the federal requirement that the state case registry 
contain the residential addresses of custodial and noncustodial parents 
for purposes of service of process, and are concerned that important 
notices and copies of actions taken that are required by federal law to 
be sent to the parents will not reach their destination if they pass 
through a collection agency or other entity.
---------------------------------------------------------------------------
    The proponents of this measure argue that its opponents are 
refusing to allow custodial parents other options to collect 
child support, especially when the child support agency is not 
doing an effective job. This is simply not the case. There is 
no provision in the IV-D statutory or regulatory scheme that 
prohibits custodial parents from entering into contracts with 
collection agencies or prevents them from hiring a private 
attorney. Nor is there anything that prevents a custodial 
parent from writing a check to pay any valid contractual fees. 
Moreover, the cases at issue in this debate are those where the 
IV-D agency has been successful 1in collecting support. The 
argument that ``60 or 70 percent of something is better than 
100 percent of nothing'' does not hold up, because the IV-D 
agency is prepared to deliver 100 percent of the collection, 
minus any minimal fees. The collection agencies do have an 
alternative if a custodial parent enters into a valid contract 
and then breaches it by refusing to pay the fees specified in 
the contract. The civil courts of every state are open for 
redress for the collection agency and private attorney just 
like they are for every other creditor.
    The heart of the matter is that this proposal would take 
away from children money collected at taxpayer expense by 
federal and state employees and divert it to profit-driven 
private collection agencies and attorneys. Some state IV-D 
child support agencies do not want to be bill collectors for 
private collection agencies in circumstances where the IV-D 
agencies feel they have done the work to make the 
collection.\4\ To be perfectly frank, they particularly balk at 
the notion that the collection may have come from actions taken 
exclusively by the child support agency, such as an execution 
of income withholding through the new hire data match, a 
seizure of a bank account from the financial institution data 
match, or an intercept of a federal or state tax refund. These 
are all automated remedies that have taken years to put into 
place and are just now producing impressive results. It 
frustrates child support professionals to think that their 
efforts to pass tough federal and state legislation and to 
sweat through the trials and tribulations of building the 
automated computer systems will be harvested by unregulated 
entities in the private sector just as these innovations start 
to bear fruit. And while the collection agencies may well have 
individual satisfied customers that they can produce, it is 
noteworthy that advocacy groups for custodial parents do not 
support this proposal.
---------------------------------------------------------------------------
    \4\ To be sure, some collection agencies use creative investigative 
and ``gumshoe'' strategies to successfully track down income and assets 
of delinquent obligors, and some private attorneys are particularly 
effective in using contempt actions to compel payment. In some 
situations, these strategies are more effective than the mass case 
processing tools employed by IV-D agencies. Those collection agencies 
and private attorneys have arguably earned their fees, though one might 
still ask whether 30 to 40 percent of the collection is an appropriate 
amount, particularly of ongoing collections. Most child support 
agencies recognize their own limitations and are receptive to 
cooperating with reputable firms and attorneys in those cases which 
require labor-intensive, individualized case work. However, the code of 
professional conduct or bar rules in many states prohibit private 
attorneys from charging contingent fees in child support cases, on 
public policy grounds that the money should go to the children. In 
addition, in some states, members of the bar have opined either 
formally or informally that an attorney has an ethical obligation to 
disclose to a client who is a custodial parent that IV-D services for 
enforcing child support are available at no or low cost, and that an 
attorney who charges a fee without giving the client the opportunity to 
pursue the IV-D option may be committing malpractice or an ethical 
violation.
---------------------------------------------------------------------------

     Access to Federal Tax Refund Intercept and Passport Sanctions

    The limited proposal would make federal tax refund 
intercept and passport sanctions available to cases being 
enforced by a state or local government child support agency 
not providing IV-D services. Before deciding whether to make 
these remedies available, it makes sense to look at how this 
could be done. First, who decides what is a ``state or local 
government child support agency'' ? The Department of Health 
and Human Services? The state legislature? The agency itself? 
This description could include county clerks of court, district 
attorneys, attorneys general, sheriffs, and any other state or 
local government entity that decided to start providing child 
support enforcement services. Presumably the intent is to 
permit local county clerks of courts to continue to provide 
child support services to non-IV-D cases currently in their 
caseloads. In some states, long before the advent of the IV-D 
program, county clerks of courts provided collection, 
disbursement, and enforcement services to families needing 
assistance in collecting support. The clerks of court wish to 
continue to do so even as the IV-D program has grown in scope 
and complexity. For some reason, they have not entered into 
cooperative agreements with the state IV-D agency, as is the 
case in most states where county clerks have historically been 
involved in collecting child support (e.g., Michigan, Ohio, 
Pennsylvania, and New Jersey).
    Any legislation in this direction should pay attention to 
the details and include specific authority for HHS and Treasury 
to issue federal regulations. There must be procedures for 
certifying the amount of arrears claimed to be owed, including 
notice and opportunity for a hearing for the noncustodial 
parent, with specific timeframes for each step in the process 
so that it moves in an orderly fashion. Otherwise, the 
Departments of HHS or the Treasury will have to examine 
hundreds of different procedures from hundreds of different 
agencies to see if due process requirements have been met. Or 
noncustodial parents may have no recourse to raise legitimate 
challenges. What will be the decision rules when there are 
multiple tax refund intercept submissions from different 
states, with some from IV-D agencies and some from non-IV-D 
agencies, in cases where the noncustodial parent owes past 
support to several custodial parents? Finally, would the 
referrals be made through a case-by-case individualized paper 
process, or submitted through electronic, automated means?
    Passport sanctions raise similar issues to federal tax 
refund intercept, which would need to be resolved before 
broadening availability of this remedy. There are also a few 
differences, in addition to the amount of qualifying arrears 
($5,000 instead of $500). The timeframes for resolving disputes 
must be much quicker for passport sanctions. While funds from 
the tax refund intercept can be held for many weeks pending 
resolution of disputes, passport sanctions must be addressed 
expeditiously. The delinquent noncustodial parent may be eager 
to settle his debt so that he can get his passport and go 
abroad. The State Department will need a clear point of contact 
to resolve any questions that may arise. Multiple referral 
sources beyond the IV-D agencies will complicate this process.
    There appear to be at least four ways for the state or 
local non-IV-D child support agency to move these cases through 
the system to their final destination at either the Department 
of the Treasury or the Department of State:
    <bullet> Send the cases directly to the Treasury or to the 
State Department. All communications would take place with 
those entities, without involving the Federal Office of Child 
Support Enforcement (OCSE) or the state child support IV-D 
agency.
    <bullet> Send the cases to OCSE. OCSE would review the 
submissions to determine compliance with necessary requirements 
and assemble all the referrals from around the country and send 
one package each to the Treasury and the State Department, 
without involving the state IV-D agency. OCSE would then be 
responsible for transmitting the ``hits'' or other 
communications back to the state or local non-IV-D child 
support agency.
    <bullet> Send the cases to the state IV-D agency. It would 
then be responsible for reviewing the submissions to ensure 
that the requisite procedures had been followed. It would also 
be responsible for serving as the conduit between the state or 
local non-IV-D agency and the appropriate federal agency.
    <bullet> Make the cases IV-D cases by entering into a 
cooperative agreement with the state IV-D child support agency. 
This route is already permitted under federal law, and would 
require no additional Congressional legislation. The IV-D 
agency would incorporate the referred cases into the existing 
system for notice and opportunity for hearing and for 
transmission of information in both directions with OCSE. The 
cases could be either eligible for the full range of IV-D 
services or designated as ``tax refund and passport sanction 
only'' cases, similar to the ``locate only'' and ``non-IV-D 
income withholding only'' cases that the IV-D agency currently 
tracks.
    Although states are probably not going to be enthusiastic 
about yet another category of cases, it is easier and cheaper 
to go this last route and fit them into existing processes. It 
would certainly require additional work for the IV-D agency to 
set up arrearage histories on the IV-D computer system, to 
issue notices and process appeals. However, some or all of this 
work can be delegated to the referring non-IV-D agency for 
work-up and resolution as part of the cooperative agreement. 
The transmission of data to OCSE would also be simpler, as 
state IV-D agencies have direct telecommunications connections 
with OCSE, used to transmit data several times a week for the 
Federal Case Registry and the National Directory of New Hires. 
All in all, this approach would provide for more control and 
consistency. States, of course, will want assurance that these 
cases will be eligible for the federal financial institution 
data match and for inclusion as IV-D collections for purposes 
of calculating incentives and other program measures. These 
cases will bring increased work, regardless of how much is 
contracted out to the non-IV-D agency under the cooperative 
agreement.
    Moreover, such an approach is consistent with the evolution 
of the child support program since its inception. In contrast, 
setting up separate computer connections and procedures for 
non-IV-D state or local government entities to get into the 
business of child support enforcement is a step backwards. 
Since l975, in response to consistent and widespread criticism 
that one of the major weaknesses of the program has been its 
historic fragmentation, the thrust of federal law has been to 
push states to consolidate child support functions under a 
single entity within state government. With the passage of the 
Personal Responsibility and Work Opportunity Reconciliation Act 
of 1996 (PRWORA), Congress put into place the remaining 
necessary requirements to achieve the goal of consolidating the 
program at the state level. States are in the midst of 
accomplishing these mandates, ranging from automated computer 
systems and state case registries that contain information on 
all IV-D cases as well as information on non-IV-D cases with a 
support order, to state disbursement units where employers in 
the State can send all payments subject to wage withholding 
orders to a single entity in the State. Consolidation has been 
a critical component of automated case processing, which relies 
on automated data matches that can take enforcement action on 
thousands of cases at a time through issuance of wage 
withholding orders and asset seizures. This process has been 
made more efficient for all concerned by the use of 
standardized forms and uniform procedures. This may not be the 
optimal time for upsetting the applecart just as it gets 
rolling.
    Rather than encouraging more state and local government 
agencies to enter the child support enforcement business 
independent of the IV-D agency (and not subject to federal 
regulations), it would be more economical to encourage those 
few remaining clerks of courts providing child support services 
outside the IV-D system to convert their cases to IV-D cases. 
The cases would then be eligible for the IV-D remedies and 
information sought by these proposals and would be subject to 
the well-developed rules, regulations, and procedures that 
currently exist for the IV-D program.

              Access to Unemployment Compensation Benefits

    Under current law, state unemployment compensation agencies 
are required to honor income withholding orders against 
unemployment compensation benefits only in IV-D cases being 
enforced by the state IV-D child support agency. By contrast, 
since 1994, all child support orders, whether IV-D or not, have 
been required to have presumptive income withholding from wages 
and salaries. There is now a proposal to extend income 
withholding to unemployment compensation benefits in all cases 
as well.
    Current law, section 303(e) of the Social Security Act (42 
U.S.C. 503(e)), requires the unemployment compensation agency 
to require each applicant for unemployment benefits to disclose 
whether or not the applicant owes child support in a IV-D case. 
The unemployment compensation agency is then required to notify 
the IV-D agency of such disclosure and to withhold from 
unemployment benefits the amount of child support owed and send 
it to the IV-D agency.
    The proposal under consideration would require the 
applicant for unemployment benefits to disclose any child 
support obligation (not just IV-D cases), as well as the 
identity and location of the entity, individual, or person 
enforcing the obligation, to the extent known. The unemployment 
compensation agency would then be required to notify the 
entity, individual or person of the applicant's disclosure, and 
then deduct the amount of child support owed from the 
unemployment compensation and send it to the non-IV-D entity, 
individual or person disclosed by the applicant. This proposal 
would in essence require the unemployment compensation agency 
to run a mini-child support program for processing individual 
non-IV-D cases, requiring it to deal with a multitude of clerks 
of court, private collection agencies, private attorneys, 
custodial parents, and whoever else decided to ``enforce'' an 
order. Meanwhile, the IV-D cases are handled through automated 
data matches with all the casework performed by the IV-D 
agency, and little involvement of the unemployment compensation 
agency.
    Rather than requiring the unemployment compensation agency 
to do all this work, it makes more sense to fashion a proposal 
that minimizes the burden on the unemployment compensation 
agency. To do so would require a complete overhaul of the 
existing statute, as it does not reflect current practice. 
State IV-D agencies and unemployment compensation regularly 
conduct automated information exchanges to determine who owes 
child support among those receiving benefits. Once a hit is 
made, the IV-D agency issues an income withholding order, and 
the unemployment compensation agency sends amounts withheld 
from the benefits to the state disbursement unit for 
distribution. This is similar to the way IV-D agencies work 
with employers. We do not require employers to ask new 
employees if they owe child support. Instead, we require them 
to tell us when a new hire occurs, and we check it against the 
database of those owing child support and issue an income 
withholding order if appropriate. Nor do we require employers 
to send lots of individual checks in lots of different 
directions to the hundreds of custodial parents who are 
beneficiaries of the income withholding. Instead, we permit the 
employer to send one check to the state disbursement unit. The 
state disbursement unit then identifies who is owed support in 
both IV-D and non-IV-D cases, and it sends the checks to the 
individual custodial parents owed support.
    As in the case of federal tax refund intercept and passport 
sanctions, the easiest method for the unemployment compensation 
agency is for the cases to be incorporated into the data match 
conducted by the IV-D agency. The agency will then have only 
one process every two weeks or so, rather than receiving 
individual requests from dozens of clerks of court, collection 
agencies, private attorneys, and even custodial parents, 
without any method for verifying the validity of the 
withholding orders. However, to be included in the data match, 
the cases must be IV-D cases, for reasons similar to those set 
forth in the discussion on federal tax refund intercept and 
passport sanctions.

       Extended Access to Child Support Information and Remedies

    Because a version of the extended proposal was filed last 
year in the Senate and a modified version may be filed this 
year, I would like to elaborate on a few of its key provisions. 
As noted earlier, it would permit state or local non-IV-D 
public child support enforcement agencies, private attorneys, 
and private collection agencies who employ attorneys to have 
access to enforcement remedies and information that are 
currently available only for IV-D cases. The enforcement 
remedies include federal and state tax refund intercepts, data 
matches with information from new hire reporting, income 
withholding from unemployment compensation benefits, denial or 
revocation of passports, reporting of child support 
delinquencies to consumer credit reporting agencies, data 
matches with information from financial institutions, and 
administrative transfer of income withholding orders.
    The information sought by this extended proposal would 
include all the information in the Federal Parent Locator 
Service, such as names, addresses, telephone numbers, Social 
Security numbers, dates of birth, income, group health 
insurance coverage and other employment benefits, and types, 
status, location and amounts of assets and liabilities of 
custodial and noncustodial parents, as well as the name, 
address, telephone number, and employer identification number 
of their employers. In addition, the proposal would include 
access to all the information in the State Parent Locator 
Service, such as vital statistics records (including marriage, 
birth, and divorce records); state and local tax and revenue 
records, (including information on residence address, employer, 
income and assets); real and personal property records; 
occupational and professional license records; records 
concerning the ownership and control of corporations, 
partnerships, and other business entities; employment security 
records; records of agencies administering public assistance 
programs; motor vehicle records; corrections records, customer 
records of public utilities and cable television companies; and 
information on assets and liabilities held by financial 
institutions.
    The process of registering with HHS to gain access to the 
remedies and information involves filling out an application 
that would request information about the entity or attorney, 
such as name and address, the kinds of child support 
enforcement services provided, the amount of fees and other 
costs charged to a client, copies of their standard contracts 
or agreements with clients, and number and kinds of legal 
actions or professional grievances brought against the entity. 
HHS would not have any specific authority to deny registration 
to an applicant that disclosed all the information requested on 
the application form, nor would HHS have any specific authority 
to regulate the performance and services provided by these 
entities, other than periodic monitoring to determine if the 
information or enforcement remedies were being used for 
purposes other than child support enforcement.
    Even if additional oversight powers were granted to HHS, 
however, properly monitoring all these attorneys and private 
collection agencies would be a huge undertaking. HHS would need 
to develop mechanisms to regulate, oversee and perhaps 
investigate up to thousands of private companies and attorneys 
nationwide. While this proposal purports to advance 
``privatization'' of government functions, it would in fact 
require significant federal taxpayer resources to expand the 
bureaucracy. This proposal is profoundly different from the 
successful privatization contracts that are in operation in 
most states. Those contracts operate under federal and state 
law, they are subject to audit, and there are accountability 
measures in place.

              Privacy Concerns Raised by Extended Proposal

    This proposal also raises serious concerns about privacy 
and the safeguarding of confidential information maintained by 
federal and state agencies. Congress, in enacting the child 
support provisions of welfare reform, gave state IV-D agencies 
broad access to a wide range of sensitive data. In weighing 
privacy concerns against the duty to support one's children, 
Congress tilted the balance in favor of strong child support 
provisions. However, even as these provisions are being 
implemented, concerns have been raised in state legislatures, 
in the press, and elsewhere about ensuring that appropriate 
privacy safeguards are in place, and that IV-D agency staff are 
trained and monitored to protect confidentiality of personal 
data. This proposed legislation would essentially give 
unregulated public and private entities, private attorneys, and 
private collection agencies wide-open access to all the records 
and databases available to the child support enforcement 
program, without any realistic ability for HHS to monitor its 
use. It simply would not be feasible for HHS to oversee each 
private entity and attorney closely enough to ensure that 
information is used solely for child support purposes. 
Furthermore, these entities are not accountable to the public 
in the same way IV-D agencies are.
    Because the proposed legislation does not have any 
effective mechanism for imposing or enforcing confidentiality 
safeguards in the private context, expanding access to FPLS as 
proposed is ripe for abuse. The wealth of information in FPLS 
will be a tempting target for unscrupulous investigators and 
other individuals, who might well pose as entities eligible for 
registration under this bill. Many private collection agencies 
collect for a range of debts, not just child support. It will 
be virtually impossible to prevent ``fly-by-night'' operations 
from using this data for other purposes. While this is an 
unsettling prospect in any instance, it is of particular 
concern when a family has fled domestic violence and their 
safety could be compromised by disclosure of their whereabouts.
    Giving law enforcement powers to seize income and assets to 
private collection agencies also raises the specter of private 
law enforcement, a concept of questionable constitutionality. 
Law enforcement, of which child support is a part, is a public 
function, not one delegated to private citizens or private 
entities. This too presents opportunities for abuse of power. 
In fact, some collection agencies have ``issued'' income 
withholding orders on their own stationery, ordering the 
employer to withhold child support and threatening to impose 
sanctions that can only be imposed by IV-D agencies or the 
courts if the employer doesn't comply.
    Because they are driven by the profit motive, private 
collection agencies are all too likely to take actions for 
which the state IV-D child support agencies will ultimately pay 
the price. Custodial and noncustodial parents alike may be 
mistreated through harassing collection strategies or unfair 
contracts. It will be up to the state IV-D agency to straighten 
out the mess later, when things go wrong. The real danger is 
that there will be a effort to retract the information and 
remedies given to the IV-D agency. When all is said and done, 
state IV-D agencies answer to the public--to the taxpayers, to 
the elected public officials, and to the courts. There is no 
comparable accountability for these private entities.

         Who Will Pay for These Changes and Expanded Caseload?

    Proponents of these changes have asserted that there will 
be no cost to the federal taxpayer for these innovations. This 
is simply not the case, even with the limited proposal, and 
certainly not with the expanded proposal. There are computer 
systems to change, procedures to develop, communication paths 
to create, and a host of other minutiae to iron out that will 
take staff time and resources for personnel at both OCSE and 
the state IV-D agencies. This will hold true, whether the cases 
are designated as IV-D cases or some other special non-IV-D 
category. Any revenue neutral proposal will mean diversion of 
resources from other priorities, just as OCSE and state IV-D 
agencies are in the midst of implementing the extensive reforms 
of 1996.
    As noted above, if Congress decides to encourage non-IV-D 
public entities to get into the business of enforcing child 
support (after spending years encouraging them to relinquish 
the business), the most efficient way to do so is to convert 
the cases to IV-D cases through cooperative agreements. This 
approach avoids unfunded mandates for states. It also builds on 
the existing structure by incorporating a few thousand more 
cases into the pipeline, rather than investing in new computer 
systems and procedural structures that parallel the ones that 
are working for the IV-D system.

                               Conclusion

    Madam Chairman, I do not know the answers to all the 
questions that I have raised today for your consideration, nor 
do I believe that there is a consensus on these issues. Much 
more work needs to be done to assess the impact of these 
proposals on computer systems, as well as the state IV-D child 
support agencies, OCSE, the Treasury, the State Department, and 
the unemployment compensation agencies. And we have only 
scratched the surface on the ramifications of releasing 
confidential data and giving broad enforcement powers to 
unregulated private entities. Massachusetts has had a long 
history of successful innovation in child support reform that 
has involved collaboration with other public and private 
entities. Our success has resulted in large part because we 
worked out the details with our collaborators before we passed 
legislation, rather than handing them a finished package that 
did not adequately take into account their operational needs, 
requiring us all to scramble to push a round peg into a square 
hole.
    Thank you for inviting me to comment on this complex area. 
The child support community appreciates the attention to the 
details of the child support program that this Committee has 
consistently shown throughout welfare reform. One of the 
reasons that the reforms of 1996 have been so successful so 
quickly is that you involved the state child support agencies 
at every step of the way. Working cooperatively with you will 
enable us to craft workable laws that translate into workable 
programs to serve the children and families who depend on us 
for support.
    I look forward to continuing to work with you on behalf of 
the nation's children to come up with practical solutions to 
the problems of nonsupport.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you.
    Ms. Entmacher.

   STATEMENT OF JOAN ENTMACHER, VICE PRESIDENT AND DIRECTOR, 
     FAMILY ECONOMIC SECURITY, NATIONAL WOMEN'S LAW CENTER

    Ms. Entmacher. Chairman Johnson, Congressman Cardin, thank 
you for this opportunity to testify on behalf of the National 
Women's Law Center. We appreciate the Subcommittee's continuing 
commitment to explore new ways of increasing support for 
children; however, we have several concerns with the proposals 
designed to expand the powers of private collection companies 
and separate non-IV-D agencies.
    First, we are concerned that such proposals would divert 
much of the child support intended for and desperately needed 
by children into the hands of for-profit companies even when 
that child support actually had been collected by the IV-D 
program.
    Second, we are concerned that such proposals would 
undermine rather than enhance the IV-D program on which low- 
and moderate-income families particularly rely, just as it is 
beginning to move forward toward the automated integrated child 
support system envisioned by Congress.
    Finally, we are concerned that key protections for 
custodial and noncustodial parents that are part of IV-D would 
be missing outside of the IV-D system.
    I understand that this Subcommittee at this point is only 
considering a limited expansion in these non-IV-D powers, so I 
will focus my remarks on that. We are particularly concerned 
that the provision requiring IV-D agencies to send child 
support payments directly to private collection agencies or 
others could increase the potential for exploitation of 
custodial parents and deprive children of badly needed support.
    This provision would give con artists who already prey on 
desperate custodial parents a direct pipeline to all of the 
money collected by IV-D. Mom might not be aware for some time 
that the father was even making payments to IV-D that weren't 
reaching her. By the time she realized it, the company and the 
money could be gone.
    But the Center's concern is not simply with outright fraud. 
We also are concerned that under this provision requiring 
mailing the checks to any address designated by the custodial 
parent, many children and their custodial parents could lose 
25, 33, 40 percent of already inadequate child support payments 
to private collection agencies, even when IV-D did all of the 
work.
    This problem already exists under current law, but this 
proposal would make the problem vastly worse by, as Marilyn 
Smith said, turning IV-D into a collection agency for for-
profit companies, not children.
    One of the most misunderstood features of many private 
child support collection contracts is that the company will 
take its cut out of current support payments, even though the 
company advertises that it is only collecting past due support. 
How can it do this? By redefining in the contract boilerplate 
what current support is and what past due support is, and 
saying that all amounts received by the company, however they 
are designated by a court or by the NCP, will be first credited 
to reduce past due support.
    What does this mean to a child owed support? Consider a 
child who is owed $6,000 in arrears, who is currently receiving 
$600 a month in current payments. Mom signs a contract with the 
collection agency that charges a one-third fee to collect past 
due support. Mom thinks she is offering to pay the agency 
$2,000, if it succeeds in collecting the $6,000 arrearage, 
thinking that two-thirds of something is better than 100 
percent of nothing.
    She is probably not thinking that her daughter could end up 
losing a third of her current support every month or that she 
could end up paying, for example, $10,000 to collect $6,000. 
Here is how. As soon as Mom signs the contract, the collection 
company takes the current support payments and applies them 
first to the arrearage. To the company, each $600 current 
support payment becomes a past due support payment. So the 
agency takes a third and the child gets $400 a month instead of 
$600. And each month, since the company said that was a past 
due support payment, the arrearages increase by another $600.
    If dad doesn't have enough money to pay off the arrearage, 
this situation can continue indefinitely. According to 
complaints on file with the Texas Attorney General, some 
custodial parents believe this is just what happened to them 
under their contracts with CSE, the former name of 
Supportkids.com.
    Ms. B. of Forth Worth, Texas wrote the collection agency, 
``It was my understanding that you all would take 30 percent of 
the part that he was in arrears. It certainly was not my 
understanding that you would take away what I was getting 
currently. This is ridiculous.''
    Ms. W.F. of Plano, Texas complained, ``They have only 
managed to help themselves and pay themselves for services with 
money I would have gotten without their help. I am worse off 
financially now with their so-called help.''
    As the example in my written testimony shows, even if Dad 
increases his monthly support payments to pay down the debt, 
say from $600 to $750 a month, Mom would still only be getting 
$500 a month-less than she was getting in current support. By 
the time the debt was fully paid off, 40 months later, the 
collection agency would get $10,000 and Mom would get $20,000, 
when she could have gotten $24,000 in support. Bottom line, mom 
has paid $10,000 to collect a $6,000 debt. It turns out that 
sometimes two-thirds of something can be less than nothing at 
all.
    I have just a few comments about the remaining provisions 
of the proposal. The provision concerning unemployment benefits 
would require the unemployment agency to withhold child support 
from unemployment benefits in non-IV-D cases and send it 
directly to the non-IV-D agency or collection agency. In this 
particular provision, there isn't even a requirement that the 
custodial parent request this arrangement. This is not 
analogous to the way wage withholding in non-IV-D cases is 
handled. Those payments go to the State disbursement unit so 
the SDU can maintain a record of payments and ensure that they 
are properly disbursed.
    Similarly, with the invocation of passport sanctions and 
tax intercept, the IV-D statute contains a variety of 
protections to ensure that the arrearages actually exist and 
that funds are properly disbursed and those protections are not 
part of this proposal.
    I thank you again for your commitment to find ways to help 
children get more child support, but we are concerned that this 
proposal would be a step away from, not toward that goal. Thank 
you.
    [The prepared statement follows:]

Statement of Joan Entmacher, Vice President and Director, Family 
Economic Security, National Women's Law Center

    Chairwoman Johnson and Members of the Human Resources 
Subcommittee, thank you for this opportunity to testify on 
behalf of the National Women's Law Center concerning proposals 
to expand access to government child support enforcement 
procedures.
    The National Women's Law Center is a non-profit 
organization that has been working since 1972 to advance and 
protect women's legal rights. The Center focuses on major 
policy areas of importance to women and their families 
including employment, education, women's health, and family 
economic security, with special attention given to the concerns 
of low-income women and their families. Most relevant to this 
hearing, the Center has worked for more than two decades to 
improve the child support enforcement system. On several 
occasions, Center staff have presented testimony on child 
support issues to Congress, commented on child support 
regulations of the Department of Health and Human Services, 
litigated child support cases and met with officials in the 
Administration, Congress and the states in furtherance of the 
Center's efforts to improve child support enforcement. The 
Center also provides information to women across the country on 
how to exercise their rights to child support through state 
child support offices, and assists low-income women in the 
District of Columbia with child support and family law issues.
    Since the creation of the child support enforcement program 
under Title IV-D of the Social Security Act in 1975 (the ``IV-D 
program''), the National Women's Law Center has been a strong 
advocate of improved child support enforcement. We recognize 
all too well that although progress has been made, it has been 
painfully slow and uneven throughout the country, and that 
millions of children still are not receiving the child support 
they desperately need. We appreciate this Subcommittee's 
commitment to continue to explore ways of increasing support 
for children.
    We are concerned, however, that proposals designed to 
encourage the use of private collection agents and separate, 
non-IV-D agencies would make child support enforcement worse, 
not better. We are concerned that such proposals would 
undermine, rather than enhance, the IV-D program on which low 
and moderate income families particularly rely for child 
support enforcement services.\1\ We are concerned that such 
proposals would increase the historic fragmentation of child 
support enforcement services just as the IV-D program is 
beginning to move toward the automated, integrated, nationwide 
child support enforcement system envisioned by the Personal 
Responsibility and Work Opportunity Reconciliation Act of 1996. 
We are concerned that key protections for custodial and 
noncustodial parents would be missing outside of the IV-D 
system. Perhaps most of all, we are concerned that such 
proposals would divert much of the child support intended for, 
and desperately needed by, children into the hands of for-
profit collection agencies, even when that child support 
actually had been collected by the IV-D program. One custodial 
parent complaining about a child support collection agency to 
the Texas Attorney General wrote:
    They have only managed to help themselves and pay 
themselves for their services with money I would have gotten 
without their help... I am worse off financially now with their 
so-called help.\2\ (Emphasis added)
    It is my understanding that the proposal currently being 
considered by the Subcommittee to expand access to government 
enforcement procedures, which has not yet been introduced in 
Congress, is more limited than, for example, S. 2411 introduced 
in the last Congress. On the assumption that the Subcommittee 
is not considering allowing private attorneys, private 
collection agencies and non-IV-D agencies access to the 
sensitive information in government child support data bases, 
this testimony will not address the serious privacy concerns 
such a proposal would raise, including safety concerns for 
battered women, nor the burdens and costs for the IV-D system 
that would be involved in arranging for such access. And I 
understand that the Subcommittee is considering a more limited 
expansion in the enforcement tools available to non-IV-D 
agencies, and in particular to private collection agencies, 
than some other proposals would authorize. Therefore, this 
testimony will not address all of the concerns about possible 
abuse, inefficiency, confusion of payment and case records, and 
diversion of resources from the IV-D program that more 
extensive proposals to promote the use of private and non-IV-D 
collection agencies would raise.
    However, even the more limited proposal currently being 
considered poses serious problems which are discussed below. Of 
greatest concern to the Center is the provision that would give 
largely unregulated private collection agencies direct access 
to child support payments.

  Requiring IV-D Agencies to Make Child Support Payments Directly to 
     Private Collection Agencies Could Increase the Potential for 
Exploitation of Custodial Parents and Deprive Children of Badly Needed 
                             Child Support

    In the draft proposal, this section is entitled, 
``Expeditious Payment of Child Support Collections.'' It would 
be more appropriately titled, ``Expeditious Payment of Child 
Support Collection Agencies.'' The purpose of this provision is 
to ensure that private collection agencies, private attorneys, 
other individuals, and non-IV-D agencies can take their often 
large cut of child support, including child support collected 
by IV-D, before it gets to the child. Under this provision, 
instead of sending child support payments to the custodial 
parent, the State Disbursement Unit would be required to send 
support payments due a custodial parent to any entity specified 
by the custodial parent, including a collection agency, even if 
the obligation is being enforced by IV-D.
    This provision poses very serious risks to children and 
custodial parents, mostly mothers, owed support.
    First, it would greatly increase the potential for fraud 
and abuse. The private child support collection field is almost 
completely unregulated.\3\ And the population these agencies 
target--custodial parents struggling to make ends meet--is a 
vulnerable one. Some custodial parents have lost money to scam 
artists who collect application fees then vanish into the 
night. Others have dealt with agencies that collected some 
money, but have not forwarded any of it to the custodial 
parent.\4\ It is a field in which, Better Business Bureau 
records show, companies quickly start up and almost as quickly 
disappear, leaving behind frustrated custodial and noncustodial 
parents and no forwarding address or telephone number.\5\
    The proposed provision allowing payments to go directly 
from IV-D to private collection agencies would make this 
problem worse. It would greatly increase the potential for 
getting easy money out of child support--agencies could have 
100% of the money collected by IV-D sent directly to them--and 
probably would attract more con artists to the field. Custodial 
parents could sign up with these fraudulent agencies or 
individuals, and, as required, give the collection agency's 
address to IV-D for payment. It might take quite some time for 
the custodial parent to realize that the noncustodial parent 
was making payments which were not reaching her at all. By the 
time she realized there was a problem, and got IV-D to redirect 
the payments to her, considerable child support could be lost 
forever.
    But the Center's concern is not simply with outright fraud. 
We also are concerned that under this provision, many children 
and their custodial parents could lose substantial portions of 
already inadequate child support payments to private collection 
agencies, under confusing if not deceptive contract provisions, 
when they could be receiving all of it through IV-D. This 
problem already exists under current law, but this proposal 
would make the problem vastly worse by effectively turning IV-D 
agencies into agents for the private collection agencies--not 
children.
    Under this proposal, private collection agencies would be 
assured of getting their cut of child support collections--and 
the one-third collection fee charged by CSE Child Support 
Enforcement Co. is fairly typical \6\--even when the IV-D 
agency did all the work of securing the wage withholding order, 
tax refund intercept, or bank match.
    Moreover, the collections that many agencies would take a 
percentage of--their 25, 33, or 40% cut--would include current 
support payments, under contract provisions that cleverly 
redefine what is ``current'' and what is ``past-due'' support. 
This is one of the most misunderstood and disturbing aspects of 
some private child support collection agencies' practices. Some 
agencies emphasize in their advertising and contracts that they 
are collecting ``past-due child support,'' \7\ and that they 
take their fees out of these ``past-due'' collections. But then 
some contracts--in standard form agreements that few, if any, 
custodial parents can negotiate--go on to redefine a ``past-
due'' support payment. Under some contracts, any payment--
including a designated current support payment--becomes a 
``past-due'' support payment in the eyes of the collection 
agency as long as it is received while an arrearage exists, 
because it is applied to the arrearage first.\8\ This permits 
the collection agency to claim its cut of even designated 
current support payments.
    For example, the CSE (Child Support Enforcement, Co.) 
contract in use in 1998 states:
    ``Past-Due Support Owed'' is defined throughout this 
agreement as the sum of all past-due child support and any 
other monetary obligation, including any interest, due and 
owing from the NCP [non-custodial parent] as of the date the 
NCP's first payment is received by CSE. ``Past-Due Support 
Owed'' also includes any support and interest that become past-
due after the first payment is received. Regardless of how 
payments are designated by the NCP, payor, court records, or 
other documents, all amounts received by CSE will be first 
credited to reduce ``Past-Due Support Owed.'' (Emphasis added)
    Similarly, the contract used by Child Support Network, Inc. 
states: ``All money collected will be applied against the 
arrearage balance, until the arrearage balance is paid in 
full.'' Other provisions of the CSN contract state that its 
fees apply to any money paid after the agreement is signed, 
including any money previously paid to any court or government 
agency.
    What do obscure provisions like these mean to a child owed 
support? They mean that a child may not receive the full child 
support payment she is due each month--even if the noncustodial 
parent is making regular child support payments that equal or 
exceed the current support obligation. They also mean that a 
child and custodial parent may end up paying much more in child 
support to collect an arrearage than the entire arrearage is 
worth.
    Consider a child owed $6,000 in past-due support, who is 
currently owed and receiving $600/month in current support 
payments. The custodial mother signs a contract with a 
collection agency that charges a one-third fee to collect 
``past-due support.'' Mom thinks she's offering to pay the 
agency up to $2,000 if it succeeds in collecting the $6,000 
arrearage, thinking that 2/3 of something is better than 100% 
of nothing. (She may not be aware of the progress some IV-D 
agencies are making in using tax refund offset, bank matches, 
and other tools to collect arrearages, which would get her 100% 
of the collection, minus at most minimal fees.) What she is 
probably not thinking is that she and her child could end up 
paying more than $6,000 in lost child support to collect the 
$6,000.
    Here's how. As soon as mom signs the contract with the 
collection agency, it begins applying the support payments 
first to the arrearage--which means it takes $200 of the $600 
current support payments as ``past-due'' support under its 
definition. This situation can continue throughout the duration 
of the child support obligation, because under the bookkeeping 
rules of the collection agencies, no current support is ever 
received. Each month, the current obligation defaults and is 
added to the ``unpaid support'' total. Even if the collection 
agency, or IV-D, manages to collect part of the arrearage in a 
lump sum, if the payments are insufficient to pay off the 
arrearage, the agency can take its cut indefinitely. This is 
particularly a risk for low-income noncustodial parents, who 
can least afford to make large child support payments to pay 
off arrearages quickly, and for low-income custodial parents, 
who can least afford to lose any part of the child support 
payments made.
    Suppose the collection agency, or IV-D, arranges for an 
increase in monthly payments from $600 to $750 to pay down the 
$6,000 arrearage. And suppose Dad regularly makes the increased 
payments. Most people would think that Dad is paying $600/month 
in current support, and $150 a month in past-due support. But 
under the contracts used by many child support collection 
agencies, the entire $750 is treated as a past-due support 
payment. If they take a one-third fee, this creative 
bookkeeping allows them to take $250 per month instead of $50/
month. This leaves the child $500/month: $100 less than the 
$600 current support the child had been receiving, even though 
the father paid the full amount of current support, and an 
additional $150 toward the arrearage.
    In addition, under this arrangement, the arrearage is paid 
down no faster than it would be if only $150/month were 
credited to the arrearage. The reason is that as each month's 
entire payment is applied to the arrearage, the current month's 
obligation defaults, increasing the arrears balance by $600. If 
Dad makes every payment in full, ignoring interest, it still 
will take 40 months to pay off the unpaid support.
    The bottom line is that at the end of 40 months, the 
custodial parent--and the child--would have paid $10,000 in 
child support to collect $6,000 in arrears. Dad would have paid 
$30,000 ($750 x 40); the agency would have received $10,000, 
the child $20,000. But if the mother had written off the $6,000 
arrearage completely, she would be better off than she would be 
under the ``successful'' completion of her contract with the 
agency. She would have received $24,000 in current support 
instead of $20,000. It turns out that 2/3 of something--when 
that something is cleverly redefined by some child support 
collection agencies--can be less than nothing.
    Some may think that while it is unfortunate that consumers 
enter into unwise contracts--especially when children owed 
child support pay the price--that the best solution is to let 
the buyer beware, and cancel contracts that aren't working for 
them. In this field, however, that solution may not work. 
Another disturbing feature of some child support collection 
agency contracts is that they purport to restrict the ability 
of the consumer to terminate the contract, frequently requiring 
the custodial parent and child to give the agency its cut of 
all child support collected until the arrearage is paid in 
full--which, as the discussion above shows, can take a very 
long time.
    For example, the CSE contract in use in 1998 stated that 
``this agreement shall only terminate in any one of three 
ways.'' (1) CSE collects all ``Past-Due Support Owed.'' (2) 
Written cancellation within seven days of signing. (3) If 
twelve consecutive months go by with no payment received, the 
client may cancel. However, this option is qualified. If CSE 
has hired an attorney to place a lien against the noncustodial 
parent's property, or the client has assigned the right to CSE 
to pursue the claim--which another provision of the contact 
requires the client to do if CSE decides to take legal action--
then the contract may not be terminated under this clause. 
Similarly, the contract used by Child Support Network, Inc. 
(CSN) in 1998 stated that the agreement is valid for two years 
from the date of signing. However, the contract continued, 
``[i]f payments are being made by or on behalf of the 
noncustodial parent, or if your case has been referred to an 
attorney for collection, this Agreement will be valid until 
your arrearage has been paid in full.'' \9\
    Complaints filed with the Consumer Protection Division of 
the Texas Attorney General's Office concerning CSE indicate the 
deep frustration of some custodial parents with what they 
allege is the company's taking its 33% cut from current support 
payments, especially payments being collected by IV-D, and 
their inability to cancel the contract. Some examples: \10\
    Ms. WF of Plano, Texas, complained that she had asked CSE 
for help in collecting past due child support from her ex-
husband who was living in Hawaii. (Emphasis in original) She 
already had applied for IV-D services. She said that before 
signing the contract with CSE, she asked if their contract 
meant that CSE could intercept payments that the IV-D agency in 
Hawaii had already intercepted, and was told they could not. 
She said she thought CSE would be making additional efforts to 
get unpaid child support from her ex-husband directly or at 
least from his insurance company. However, she said, CSE simply 
took its percentage out of wage withholding payments and other 
payments made to the Hawaii IV-D agency. Ms. WF wrote: ``If 
they continue to take current support being paid to [the Hawaii 
IV-D agency] and putting it towards arrears he owes, which is 
over $11,500 at this point, he will never catch up and they CSE 
of Austin will continue indefinitely to take out their cut 
first which they have not earned at all.''
    Ms. B of Fort Worth, Texas said she had written CSE in an 
attempt to terminate her contract: ``It was my understanding 
that you all would take 30% of the part that he was in arrears. 
It was certainly not my understanding that you would take away 
what I was getting currently. This is ridiculous. So cancel the 
proceedings.'' She said CSE refused to cancel the contract. 
``They even had an attorney call me to, I believe, intimidate 
me by explaining, in legal terminology, why I could not back 
out of my contract.'' ``I feel that this company is really 
taking advantage of people like me. While I realize that I 
should have made sure that I totally understood the contract, 
which I thought I did, I believe that they misrepresented 
themselves. I believe that the entire agreement is very 
deceptive.'' She asked, ``They're stating that they're getting 
the amount that's late, but what I want to know is: if they are 
currently collecting the late part of what he owes me, what 
happens to the portion that he should actually be paying me 
now....?''
    Ms. G of Seagoville, Texas said that she had sought the 
help of CSE in collecting $7,130 in child support arrears. She 
wrote the Attorney General, ``The contract states...[o]nce 
total amount owed was collected then I would receive 100%. 
However that was not done--In the 4 years time I was on this 
contract they collected $16,000, which means they went ... over 
the amount. I would like to have that money back. Can you help? 
Please help us. Please help us. Please, Please help us.''
    Ms. L of Red Oak, Texas complained that she had tried, 
repeatedly and unsuccessfully, to cancel her contract with CSE. 
She said she had an open case with the IV-D agency when she 
signed a contract with CSE. She complained that now that she is 
receiving child support payments, ``They [CSE] take the check. 
They shouldn't be taking my money. They have not done anything 
on this case like they said.'' She asked that they ``drop this 
like I had requested 6 different times.''
    Other complaints were similar. Custodial parents also 
complained about difficulties getting information from CSE 
about their account and the amount of arrearage remaining: a 
critical piece of information since the legitimacy of the fee 
collection depends on the existence of an arrearage. Some 
custodial parents, as well as noncustodial parents, complained 
about inaccurate collections and unfair treatment of the 
noncustodial parent. Some complainants indicated that they had 
asked the IV-D agency to send future child support payments to 
them, not CSE; at least one had experienced difficulty getting 
the change put into effect.
    The issues raised by these and other custodial parents 
strongly suggest that increasing the ability of collection 
agencies to get direct access to child support payments would 
not be in the best interests of parents or their children.

   The Provision for Income Withholding from Unemployment Insurance 
  Benefits by Private Collection Agencies and Non-IV-D Agencies Lacks 
      Important Protections for Custodial and Noncustodial Parents

    The provision under consideration purports merely to 
require that state unemployment agencies honor income 
withholding orders in non-IV-D cases as well as IV-D cases, 
just as employers honor income withholding orders in non-IV-D 
as well as IV-D cases. It would, in fact, operate very 
differently. Under current law, non-IV-D wage withholding is 
governed by specific requirements designed to ensure that 
deductions from income are properly made and properly disbursed 
to custodial parents. These protections are lacking in this 
proposal concerning withholding from unemployment payments.
    Current law requires states to provide for income 
withholding in most child support orders, including orders not 
being enforced by IV-D agencies. However, the law also requires 
that withholding of income in non-IV-D cases be carried out in 
full compliance with procedural due process (42 U.S.C. 
666(a)(8)(B)(iv)). Many of the procedures applicable to 
withholding in IV-D cases are also applicable to non-IV-D 
withholding (42 U.S.C. 666(a)(8)(B)(i) and (ii)), including the 
requirement that employers must be given notice on a form 
prescribed by the Secretary and that all amounts withheld from 
wages in both IV-D and non-IV-D cases be sent to the State 
Disbursement Unit (SDU).
    Having payments flow through the SDU provides important 
protections to both custodial and noncustodial parents. The SDU 
is responsible for accurately identifying payments and promptly 
disbursing payments to custodial parents. It maintains payment 
records and must furnish to any parent--IV-D and non-IV-D--
timely information on the current status of support payments 
(42 U.S.C. 654B).
    Currently, unemployment offices electronically match their 
case records against child support obligations submitted by IV-
D, and forward the payments to IV-D. This proposal would 
redefine ``child support obligations'' in the unemployment law 
to include obligations which are being enforced by private 
collection agencies and State and local agencies not associated 
with IV-D. It would require applicants for unemployment to 
disclose whether they owe such obligations, identify the entity 
or individual enforcing the obligation, and then would require 
the unemployment office to deduct the obligations from the 
unemployment check and forward them directly to the collection 
agent--private or public--not to IV-D, not to the SDU and not 
to the custodial parent. There is no requirement that the 
unemployment office even check with the custodial parent before 
diverting the child support payment.
    It is unclear in this proposal how disputes about the 
amount or validity of the withholding would be resolved; there 
are no due process or standard notice requirements. It is 
unclear that the $5 per case per month that the statute would 
authorize the unemployment office to charge would cover the 
administrative costs of unemployment agencies of processing 
these cases, which cannot be handled as efficiently as data 
matches with IV-D; it is not even clear who would pay it. Most 
of all, it is unclear what will happen if the payments sent to 
a private collection agency never reach the custodial parent. 
But it seems very likely that at some point, the burden will 
fall on a IV-D agency to sort it out and deal with two 
frustrated parents: a custodial parent who didn't receive child 
support and a noncustodial parent who paid it, but not, it 
turns out, to the child.

 The Provision Allowing Passport Sanctions by Non-IV-D Agencies Lacks 
                        Due Process Protections

    Current law allows IV-D agencies, through the Secretary of 
HHS, to ask the Secretary of State to deny, revoke, or restrict 
a passport if an individual owes over $5,000 in child support. 
However, before invoking this sanction, IV-D agencies must 
comply with explicit due process protections (42 U.S.C. 
654(31)): an individual must be given notice of the arrearage, 
its consequences, and an ability to contest it, and, to ensure 
accuracy, the IV-D agency must comply with documentation 
requirements established by the Secretary of HHS.
    Under the proposed provision, non-IV-D state or local 
government child support enforcement agencies that certify that 
arrearages exceeding $5,000 are due may invoke passport 
sanctions from the Secretary of State. However, the 
requirements of section 654(31) would not apply to non-IV-D 
agencies. It is unclear who, then, would be responsible for 
affording the necessary due process protections and resolve any 
disputes about arrearage amounts: the Secretary of HHS? the 
Secretary of State?
    Non-IV-D agencies that seek to use the powers of IV-D 
agencies should be held to the same standards as IV-D. Congress 
has--not without controversy--granted IV-D agencies the use of 
tough new enforcement tools, including passport denial and 
revocation. It is important that they be used fairly. Misuse, 
even by non-IV-D agencies, is likely to undermine support for 
their use generally.

The Provision Allowing Federal Income Tax Refund Intercept by Non-IV-D 
Agencies Lacks Protections and Would Be Less Efficient than the Current 
                                 System

    Current law requires the Secretary of the Treasury to 
intercept federal tax refunds upon receiving notice from a IV-D 
agency that a child support arrearage of a certain amount is 
owed. However, before the refund can be intercepted, the 
statute requires the IV-D agency to notify the individual owing 
support that a tax refund intercept will occur, explain the 
procedures for contesting the amount owed, and explain the 
procedures that may be followed to protect the share of a 
refund based upon a joint return. It also requires the IV-D 
agency that receives money through the tax refund intercept to 
distribute it to or on behalf of the child in accordance with 
the statutory distribution rules. (42 U.S.C. 664(a)(3)(A)).
    Under the proposal being considered by the Subcommittee, 
these requirements would not apply to non-IV-D agencies seeking 
to intercept tax refunds. All the proposal says is that the 
Secretary of the Treasury shall develop procedures to enable a 
non-IV-D agency to request the Secretary to withhold tax 
refunds. There are no provisions concerning due process, or the 
distribution of the funds.
    The current process for intercepting tax refunds through 
IV-D is both fair and efficient. The names of obligors owing 
child support and taxpayers due refunds are matched 
electronically, through a system that can identify cases in 
which past-due support is owed to more than one family. There 
is no apparent rationale for encouraging the development of 
procedures that would appear to provide fewer protections and 
be more costly to implement.

                               Conclusion

    Proposals to increase the powers of private collection 
agencies and non-IV-D agencies, and to allow collection 
agencies greater direct access to child support payments, raise 
serious concerns for the IV-D program, noncustodial parents, 
and most of all, millions of custodial parents and children who 
need every penny of the child support due them. On behalf of 
the National Women's Law Center, I urge this Subcommittee not 
to adopt this proposal.

                                Endnotes

    \1\ A recent analysis by the Assistant Secretary for Planning and 
Evaluation, ``Characteristics of Families Using Title IV-D Services in 
1995'' (May 1999), found that 63% of custodial parents eligible for 
child support used the IV-D system. Only 23% of custodial parent 
families in the IV-D system had family incomes of 250% of poverty or 
above (in 1995, 250% of poverty was $30,395). Over half (53%) of the 
custodial parent families not using the IV-D system had incomes of 250% 
of poverty or greater.
    \2\ Complaint of Ms. FW of Plano, Texas to the Texas Attorney 
General, Consumer Protection Division, concerning Child Support 
Enforcement (CSE) of Austin, Texas, July 9, 1997. To illustrate some 
concerns of custodial parents, this testimony quotes from several 
complaints on file with the Texas Attorney General. The National 
Women's Law Center takes no position on their validity.
    \3\ See, e.g., Mabe v. G.C. Services Limited Partnership, 32 F.3d 
86 (4th Cir. 1994)(child support is not a ``debt'' within the meaning 
of the Fair Debt Collection Practices Act, 15 U.S.C. 1692-1692o, 
therefore the practices of child support collection agencies are not 
governed by the FDCPA which regulates other debt collection agencies.)
    \4\ Testimony of Geraldine Jensen, President of Association for 
Children For Enforcement of Support, Inc. (ACES) to the Human Resources 
Subcommittee of the House Government Reform and Oversight Committee, 
Nov. 7, 1997.
    \5\ Information from Better Business Bureau files in the National 
Information System compiled by Amy Collins and Vicki Turetsky, Center 
for Law and Social Policy, 1999.
    \6\ The website of Child Support Enforcement Co. (CSE), 
supportkids.com, currently says that it charges a 34% fee. (A CSE 
contract in use in 1998 required payment of a $475 administrative fee, 
which would come out of collections, in addition to a service fee of 
33% of collections.) Legal services are included in the CSE fee. The 
contract of Child Support Network, Inc. (CSN) offers two payment plans. 
Under Plan A, the client makes an initial payment of $850 plus 15% of 
all collections. If CSN refers the case to an attorney, the fee 
increases to 20%. Under Plan B, the application fee is $35, plus 35% of 
collections. If CSN refers the case to an attorney, the fee increases 
to 40%. The National Child Support Network (NCSN) contract includes a 
$49.95 processing fee, and 25% of collections. The agency does not 
provide legal representation, and filing fees incurred with the 
client's consent must be paid by the client.
    \7\ See, for example, the CSE website, supportkids.com: ``Founded 
in 1991, Supportkids.com has achieved unprecedented success in 
collecting past-due child support....'' The CSE contract in use in 1998 
stated, ``I am asking CSE to enforce and collect ``Past-Due Support 
Owed....''
    \8\ Under Title IV-D, collections are first applied to current 
support obligations. 42 U.S.C. 657.
    \9\ At least one agency is making a selling point of its 
cancellation policy. The website of the National Child Support Network, 
Inc. (NCSN), childsupport.org, states: ``YOU MAY ELECT TO DISCONTINUE 
YOUR CONTRACT AT THE END OF THE CONTRACT PERIOD AND OWE NOTHING 
MORE.... Most collection agencies require a contract that is binding 
while there is ANY arrears balance, which means they will take a 
percentage of your money FOR AS LONG AS YOU ARE ELIGIBLE FOR CHILD 
SUPPORT...'' (Emphasis in original)
    \10\ I appreciate the work of Amy Collins and Vicki Turetsky, 
Center for Law and Social Policy, in obtaining copies of these 
complaints. Some spelling errors have been corrected in the excerpts.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Well, thank you all for 
your testimony. Ms. Williams, what percentage of the 
collections did the agency require you to pay them?
    Ms. Williams. It was the 34 percent.
    Chairman Johnson of Connecticut. Thirty-four percent. Well, 
I really appreciate your testimony, because you are laying out 
a problem that I have a lot of interest in. It almost certainly 
will not be part of the fatherhood bill, but we do expect to do 
a child support bill in the course of events thereafter, 
perhaps in the beginning of next year.
    I personally am very uncomfortable with the fact that we 
are doing such a bad job of collecting for so many children. 
And I do hear what Ms. Kerr is saying; there is no State 
government and there is no Federal Government that is going to 
fund this properly.
    The reason welfare reform has succeeded is not because we 
were smart; it is because the Federal Government guaranteed 
that the States would continue to get the money they had been 
getting, regardless of the number of people on welfare. So for 
the first time they actually had money to pay for day care.
    I was here on this Subcommittee when in 1988 we reformed 
welfare, a great plan on paper. We never funded day care. So we 
aren't going to fund child support enforcement in a way that is 
going to serve all the kids, IV-D and non-IV D, it is just not 
going to happen.
    And we are also now a sophisticated enough society so we 
ought to be able to develop a partnership, and the problems 
that you point to were very real and I appreciate that. But a 
lot of them are also rectifiable. Maybe we need to develop a 
system of licensed--where you have to get a license to be part 
of that system, and have certain agreements within IV-D 
agencies.
    But I think to pretend that we can go ahead, I mean at 
least from the hearing we had before, it looked like the big 
gain in child support enforcement was that we are doing a much 
better job of getting the orders and enforcing the orders from 
the very beginning. We are just not doing a very good job of 
going back and cleaning up the mess behind us. So I think also 
there are different categories. I think the fact that Ms. Fink 
is a government employee does make a difference, even though it 
is at the county level. That is very important, I think, tried 
and true agencies who have done a good job.
    We may want to limit fees. But on the other hand, the limit 
in fees could be paired with certain kinds of contracts that 
would give access through you or develop certain partnerships. 
So we aren't going to solve this today.
    But I hope you will think about how we can move forward, 
because the hearing that we had on child support enforcement 
and how profitable the new tools are, it is terrific. And the 
government-run system is going to do better and better because 
they have better tools. But we are a very, very big Nation, and 
I have never frankly seen a government agency in any area--even 
the motor vehicles department who is obliged to serve everybody 
that gets a driver's license, they have a really hard time 
doing it.
    So I think we are really obliged to look at some of the 
partnerships that might help. And I can see that it is 
territory that we have to move carefully on. But I urge you and 
I hope that by hearing others' testimony you can hear what the 
problems are and how we need to do that and under what 
circumstances would private agencies be willing to limit their 
collection fees for what kind of help, so they cut down the 
time actually and your costs.
    Let me yield to my friend, Ben.
    Mr. Cardin. Thank you, Madam Chair. And I want to thank all 
of our witnesses for their testimony. I certainly support the 
Chair's observations that this issue is not right for the 
legislation, the fatherhood legislation that is before us. It 
is--it has not yet gone through the vetting process in order to 
move forward with legislation.
    Let me just express some of my concerns. If the IV-D 
agencies are overworked and don't have enough resources and are 
not effective in collecting child support, then we should work 
at that and get it the resources that it needs. I am very 
concerned about opening up particularly to private collection 
agencies. I know there is a difference between the government 
and nongovernmental agencies here, the tools that we have 
available for child support enforcement and the information 
that we have available for child support enforcement.
    The hearing that we held 2 weeks ago in which Ms. Smith and 
others were present where we talked about some of the things 
that are happening around the Nation, the new higher 
information, how banks are matching up records, financial 
records, with the child support delinquency orders and 
employers are matching up, that is a wealth of information that 
is there, that I don't think we know how to control, if we 
start opening up this information potentially to private 
entities that are seeking to collect child support, tax 
records. And I think it is not difficult to see how that 
information could work its way into collections beyond child 
support or could work itself into information available that 
has nothing at all to do with collection of any funds, but 
valuable information concerning individuals that could be 
useful to other individuals.
    So I have--we developed the tools for child support 
enforcement nationally and got the support for it because of 
its objective, using it for a specific purpose and having it 
well controlled in its supervision and use. And to now start to 
expand that beyond the governmental agencies that are charged 
specifically with that function, I think, is one that you are 
going to have to come over a heavy burden of proof before we 
move in that direction.
    And I am as strong as anyone in this Congress about helping 
all families collect the child support that is owed, so let us 
figure out a way that we can do it that doesn't compromise some 
of these other concerns, or that you address some of these 
other concerns.
    Thank you, Madam Chair. This has been an interesting 
hearing. I assume it will not be the last we have on this 
subject.
    Chairman Johnson of Connecticut. I purposely laid this out 
early on because it is going to be a challenge, but I think the 
experience of Texas is frankly not one we can ignore.
    Mr. Cardin. If I might, I do have a statement from ACES 
that was addressed to us that deals with this issue, raises 
some of the concerns that I have just raised, and I would ask 
unanimous consent that I could put it into the record.
    Chairman Johnson of Connecticut. Sure.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T3641.011
    
    [GRAPHIC] [TIFF OMITTED] T3641.012
    
    [GRAPHIC] [TIFF OMITTED] T3641.013
    
    [GRAPHIC] [TIFF OMITTED] T3641.014
    
    [GRAPHIC] [TIFF OMITTED] T3641.015
    
      

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you very much for 
being here, we really appreciate you, and thank you, Ms. 
Williams, for your testimony. Thanks.
    [Whereupon, at 3:20 p.m., the hearing was adjourned.]
    [Submissions for the record follow:]

Statement of Geraldine Jensen, President, Association for Children for 
Enforcement of Support, Inc., Toledo, Ohio

    ACES members are clients of State Title IV-D child support 
enforcement agencies. ACES has 40,000 members, and 390 chapters 
located in 48 states. We are representative of the families 
whose 30 million children are owed $50 billion in unpaid child 
support. We have banded together to work for effective and fair 
child support enforcement. ACES has surveyed our membership to 
gather information from families as they make the transition 
from welfare to self-sufficiency. We have asked welfare 
recipients about the actions taken or not taken by child 
support enforcement agencies that have assisted them to become 
self sufficient. Collection of child support when joined with 
available earned income allows 88% of our membership to get off 
public assistance. Collection of child support enables our low 
income working poor members to stay in the job force long 
enough to gain promotions and better pay. The collection of 
child support means our members can pay the rent and utilities, 
buy food, pay for health care, and provide for their children's 
educational opportunities. Lack of child support most often 
means poverty and welfare dependency.

  Private Collection Agencies Not The Answer to Child Support Problems

    Private collection agencies for child support do not work 
any better than the government child support agencies. These 
agencies do not and should not have access to confidential IRS 
information. They should also should not have access to state 
information such as tax records, employment records, worker's 
compensation records, and any other protected government 
records. The private agencies collecting child support are 
currently not regulated. In fact, The U.S. Supreme Court 
recently ruled that these agencies do not fall under the 
regulations of the Fair Debt Collection Act. Private collectors 
are a bad solution to a hard problem. It is a better investment 
to fix the child support enforcement system.
    Custodial parents who have used private collection agencies 
have encountered many problems:
    <bullet> Private collectors take huge fees on money they 
had no part in collecting. Private collectors literally get 30% 
of the children's money for merely mailing a piece of paper to 
the State IV-D agency. They have taken no action to collect the 
money, they are not involved in selecting the cases to be 
submitted---states are required under federal law to submit all 
cases with $500 or more arrearages. They are not involved in 
preparing the case for submission, they are not involved in 
verifying arrearage, handing arrearage disputes etc., yet they 
still get 30% of the children's money. For example, private 
collectors got paid by taking their 30% fee from an IRS refund 
that the state government child support agency attached. This 
is occurring in states like Texas, where the private collector 
merely notifies the state IV-D agency that the family has given 
them permission to collect the support and requests that all 
child support collected by the IV-D agency be sent to the 
private collector rather than to the family. So, after the 
State IV-D agency prepares the case for submission for IRS and 
State offset by verifying the arrearage, name, and social 
security numbers, preparing the documents to be sent to the 
Federal government, handing any issues that arise from the non-
custodial parent after they receive notice of the attachment 
such as a dispute as to the amount of arrears, new spouse 
claim, receive the check from the IRS, process it, and send it 
onto the private collector. The private collector then takes 
their fee, usually 30% of the amount of the check, and sends 
the remainder to the family.
    If federal law requires state Disbursement units to send 
child support collected from wage withholdings, interstate or 
local, attachment of unemployment compensation, attachment of 
bank account, etc., to private collectors, they will profit 
from the work of the state at the expense of the children.
    If someone has a IV-D case open, federal law requires 
automatic submission via the new computers for attachment of 
most type of assets upon a 30 day default. The proposal to 
require state Disbursement units to send the child support 
checks to private collectors are merely a way for private 
collectors to make a windfall profit while doing no or little 
work.
    If it is a non-IV-D case and a family sign up with a 
private collector and the private collector does the work of 
finding the employer, preparing an income withholding order and 
claims they have a right to be paid for this service. If 
private collectors provide a service not part of the IV-D 
system they should be paid but not at the expense of the child. 
Instead they should be paid by the non custodial parent who 
failed to meet their obligations and caused the custodial 
parent to need to seek services to collect the support. The 
non-custodial parent should be required to pay the fee, the 30% 
in addition to the child support. The fee should only be 
allowed to be collected after child support due to the child 
has been paid.
    <bullet> Some private collection agencies collected 
payments from the non custodial parent but never sent the 
payments to the family. This is literally stealing money from 
the children. Since private collection agencies are not 
required to follow the Fair Debt Collection Act, families have 
no recourse in dealing with agencies who act inappropriately. 
We have had reports that private collectors laughed at one 
custodial parent when she told them that the child's father 
said he had paid the money to the collector and she has not 
received it. The private collector told her, ``sue us for it!'' 
Most of the families who turn to private collectors out of 
desperation for support payments are in serious financial 
distress. They do not have money to hire a private attorney, 
they have not received efficient services from the state IV-D 
agency, and then they get ripped off by a private collector. 
Many give up and eventually end up on welfare, or working two 
or three jobs to support their children. The children suffer 
financially and emotionally because now they have lost both 
parents, the one who has abandoned them financially and 
emotionally and the other who cannot be home to nurture them 
because they are working all the time!
    States have large amounts of undistributed child support 
payments on hand. Thirty-four states responded to our request 
for information about undistributed/unidentified funds. They 
reported that they are holding $68,712,546. This is very 
similar to the problems of private collectors not sending money 
on to the family. However, the difference is that citizens can 
call for a state auditor to check records of the state child 
support agency, and state IV-D agencies can be required to 
follow federal regulations about payment distribution. Neither 
of these remedies is available for resolving problems with 
private collectors. ACES recommends that language be added to 
the Fatherhood Initiative legislation which requires States IV-
D agencies to use the Federal Parent Locator System and New 
Hire reporting system to find the addresses of families for 
whom payments are being held.
    <bullet> Some private agencies have closed down and totally 
disappeared after custodial parents have paid application fees 
of hundred's of dollars. Since there are no state or federal 
laws or regulations which govern the practices of private 
collectors on child support cases, these problems continue to 
occur unanswered.
    <bullet> Contracts used by some private collector have 
hidden clauses which require families owed support to pay 
additional court costs and attorney fees on top of the 30% fee 
taken from the child support collected. Some private collectors 
require contracts or power of attorney agreements that are 
binding for the entire childhood or are renewable for a full 
year if even one payment is received, such as an annual 
collection through the IRS Offset program by the State IV-D 
agency.
    <bullet> Some private collectors have violated contracts. 
Agreements were made for taking percentage out of arrears; 
instead they took a percentage of current support.
    Here are some examples of what happened to families using 
private collectors:
    A mother in Texas has one child that is owed over $50,000 
in unpaid child support. She signed a contract with Child 
Support Enforcement (CSE) in Texas more than one year ago. 
Since signing the contract, Phyllis had to go on Public 
Assistance. CSE did not close her case when she went on welfare 
and turn it back over to the state as they are supposed to do. 
When she asked CSE if the case should be turned back to the 
state, CSE told her it did not matter because this was an 
interstate case. CSE has taken 32% of the current support but 
has not collected any money on the arrearage of $50,000.
    A mother in California had a $60,000 arrearage. She went to 
a private collection agency. Nothing was done on her case so 
she canceled her contract in writing. She came to ACES and 
learned how to collect the back support. When she was due to 
get the $60,000 the private collector notified her that she 
owed them 30% of the arrearage, even though the contract had 
been canceled. The private agency even tried to foreclose on 
her house to get their portion of the $60,000.
    A mother in Virginia hired Blue Moon, a private collector 
who collected money from the non-payor's mother. The company 
closed their doors and kept all of the child support they had 
collected and the children received nothing.
    A California mother hired Child Support Enforcement out of 
Austin, TX. She tried to cancel her contract because the agency 
had done nothing to collect the support. The company would not 
allow her to cancel.
    A grandmother who has custodial care hired Blue Moon. She 
paid an up front fee of $50, signed over her power of attorney 
and the company closed its doors, kept her money and kept her 
power of attorney.
    Another California mother hired Blue Moon. The company 
harassed her rather than the non-payor, never answered any of 
her questions or calls, never collected money, and closed its 
doors.
    Another family reports they hired Child Support Enforcement 
from Austin, TX, who did nothing to collect any money. The 
company sent her a notice that they were raising their 
percentage from 33 to 34% even though she had signed a contract 
for 33%.
    ACES recommends that State Disbursement Units be prohibited 
from changing the payee on IV-D cases unless they have a court 
order certifying that all fees will be paid by the non-
custodial parent in addition to and separate from any child 
support obligation.

             Non-IV-D Agencies Having Access to IRS Offset

    Several states have several different government child 
support agencies. In some communities these are local Clerk of 
the Courts offices or court trustees. Before State wide 
distribution, many of these offices had a cooperative agreement 
with State IV-D agencies for payment processing, income 
withholdings, and other services. These agencies were quick to 
refer families to State IV-D agencies in the past for services 
such as Parent Locator and IRS Offset because the family still 
had a case open at their agency and they received federal 
funding via the cooperative agreement. Now they do not like to 
refer cases to IV-D because families chose full IV-D services 
rather than using both agencies. Because of the history of 
cooperative agreements, local offices hired staff and often 
used child support positions as part of the local political 
patronage system.
    When states moved to the State Disbursement units, these 
offices have been looking for a way to continue to keep their 
staff and continue the local patronage system. The newest 
method is to get access to the IRS Offset system so that 
families will keep their case on file with their office rather 
than change over to the State IV-D system. This is good for 
some families who have had success with collection by these 
non-IV-D government agencies, such as those where the mother, 
father, and child all live in the community and the non 
custodial parent has been making regular payment on their own 
through this agency. Since employers now send all income 
withholding payments to the State Distribution Unit so that 
they have only one government agency to deal with, since almost 
40% of the cases are interstate, and since contempt and 
criminal non-support actions are done by attorney under 
contract by IV-D at no charge to families in most states, it no 
longer makes sense for most cases to be handled by these local 
offices.
    For the few families continuing to have open cases at local 
agencies it does not make sense to create a system where they 
can access enforcement to the IRS Offset. It does make sense to 
set up a system where state IV-D agencies must accept cases 
referred from these offices and ensure that the cases are 
forwarded to the IRS. They can require these offices to provide 
the same information that they do of custodial parents opening 
cases for IRS Offset. This process includes a copy of an 
arrearage statement certified by the court or, in affidavit 
form, the name of the non-custodial parent, their last known 
address, and social security number.
    ACES recommends that federal law require State IV-D 
agencies to accept and process these cases to ensure services 
to these families. This would enable these offices to provide 
services to the families who have cases on file where other 
collection services are working. If the case on file at the 
Clerk of Courts or Trustees' Office is not receiving regular 
payments, these offices should be required to notify the 
custodial parents in writing that full collection services for 
locating absent parents, income withholding, attachment of bank 
accounts, unemployment, etc. are available at the state IV-D 
agency.

                         Fatherhood Initiative

    Current federally funded Access/Visitation Projects fail to 
reach families most in need of help in solving visitation 
problems. States that have set up mediation/counseling programs 
to help families resolve visitation problems are often 
voluntary and therefore don't reach families with ongoing 
disputes. Voluntary projects have successfully helped families 
establish visitation orders and custody agreements at the time 
child support orders were entered. Programs such as the 
Fatherhood Initiative have had minimal impact. For example, the 
Los Angeles Fatherhood Initiative told ACES in July 1999 that 
they had only 39 fathers enrolled in the program.
    There are 650,000 open child support cases in Los Angeles. 
Manpower of New York reviewed the fatherhood program by 
establishing a control group of non-custodial parents to 
determine the effectiveness of the program. The review showed 
that 30% of the fathers participating in the fatherhood 
programs and 30% of the fathers not enrolled in the program 
paid child support. The program did successfully ``smoke'' out 
those who were really working because, after the court ordered 
them to attend job training, they began paying child support to 
avoid losing their jobs!
    ACES recommends that program be expanded to include more 
fathers so that more children benefit. However, provisions 
should be made to ensure that the programs are cost effective. 
Programs should be held to a standard that they produce child 
support collections of at $5 for every $1 spent. In the past, 
programs have spend millions of dollars to serve a few fathers, 
of whom only 30% paid child support. Establishment of 
paternity, if needed, should be a prerequisite to participation 
in the program since the goal is to provide fathers' job and 
parent training needed to successfully financially and 
emotionally support their children.
    When parents see that the support paid actually benefits 
their children, it encourages them to meet legal child support 
obligations. Passing child support collected to families on 
welfare rather then keeping it to pay off welfare debts help 
children and encourage non custodial parents to meet child 
support obligations. Child support payment passed on to 
families should be counted toward TANF eligibility in the same 
manner as earned income.
    Federal law should encourage states to establish amnesty 
programs for parents who owe the states welfare child support 
debts. Parents should be allowed to make arrangements to pay 
current support obligations based on the state child support 
guidelines. These guidelines use actual parental income and 
cost of raising children to determine the amount to be paid. 
The non custodial parent should be allowed to enter into a 
legal agreement with the state that set up a process that if 
the non custodial parent meet's current child support 
obligations and past obligations owed to the child, the state 
waives the arrears owed to them. If the parent violates their 
agreement, they become liable for the debt owed to the state.
    In 1995, the U.S. Census study of children growing up in 
single parent households showed that 2.7 million children 
received full payments, 2 million received partial payments, 
and 2.2 million who had support orders received no payments. 
About 6.8 million children received no payments because they 
needed paternity or an order established. About 32% of the 
families who do not receive child support live in poverty. In 
single parent households, 28% of Caucasian children, 40% of 
Black children and 48% of Hispanic children are impoverished.
    There are now 30 million children owed $50 billion in 
unpaid child support according to the Federal Office of Child 
Support Enforcement's 1998 Preliminary Annual Report to 
Congress. If we are truly serious about strengthening families 
and promoting self-sufficiency rather than welfare dependency, 
by making parents responsible for supporting their children, it 
is time to get serious about setting up an effective national 
child support enforcement system. Taking care of the children 
one brings into the world is a basic personal responsibility 
and a true family value.
    Preliminary statistical reports from the U.S. Department of 
Health and Human Services, Administration of Children and 
Families, Office of Child Support Enforcement show that the 
average state collection rate for 1998 is 23%. This is about 
the same rate as the 20% rate in 1995 (pre-welfare reform). The 
National New Hire Directory identifies information about where 
parents who owe child support live and work so that the state 
can process an income withholding or establish a child support 
order. For example, Ohio reports they have received information 
about where 98,437 parents who owe child support live and/or 
work. This would enable Ohio to issue income withholding orders 
to collect child support or establish a support order if 
needed. Ohio does not have a functioning child support 
enforcement computer system to match the data with the federal 
registries and has no manual system in place to distribute the 
data to counties that are responsible for acting on the cases. 
Other states with the same problems who do not have certified 
automated child support tracking systems include Alaska, 
California, District of Columbia, Indiana, Kansas, Michigan, 
North Dakota, Nebraska, Nevada, Pennsylvania, South Carolina 
and the Virgin Islands. Thirty-five per cent of the child 
support caseload in the U.S. is in these states.
    The National Directory of New Hires has sent more than one 
million matches to state child support agencies. Most states 
reported that they have no system in place to track the number 
of matches used to initiate income come withholdings, 
establishment of orders, establishment of paternity, 
administrative enforcement, or court enforcement. Nor could 
they identify the number of cases where payment resulted from 
use of data received from the National New Hire Directory. 
State directors told us during a meeting with them to discuss 
the issues that the data received from the National New Hire 
Directory is difficult to use because it contains previously 
sent data with new matches.
    Problems persist with State Automated Child Support 
Tracking Systems. In addition to the states listed above, 23 
states who are conditionally certified, have systems that are 
missing key capabilities, such as not being able to send 
payments out to families, not being able to distribute the 
correct amount of payments to families and pay off state 
welfare debts, not being able to process interstate cases, and 
not being able to communicate with existing welfare computer 
systems. Only Virginia, Washington, Wyoming, New Hampshire, 
Idaho, Colorado, Iowa, Maine, Kentucky, South Dakota, Arkansas, 
Massachusetts, Florida, Missouri and Hawaii have statewide 
child support computers that are working. For example, 
California paid a private contractor more than $200 million for 
a system whose design was so flawed it was unable to perform 
even basic required functions. With all of these problems 
experienced within the states, how can we expect these systems 
to be successfully linked nationwide?
    Due to the 50% divorce rate and the fact that 25% of all 
births are to parents who were never married, 60% of the 
children born in the 1990's will spend part of their lives in a 
single-parent household. In its impact on children, the child 
support system is now only second to the public school system. 
We need a national enforcement system where support payments 
are collected just like taxes, instead of a 50 state 
bureaucracies full of loopholes and red tape.
    ACES recommends that congress should enact, H.R. 1488, 
sponsored by Representative Henry Hyde (R) IL and Lynn Woosley 
(D) CA. It sets up a federal and state partnership to collect 
child support throughout the nation even when parents move 
across state lines. These interstate cases now make up almost 
40% of the caseload and are the most difficult to enforce. 
State courts or government agencies through administrative 
hearings would establish orders within the divorce process or 
through establishment of paternity and would determine the 
amount to be paid based on parental income, modifying orders as 
needed. Enforcement would be done at the federal level by 
building on the current system where employers payroll-deduct 
child support payments. Instead of the state government 
agencies in each state having their own systems to do this, the 
new law would have payments paid just like federal income 
taxes. Withholding would be triggered by completion of a W-4 
form, and a verification process. Self-employed parents would 
pay child support quarterly just like Social Security taxes. At 
year's end, if all child support due was not paid, the 
obligated parent would be required to pay it just like unpaid 
federal taxes, or collection would be initiated by the IRS.
    For low income and unemployed fathers, states could 
continue to operate fatherhood programs. Such programs offer 
fathers, many of whom are young, an opportunity to develop 
parenting skills and job skills that will allow them to 
financially support their children. About 40% of the children 
who live in fatherless households haven't seen their fathers in 
at least a year. Census Bureau data shows that fathers who have 
visitation and custody arrangements are three times as likely 
to meet their child support obligations as those who do not. If 
collection of child support were through the tax collection 
system, local Domestic Relations Courts would have more time 
and resources to focus on visitation and custody issues.
    The child support system was established in 1975 in the 
Social Security Act. When the children born in 1975 were age 9, 
Congress acted again by passing the 1984 child support 
amendments. They deemed it necessary because the collection 
rate for children with cases open at the state government 
agencies was only about 20% and 50% of the children still 
needed orders established. When the children were age 13 in 
1988, Congress acted again and passed the Family Support Act. 
This law promised collection of child support via payroll 
deduction right from the time the order was entered in the 
divorce or paternity decree. It required the states to place a 
lien on the property of those who failed to pay support, and 
set up mathematical guidelines to determine a fair amount of 
support to be paid. In 1996, with the children grown (age 21), 
only 20% of them received child support and 50% never did get 
an order established to collect support. Congress, acted again 
through the welfare reform laws. Unfortunately, this didn't 
solve the problem because the infrastructure for an effective 
state-based child support enforcement system does not exist.
    State child support caseloads grow yearly and the amount of 
support collected increases, but the percentage of families 
receiving support remains at about 25%. We have now lost a 
whole generation of children because of a ``broken system''--
one that is state-based, different everywhere, and one where 
judges review cases one at a time in a slow, antiquated process 
designed for the 19th Century, when divorce or having children 
outside of the marriage was unusual. For example, in the State 
of Ohio, there are about 600 judges and more than 700,000 child 
support cases in need of legal action to establish or enforce a 
child support order. Even if every judge, Traffic Court to 
Supreme Court, worked day and night on child support cases they 
could not handle this caseload.
    Further, privacy issues associated with passing sensitive 
social security and financial information between many agencies 
and a private contractor hired by government is worrisome. It 
is almost impossible to ensure confidentiality when states have 
county child support agencies and contracts with private 
collection companies. Literally, any child support worker in 
the county could gain access to sensitive financial information 
that is essential for successful child support enforcement. The 
IRS already has this information listing place of employment 
and income. They have a proven track record of maintaining 
confidentiality.
    The child support agencies and courts throughout the county 
are already overburdened, and backlogged. They will not be 
capable of handling the new tools provided to them by the child 
support provisions in Welfare Reform. Please enact HR 1488, and 
make children as important as taxes!
      

                                <F-dash>


Statement of Charles Bacarisse, District Clerk, Harris County, Texas

    Ms. Chairman and distinguished members of the committee, I 
would like to submit this statement to lend my total support 
for this legislative proposal. Providing non-IV-D enforcement 
agencies with additional tools will make them more effective in 
ensuring that court-ordered child support is provided by non-
custodial parents.
    As the District Clerk of Harris County, Texas, I oversee a 
child support registry that processes more than $240 million in 
child support payments per year. That sum translates to over 
5,000 transactions and about 1 million dollars per working day. 
In fact, if Harris County were a state, it would rank 26th 
nationally in terms of child support payments processed. In my 
opinion, as the child support caseload continues to rapidly 
grow, child support enforcement agencies (including non-IV-D) 
must continue to enhance their enforcement methods. Assuring 
that deserving recipients receive their monthly checks is not 
just a duty of the child support community; it is a moral 
obligation.
    As you examine and discuss this matter, please consider 
these facts. In Texas, the IV-D agency's child support caseload 
is over 1 million cases and it grows by about 20,000 cases per 
month. This growth pattern has created a backlog that is 
systematic and without help from the non-IV-D agencies, the IV-
D agencies will never be able to adequately service every case.
    In Texas, like every other state, IV-D collection rates are 
disappointing and frustrated parents are often provided service 
that is too slow to keep up with their needs. Often, 
enforcement information obtained by the IV-D agency on behalf 
of the custodial parent is 'stale' by the time it is received.
    While the enforcement problem facing the child support 
community is monstrous by any standard, the solution, in my 
judgment, is not. A successful approach to addressing this 
problem requires the use of all available resources. By 
allowing local child support enforcement agencies to utilize 
tools currently only available to IV-D agencies, the local 
agencies could effectively handle cases that had previously 
overwhelmed the IV-D agencies. By absorbing these cases the 
non-IV-D agencies will provide custodial parents with 
responsive, local service. Not only is this a commonsense 
approach, it is also taxpayer friendly. Where federally funded 
IV-D agencies cost taxpayers over $3 billion per year, at a 
cost-effectiveness ratio of less than $4 in collected child 
support for every $1 of administrative expenditures, locally 
funded enforcement agencies offer service at no cost to the 
federal taxpayer. In Harris County, the local enforcement 
agency is funded by fees paid by those who use its child 
support and visitation enforcement services. The user fees are 
based on income and ability to pay.
    Unfortunately, non-IV-D agencies are not allowed to use 
certain enforcement tools. Because these tools are exclusively 
used by IV-D agencies most custodial parents are forced to use 
their services. As mentioned above, this situation is partly to 
blame for the overwhelming caseloads currently being handled by 
IV-D agencies. Let's give custodial parents a choice.
    The enforcement tools that I believe should be pushed down 
to the local level are income withholding for unemployment 
insurance benefits, passport revocation, and federal income tax 
refund interception.
    All of these measures would require safeguards in regards 
to access to, and use of, confidential information maintained 
in federal databases. The legislation should require any non-
IV-D enforcement agency to register with the Department of 
Health and Human Services. These measures would ensure that the 
use of these tools would be solely for the enforcement of child 
support. It goes without saying that the use of these tools 
would be helpful in closing the collections gap if they could 
be used by non-IV-D entities.
    Ms. Chairman and members of the committee, I hope that I 
have clearly defined the gravity of this situation. While this 
legislation will not solve every problem faced by the child 
support community and those that depend on these payments, the 
need for it is great and it is now.
    Thank you for allowing me to present this statement before 
your committee.
      

                                <F-dash>


Statement of Richard Bennett, President, Coalition of Parent Support, 
Livermore, California

                              Introduction

    The Coalition of Parent Support is a California advocacy 
group representing divorced fathers and non-custodial mothers. 
We've been involved in the efforts recently undertaken in 
California to restructure the Title IV-D welfare reimbursement 
and child support and system, as invited speakers and members 
at several legislative committee hearings, commissions, and 
oversight boards. Some of the recommendations we've presented 
on child support reform have been adopted, and some have 
stimulated new dialog on aspects of the system that haven't 
received adequate attention in the past.

                          The Role of Fathers

    We're concerned about the tendency to view divorced and 
never-married fathers as nothing more than a source of income 
for the mothers of our children. Recently, some high-profile 
absent fathers have sought to deflect criticism about their 
lack of participation in the lives of their children by saying 
``But I paid all my child support.'' We don't accept such 
excuses. All of us who bring children into the world, mothers 
and fathers alike, have a responsibility to provide our 
children with financial support, and more. Children don't 
become healthy, responsible, happy adults unless they're 
provided with emotional support and guidance in their moral and 
academic development. Fathers are an indispensable resource for 
the development of children, and so are mothers.

                         The Value of Marriage

    We're pleased that the pendulum is shifting on the value of 
marriage to children and society. For too long, academics and 
certain interest groups went too far in understressing the 
value of this battered institution, celebrating the supposedly 
liberating value of divorce, especially for women, to an 
extraordinary degree. The point of view that marriage doesn't 
matter reached its zenith in an article recently published in 
the American Psychologist that essentially denied the unique 
benefits that good marriages hold for children. Fortunately, 
the article (by Louise Silverstein and Carl Auerbach of Yeshiva 
University) was soundly condemned by the media.
    Thanks to researchers and social theorists like David 
Blankenhorn, David Popenoe, and Barbara Dafoe Whitehead, the 
pro-marriage perspective now has a voice at the public policy 
table where issues about children and families are concerned. 
This is a healthy development, but one that might also go too 
far in its direction if it's the only perspective in the 
debate.
    In many ways, the marriage-boosters are even more down on 
fathers than those who devalue marriage. They claim that 
marriage has a ``civilizing influence'' on men that binds us 
our children in a way that cohabitation doesn't. With all 
respect to these authors, this is a lot of romantic and bigoted 
hooey.
    The only functional difference between a cohabiting couple 
committed to raising a child together and a married couple is 
that the married couple filed a piece of paper at the 
courthouse and paid a tax, while the cohabiting couple did not. 
The cohabiting couple enjoy certain advantages over the married 
couple: they don't have to pay the government's marriage 
penalty each April 15th, for one, and they don't face the 
possibility of California's lifetime alimony law that kicks in 
for both men and women after ten years of marriage, for 
another.
    The notion that fathers are uniquely in need of civilizing 
is also offensive and in contradiction to the research. Since 
mothers commit more crimes of violence against children than 
fathers, including murder, we have to reject Blankenhorn and 
Popenoe's thesis that we're dangerous unless married, just as 
we reject Silverstein and Auerbach's claims that we cost more 
than we bring to the family.

                          Incentives to Marry

    Marriage is good for men, women, and children, and we wish 
that the Congress and our state legislatures would please 
repeal all of the legislation currently in place that 
discourages marriage. Then, the discussion of incentives to 
marry will have more positive effect.
    In the meantime, we have to support the value and the 
participation of fathers in the lives of their children 
wherever we find fathers: in marriage, in committed 
relationships, and in divorce. Single fathers are rarely single 
by choice, and we love our children as much as their mothers 
do.
    The first thing the government can do to support and 
encourage marriage is to remove the barriers that keep people 
out of it at present.

      Whether child support arrearages should be given to mothers

    Some, but not all.
    Child support arrearages that accumulate while the mother 
was on welfare--welfare reimbursement arrearages--are largely 
uncollectable debts. To understand why this is so, it's 
necessary to understand how and why they accumulate.
    In the vast majority of IV-D cases, child support orders 
are issued by default because the father was either not served 
with proper notice of the hearing, or he was too afraid of the 
system to show up. At the hearing, an order is issued without 
any consideration of his ability to pay, generally at a level 
far excess of his means. This order is made retroactive to some 
time on the past--three years under present California law, and 
one year if the governor signs a bill we put on his desk a few 
weeks ago--and the father is instantly carrying a debt that 
accumulates interest faster than he can pay it off.
    Meanwhile, because mother is on welfare, any money he does 
pay on this order (except for the token passthrough) is seized 
by the government and does not benefit the children. So what 
happens in many of these cases is that the father makes cash 
payments to the mother under-the-table because he doesn't want 
to see his children go hungry. This puts him in a deeper hole 
with the IV-D system, which doesn't give him any credit for 
these payments.
    So by the time mother's welfare time limits expire, father 
is in debt for two or three years' salary. Transferring this 
paper debt to the mother will not benefit the children, but it 
will ensure that father does not become a regular member of 
society, ever. He will still be paying child support to mother 
when the children are grandparents. This is a horrible idea, 
and one that has bizarre consequences if custody changes after 
mother leaves welfare. Then we have father supporting the 
children in his household, while paying all his disposable 
income to an absent mother. Changes of custody happen all the 
time in these families, by the way.
    A better way to handle welfare reimbursement debt is to use 
it as leverage to encourage good behavior:
    1. Waive the welfare debt if the couple marries.
    2. Waive the welfare debt if the obligor makes current 
payments as he should.
    3. Pass some of the welfare debt to the mother--a year's 
worth--provided she doesn't interfere with the father's 
parenting time with the children.
    4. Pass any welfare debt remaining after the children reach 
majority directly to the children for education or vocational 
training.
    5. Waive the welfare debt if there's a change of custody.
    We'd like to clarify that don't like the practice of 
welfare reimbursement to begin with, however, but if you 
eliminate it, you have come up with a new formula for funding 
IV-D. Presently, the state of California makes a $200 million 
profit from IV-D each year, and that's money our governor is 
not eager to give up. We tried to eliminate it this year, and 
when we learned that we couldn't, we tried to increase the 
passthrough from $50 to $75 per month, and we couldn't even do 
that. So good luck eliminating welfare reimbursement, our least 
favorite Reverse Robin Hood Tax.

      Whether fatherhood services should be provided primarily by 
                nongovernmental or governmental entities

    Of course.

What the level of coordination should be with child support enforcement 
    agencies, the TANF agency, and the agency conducting Workforce 
                        Investment Act programs

    California has just begun a major reorganization of our 
child support enforcement agency, and until the new 
organization is in place, we can't consider any new 
requirements for coordination with other programs. It's not 
practical. The other agencies should coordinate with Fatherhood 
programs, however.

 Whether the approach of earmarking funds for projects that emphasize 
 the enrollment of fathers at the time of the child's birth is a good 
                                  one

    On it's face, this seems like a good emphasis. There are 
some problems with voluntary paternity programs, however. These 
programs are great when the man signing the paternity 
declaration actually is the father, but if he's not (and has 
merely been told he is), then they amount to an illegal 
adoption program. Paternity declarations by unmarried men 
should always be supported by a DNA test showing that the man 
is, in fact, the father of the child. Any program of voluntary 
paternity that ensures due process for the actual father and 
for the child is a good one, and should be supported, of 
course.

 On expanding access to government child support enforcement procedures

    We would not support this policy. IV-D tools are not 
sufficiently fool-proof to make available to the general public 
without tremendous outcry over mistaken identity, falsely 
calculated arrears, and mistakenly suspended licenses. This is 
a recipe for disaster.

                               Conclusion

    We're pleased that this Congress has opened a dialog, for 
the first time, on the extra-monetary value of fathers. We hope 
that this dialog continues, and results in the creation and 
funding of policies and programs that support the efforts made 
every day by fathers in every situation to have a positive 
influence on our children. All of us, whether we are married, 
divorced, separated, or cohabiting, love our children. All of 
us want our children to become healthy, happy, productive 
adults. For too long, there has been a tendency to demonize 
fathers as deadbeats and abusers, for reasons that aren't 
entirely clear.
    Certainly, there are some deadbeat dads, just as there are 
some abusive mothers and some dishonest politicians and biased 
reporters. Discarding this destructive rhetoric and focusing on 
our positive and constructive potential can make the world a 
better place for our children and the rest of society. Please 
continue down that path.
    Richard Bennett,
    President, Coalition of Parent Support
    (408) 326-1845
      

                                <F-dash>


Statement of Casey Hoffman, Founder, Supportkids.com, Austin, Texas

    Madam Chair, Representative Cardin and distinguished 
members of the Subcommittee: Thank you for the opportunity to 
testify on expanding access to government child support 
enforcement procedures.
    My name is Casey Hoffman. I am the founder of 
Supportkids.com, a private company that collects child support 
for custodial parents. Before founding Supportkids in 1991, I 
served for five years as Special Assistant Attorney General and 
Director of the Child Support Enforcement Division of the 
Office of the Texas Attorney General, the state's designated 
agency for the administration of the child support enforcement 
program under Title IV-D of the Social Security Act. During my 
tenure as Director of the nation's largest Title IV-D program, 
the Texas program was recognized by this subcommittee and by 
the National Child Support Enforcement Association of 
Washington, D.C. as the ``Most Improved'' in the nation. Prior 
to my heading the Texas Title IV-D program, I was an assistant 
district attorney, practiced family law in Massachusetts for 
eighteen years, and, in 1984, served as President of the 
Massachusetts State Bar Association as well as a member of the 
Massachusetts Governor's Child Support Commission. While I am 
currently serving as the immediate past president of the 
National Child Support Enforcement Association on its board of 
directors, I want to state for the record that I am not 
representing that organization here today nor presenting its 
viewpoint on any issue.
    I last testified before this committee on May 19, 1998, and 
submitted written testimony as to the limitations of the Title 
IV-D community to work the caseload that has been mandated by 
federal legislation. It is inconceivable that any professional 
in the child support community would offer testimony that would 
suggest that we have made significant progress in working 
through the 20 million cases in the Title IV-D program. More 
importantly, a prognosis that we will significantly impact the 
caseload in the next few years would be an ungrounded 
assessment that would be met with skepticism especially by the 
dedicated people who actually work these cases everyday. In 
fact, each year, regardless of the millions of cases that are 
closed, we have fallen further behind and now additional 
billions of dollars in child support are owed to custodial 
parents. If I have the privilege of testifying before you any 
time within the next five years, I am positive that there will 
be billions more in unpaid child support on the books. Sadly, 
there are the very real faces of parents and children that 
speak much more powerfully to the need for more professionals 
to work on these important cases than does the adding up of all 
the statistics that prove beyond a reasonable doubt that the 
Title IV-D program is overwhelmed.
    There is no need to repeat my previous testimony in 1998 
and set forth updated statistics or put forth the very same 
proposals that were presented for your consideration and 
adoption on this very issue. It is all a matter of record. 
Congress must recognize the difference it can make today in the 
lives of millions of children at no cost to the federal 
taxpayer. Until that occurs, the specific proposals suggested 
in my earlier testimony may be considered good policy and 
adopted at some time in the future. With that in mind and with 
a sense of urgency, I would at this time respectfully ask you 
to listen to the testimony of Susan B. Williams who traveled to 
our nation's capital to assist this committee in understanding 
the impact of unpaid child support on the millions of custodial 
parents and children because there is no one to work their 
cases in the Title IV-D agencies. After hearing Susan Williams, 
I believe you will be convinced to act now rather than later.
    Susan Williams is one of those 15 million-plus parents who 
have previously sought help from the Title IV-D program and did 
not receive a monthly child support check. Susan Williams 
refused to become a victim in despair and instead chose to seek 
help from professionals outside the Title IV-D community to 
work a case that if successful pursued would make a big 
difference in her daughter's life. I have attached the written 
testimony of Susan Williams as Appendix A at the end of my 
testimony.
    I am here today to give testimony that asserts forcefully 
but respectfully that the parents who make the choice to use 
public and private sector services outside of the Title IV-D 
agency are not being treated fairly. Furthermore, it is that 
same government that promised them services and failed to 
deliver on that promise that now fails to provide their chosen 
representative with the same tools that the Title IV-D agency 
has a right to use. The parents who are not receiving child 
support and seek help from outside of the Title IV-D program 
should have the same rights and the same tools to meet their 
objective of collecting child support as a parent who is a 
customer of the Title IV-D agency. We must not forget that one 
third of all the child support cases in this country are not 
part of the Title IV-D program. Why should those parents not 
have the benefit of important tools make available to the IV-D 
agencies.
    Over the years the legislation that has been passed by 
Congress that amended Title IV-D of the Social Security Act 
created a taxpayer-subsidized legal services program that has 
promised everyone, regardless of ability to pay, free services 
to establish, enforce, modify, collect and distribute court 
ordered child support. The problem, of course, arises from the 
fact that the legislative mandates on the Title IV-D agencies 
have never been funded at the levels needed to keep the 
promises. In the published articles I have written over the 
last 15 years, I have freely admitted that we could not 
possibly work the millions of cases in the Title IV-D system. 
On each and every occasion, I urged more funding for the Title 
IV-D program. Unfortunately not only have we not been fully 
funded to help the millions of children in the Title IV-D 
effort, there are now proposals to cut the funding.
    I have worked with this distinguished body for the past 15 
years to support legislation that would allow parents and their 
children to be treated fairly as they sought to enforce the 
lawful orders of our judges. The efforts of Congress in ending 
welfare as we knew it deserves the highest praise and the 
success of the legislation to date is well documented. Child 
support enforcement is one of the cornerstones of welfare 
reform and in order for it to work in the long term the Title 
IV-D program will need to be fully funded and they will need to 
prioritize their caseload. In addition, other non IV-D 
professionals will have to complement their efforts by working 
unresolved cases. I know that the members of this committee and 
Congress would never intentionally want to treat a parent who 
sought help outside the government Title IV-D program in an 
unfair manner, especially for such a needed service. I think 
now is the time to ask ourselves how we can continue to say NO 
to the millions of parents seeking child support services that 
are in effect standing in the same place as Susan Williams but 
who are not able to collect the child support owed their 
children.
    How can we say NO to parents like Susan Williams who ask 
that their private attorneys who are representing them be 
allowed to assert the same rights and use the very same tools 
that are currently being used by the IV-D agencies.
    How can we say NO to parents like Susan Williams who ask 
that their non-Title IV-D government agency which is 
representing them be allowed to assert the same rights and use 
the very same tools that are currently being used by the IV-D 
agencies.
    How can we say NO to taxpayers like Susan Williams who paid 
for the development and implementation of these same tools that 
the Title IV-D community uses and then deny her and her lawful 
representative access to them.
    How can we say NO to taxpayers like Susan Williams who are 
not allowed to have their legal representative take advantage 
of and assert the rights that you legislated exclusively to the 
Title IV-D community.
    How can we say NO to the Susan Williams who are committed 
to teaching their children that it is the responsibility of 
parents to stand up for their children and seek justice for 
them.
    How can we say NO to the Susan Williams of this country who 
are committed to teaching their children that you obey the 
lawful orders of a court and if you do not there are 
consequences.
    How can we say NO to all the Susan Williams who believe 
that their employers should not be burdened by the problem of 
unpaid child support. The Susan Williams of this country know 
that when you work two jobs you are probably not at peak 
performance at one or both of those jobs. Single custodial 
parents know the real effects on their health when they have to 
work two jobs to make ends meet and are under great pressure to 
meet the needs of their children. Lost time on the job for 
court appearances and meetings with attorneys reduces 
productivity and creates even more pressure on custodial 
parents.
    As concerned, compassionate citizens, we can support the 
political leaders who were the proponents and architects of 
welfare reform, and we must take actions to make sure that 
those who have escaped poverty receive their child support 
check as well as their paycheck.
    As taxpayers like Susan Williams, we need to support people 
in leaving public assistance by collecting a child support 
check as well as a paycheck. We must remain steady in our 
commitment to parents to ensure they receive effective child 
support services and make their way up the economic ladder.
    As a concerned, compassionate citizen, Susan Williams knows 
that we need to collect the child support owed custodial 
parents so that they can avoid getting a second job that takes 
them out of the home at the end of school, at dinner time, at 
bed time or on the weekends. Lost time with your children is a 
heavy price to pay when you have to work two jobs to make ends 
meet.
    As taxpayers like Susan Williams we know that every case 
worked by a professional in the private sector is one less case 
to be worked in the public sector and paid for with tax 
dollars. Working a case to a successful conclusion in the 
private sector in many cases requires access to the same 
enforcement rights and tools that the Title IV-D agency has in 
their programs.
    As a concerned, compassionate citizen, Susan Williams knows 
that approximately 20 percent of our children in this country 
live in poverty and if adequate child support was paid they 
could be lifted out of poverty. Many of these cases could be 
worked if there were more services being provided by the 
private sector and non-IV-D child support agencies to 
complement the work of the IV-D agencies.
    As a citizen, Susan Williams is concerned that she is 
living in one of the richest nations in the world where one out 
of every five children (and one out of every four in major 
cities) is living in poverty. The number one reason for this 
condition is the failure to pay child support. As a school 
teacher, Susan Williams knows the harm that befalls children 
living in poverty:
    They are 4 times more likely to be involved in the juvenile 
justice system.
    They are 5 times more likely to be hospitalized for 
accidents and injury.
    They are 2 times more likely to drop out of school.
    They are 1.3 times more likely to have learning 
disabilities.
    They are going to have IQ scores 9 points lower than other 
children by age 5.
    They are going to score 11 to 25 percent lower than other 
children on achievement tests.
    In conclusion, I would urge you to provide more funding for 
the Title IV-D program and say YES to the good men and women 
who work hard in the Title IV-D agencies across the country. We 
should not forget that it is this same dedicated Title IV-D 
staff that has to say NO to millions of families that come to 
them for help with their child support problems. They have to 
say no in these situations because the reality is and will 
continue to be that they are overwhelmed by the size of their 
caseloads. These same cases could be worked effectively by 
private attorneys and non-Title IV-D government agencies the 
possibility of success increases if they are given the same 
rights and tools as the IV-D agencies. The burden can be lifted 
on the IV-D agencies if we support other professionals in 
working these important cases and support the parents in having 
a choice as to who will work their case.
    I want to express my sincere thanks to this committee and 
their staff for once again inviting me to give oral testimony 
as well as submit written testimony on this important 
legislation. More importantly, after hearing Susan Williams, I 
hope that you will be able to vote YES to legislation that 
supports expanding access to the tools you have given to the 
Title IV-D government agencies. I respectfully urge you to vote 
YES on legislation that supports the efforts of private 
attorneys and non-Title IV-D government agencies in 
successfully working these important cases.
      

                                <F-dash>


Statement of Tracie Snitker, Director, Government Relations Men's 
Health Network

    The Men's Health Network again welcomes the opportunity to 
submit testimony on the issue of fatherhood. The Human 
Resources Subcommittee as well as the current Administration 
should be applauded for recognizing fathers as an integral part 
of their children's lives. As current fatherhood initiatives 
are being considered we must make efforts to reduce the 
barriers that keep fathers from becoming involved with their 
children.
    We feel that the ultimate goal of any fatherhood 
legislation should be to engage the participating father in 
actively parenting his child(ren). Unfortunately, the current 
draft of this bill will not achieve that goal. We propose 
language which focuses the bill on successful parenting and 
insures that this goal is implemented on the state and local 
level. Our recommended changes are attached to this testimony. 
These changes are meant to insure the following outcomes:
    <bullet> Fathers will know how to parent their children.
    <bullet> Fathers will be actively involved in parenting 
their children.
    <bullet> Fathers will have financial child support orders 
consistent with their ability to support their children.
    Specific language changes address the following concerns:

                     Domestic violence provisions:

    Domestic violence diversion courses are currently well 
funded and ubiquitous. Courts and administrators are expected 
to require attendance in such a course if evidence of domestic 
violence arises. A fatherhood bill should focus on possible 
parenting deficiencies rather than restate existing law.

                            Parenting Plans:

    Arrangements for division of parenting time between the 
parents should be developed in a mediated atmosphere.

                Fatherhood Grants Recommendations Panel:

    The Fatherhood Grants Recommendations Panel should consist 
of persons who can demonstrate a history of commitment to 
programs that promote positive father involvement and Section 
442(b)(1) of the bill should be rewritten to reflect those 
qualifications.

        Child support obligations should reflect ability to pay:

    Most low income fathers have court ordered child support 
obligations which are inappropriate for the state's child 
support guideline and exceed their ability to pay. Those child 
support orders should be modified to comply with the state's 
guidelines.

    State Plans should explain how the program will be implemented:

    States should be required to submit a State Plan describing 
how the state intends to implement this legislation.

  Eligibility should reflect the lifestyles of the population served:

    The programs should be open to parents who are experiencing 
the birth of their first child even if either parent had 
children with another individual.

Personal Responsibility Contracts should define the responsibilities of 
                             both parents:

    The Personal Responsibility contract entered into by the 
parent must outline the parenting time responsibilities of each 
parent and be binding on both parents. Noncustodial parents who 
are completing basic education or job training should have 
child support obligations cancelled during that period.

                The Bradley Amendment impedes progress:

    This Committee invited testimony from a retired judge who 
explained that the Bradley Amendment unfairly restricts the 
court's ability to make decisions that are in the child's best 
interest.\1\ Written testimony received by this Committee 
reflected the frustration that the Bradley Amendment causes 
state legislators when trying to design state programs that 
encourage parental participation in the child support 
system.\2\
    Addendum 1. Suggested language changes to the Discussion 
Draft
    Addendum 2. Bradley Amendment portends of failure for the 
programs.
[GRAPHIC] [TIFF OMITTED] T3641.003

[GRAPHIC] [TIFF OMITTED] T3641.004

[GRAPHIC] [TIFF OMITTED] T3641.005

[GRAPHIC] [TIFF OMITTED] T3641.006

[GRAPHIC] [TIFF OMITTED] T3641.007

[GRAPHIC] [TIFF OMITTED] T3641.008

[GRAPHIC] [TIFF OMITTED] T3641.009

[GRAPHIC] [TIFF OMITTED] T3641.010

      

                                <F-dash>


                             Office of the Attorney General
                                  State of Texas           
                                     Child Support Division
                                                   January 20, 2000
Congresswoman Nancy L. Johnson
Chairwoman, Subcommittee on Human Resources
Committee on Ways and Means
2113 Rayburn House Office Building
Washington, D. C. 20515

    Dear Congresswoman Johnson:

    At the October Subcommittee on Human Resources hearing on 
``Fatherhood Legislation,'' your members heard testimony about access 
and visitation programs. I would like to provide your committee with 
information about Texas' experience with the federal grant that funds 
these worthwhile programs. I would also like to emphasize our keen 
interest in continued funding as this grant allows our agency to 
participate in the critical issue of fostering stronger parent/child 
relationships with non-custodial parents without overstepping the 
boundaries of federal and state mandates which disallow our 
intervention in visitation and custody issues.
    As you know, the Access & Visitation Grant was created by Congress 
to ``enable states to establish and administer programs to support and 
facilitate non-custodial parents' access to and visitation with their 
children.'' Eligible grant activities include mediation, counseling, 
education, development of parenting plans, visitation enforcement 
(including monitoring, supervision and neutral drop-off and pick-up 
sites), and development of guidelines for visitation and alternative 
custody arrangements. Federal law allows the states to either use 
allocated funds to carry out program objectives within the Title IV-D 
agency or to make subgrants to eligible entities in local communities. 
The Office of the Attorney General (OAG) determined that distributing 
grant funds to community-based programs would have a significantly 
greater impact on the citizens of those communities than would 
operating a centralized, state-run initiative. Therefore, we chose to 
allocate funding to those programs which would best fulfill the grant 
objectives.
    Current law does not permit grant funding to be used to support the 
establishment of visitation orders. The OAG understands that Congress 
has established enforcement as one of the most critical components of 
the Access and Visitation grant, and has given preference to grant 
applicants with a focus on enforcement activities, as described in the 
enabling legislation, in all three years of the program's history.
    The Texas Access & Visitation Program has a proven track record of 
successfully addressing the needs of non-custodial parents, and we are 
understandably proud of that record. As previously stated, the CSD 
provides financial support via subgrants to a broad range of community-
based service providers, then carefully monitors the programs for 
performance and cost effectiveness. Texas' share of the $10 million 
appropriation was set at $704,262 for the first two years and $624,429 
for subsequent years, providing Congress does not alter the level of 
funding. Although modest in comparison to other federally-funded 
programs, this initiative provides non-custodial parents with viable 
avenues for developing meaningful relationships with their children. 
Prior to receiving financial awards from the Access & Visitation grant, 
these programs encountered limited resources for funding.
    In order to ensure a fair, impartial and comprehensive review of 
applications, CSD management established a panel of experts from 
outside the OAG to determine the award recipients and funding amounts. 
The panel is routinely comprised of IV-D Masters, who preside over 
child support cases, and representatives from the Texas Office of Court 
Administration. In addition to the judicial segment of the panel, other 
members have represented the Texas Child Protective Services agency and 
The University of Texas School of Law. Each selection criterion is 
subject to a point system, and awards are made to those applications 
scoring the greatest number of points.
    FFY97, FFY98, and FFY99 subgrantees reflected a broad spectrum of 
service delivery organizations. These entities are geographically 
dispersed across the state in both large and small communities. Most of 
the subgrantees are private, non-profit organizations, while a few 
subgrantees are divisions within county governments. Among the 
subgrantees are advocacy groups, social service organizations and legal 
service entities.
    In keeping with the directives of Congress, subgrantees are 
restricted to those activities outlined in the enabling legislation. 
The primary, preferential element funded by the OAG is visitation 
enforcement. As defined by Congress, visitation enforcement includes 
``monitoring, supervision and neutral drop-off and pickup.'' The OAG 
refers to the neutral drop-off activity as ``parental exchanges'' to 
emphasize the true nature of the activity. As a supplement to these 
enforcement remedies, the OAG also gives preference to parental 
education programs.
    During the FFY97 and FFY98 grant years, 13 programs provided a 
remarkable level of services in their respective communities. Building 
on the strengths that these local community organizations bring to the 
program, the OAG has enhanced its focus on performance-based 
programming for FFY99. Even with the reduction in federal funding for 
this period, the OAG estimates a significant return on the investment 
of federal and local dollars in this critical endeavor.
    During the FFY99 grant period, grantees provided:
    <bullet> approximately 23,400 hours of supervised visitation;
    <bullet> over 3,500 neutral drop-offs;
    <bullet> nearly 5,500 hours of parental education;
    <bullet> over 800 hours of professional counseling/parenting plan 
development;
    <bullet> grantee-sponsored community fatherhood summit;
    <bullet> attorneys to assist non-custodial parents with enforcement 
of visitation orders; and
    <bullet> parenting plan development and enforcement.
    As part of the OAG's effort to maintain program integrity and to 
support the subgrantees' efforts in delivering program services, a 
comprehensive monitoring initiative has been developed in accordance 
with the Final Rule on Monitoring, Evaluation and Reporting, 
promulgated by HHS, effective March 30, 1999. The OAG established an 
independent team of specialists who conduct field assessments of each 
subgrantee's performance, financial policies and practices, client 
record protection policies and practices, and adequacy of grant billing 
support documentation. Written assessments are provided to CSD 
management, thereby allowing the agency to take action or to enhance 
performance monitoring if warranted. These independently written 
reports are available to the application review panel as a tool for 
rating grantees' past performances.
    In addition to formal monitoring, the CSD has designated a project 
team to oversee the day-to-day activities, respond to subgrantee 
inquiries, process and approve requests for reimbursement and monitor 
ongoing performance. This project team is charged with the 
responsibility of ensuring that subgrantee performance indicators are 
reported and to
    intercede if performance falls below expected levels. By contract, 
the OAG reserves a substantial array of remedies to protect program 
interests and to ensure optimal performance.
    In closing, I would like to reiterate that our agency is very 
pleased with the direction this program is taking and proud of the 
accomplishments to date. Should you have any questions or need 
additional information, please contact me. Thank you for your 
continuing support of this critical program.
            Sincerely,
                                     Howard G. Baldwin, Jr.
                          Deputy Attorney General for Child Support

    HGB:pjf
    cc: Mr. David Arnaudo, Access & Visitation Grant Program Manager, 
Office of Child Support Enforcement, Administration for Children and 
Families, U.S. Department of Health and Human Services
    bcc: Mr. Ron Haskins, Subcommittee on Human Resources, U.S. House 
Committee on Ways and Means

                                   - 

</pre></body></html>
